<html>
<title> - EXPERIENCES OF VULNERABLE POPULATIONS DURING DISASTER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         EXPERIENCES OF VULNERABLE POPULATIONS DURING DISASTER

=======================================================================

                                (116-62)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-967 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                            

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
SCOTT PERRY, Pennsylvania            STEVE COHEN, Tennessee
RODNEY DAVIS, Illinois               ALBIO SIRES, New Jersey
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
LLOYD SMUCKER, Pennsylvania          DONALD M. PAYNE, Jr., New Jersey
PAUL MITCHELL, Michigan              ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               MARK DeSAULNIER, California
MIKE GALLAGHER, Wisconsin            STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama              STEPHEN F. LYNCH, Massachusetts
BRIAN K. FITZPATRICK, Pennsylvania   SALUD O. CARBAJAL, California, 
JENNIFFER GONZALEZ-COLON,            Vice Chair
  Puerto Rico                        ANTHONY G. BROWN, Maryland
TROY BALDERSON, Ohio                 ADRIANO ESPAILLAT, New York
ROSS SPANO, Florida                  TOM MALINOWSKI, New Jersey
PETE STAUBER, Minnesota              GREG STANTON, Arizona
CAROL D. MILLER, West Virginia       DEBBIE MUCARSEL-POWELL, Florida
GREG PENCE, Indiana                  LIZZIE FLETCHER, Texas
MIKE GARCIA, California              COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

     DINA TITUS, Nevada, Chair
JOHN KATKO, New York                 DEBBIE MUCARSEL-POWELL, Florida
GARY J. PALMER, Alabama              SHARICE DAVIDS, Kansas
JENNIFFER GONZALEZ-COLON,            ELEANOR HOLMES NORTON,
  Puerto Rico                          District of Columbia
CAROL D. MILLER, West Virginia       HENRY C. ``HANK'' JOHNSON, Jr., 
GREG PENCE, Indiana                  Georgia
MIKE GARCIA, California              JOHN GARAMENDI, California
SAM GRAVES, Missouri (Ex Officio)    ANTHONY G. BROWN, Maryland
                                     LIZZIE FLETCHER, Texas, Vice Chair
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chairwoman, Subcommittee on Economic Development, 
  Public Buildings, and Emergency Management:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. John Katko, a Representative in Congress from the State of 
  New York, and Ranking Member, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure, prepared statement.............................    73
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    73

                               WITNESSES

Curtis Brown, State Coordinator of Emergency Management, Virginia 
  Department of Emergency Management, testifying on behalf of the 
  Institute for Diversity and Inclusion in Emergency Management:

    Oral statement...............................................     6
    Prepared statement...........................................     8
Chad Higdon, Chief Executive Officer, Second Harvest Community 
  Food Bank:

    Oral statement...............................................    14
    Prepared statement...........................................    15
Marcie Roth, Executive Director and Chief Executive Officer, 
  World Institute on Disability:

    Oral statement...............................................    21
    Prepared statement...........................................    23
Diane Yentel, President and Chief Executive Officer, National Low 
  Income Housing Coalition:

    Oral statement...............................................    33
    Prepared statement...........................................    35

                       SUBMISSIONS FOR THE RECORD

Statement of Erik Talkin, Chief Executive Officer, Foodbank of 
  Santa Barbara County, Submitted for the Record by Hon. Salud O. 
  Carbajal.......................................................    57
Report, ``Preserving Our Freedom: Ending Institutionalization of 
  People with Disabilities During and After Disasters,'' May 24, 
  2019, National Council on Disability, Submitted for the Record 
  by Hon. Jenniffer Gonzalez-Colon...............................    69

                                APPENDIX

Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to 
  Curtis Brown, State Coordinator of Emergency Management, 
  Virginia Department of Emergency Management, testifying on 
  behalf of the Institute for Diversity and Inclusion in 
  Emergency Management...........................................    75
Questions to Chad Higdon, Chief Executive Officer, Second Harvest 
  Community Food Bank, from:

    Hon. Peter A. DeFazio and Hon. Dina Titus....................    80
    Hon. Henry C. ``Hank'' Johnson, Jr...........................    83
    Hon. John Garamendi..........................................    83
Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to 
  Marcie Roth, Executive Director and Chief Executive Officer, 
  World Institute on Disability..................................    84
Questions to Diane Yentel, President and Chief Executive Officer, 
  National Low Income Housing Coalition, from:

    Hon. Peter A. DeFazio and Hon. Dina Titus....................    85
    Hon. Henry C. ``Hank'' Johnson, Jr...........................    91
    Hon. John Garamendi..........................................    92

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             July 24, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:  LStaff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:      LSubcommittee Hearing on ``Experiences of 
Vulnerable Populations During Disaster''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Tuesday, July 28, 2020, 
at 10:00 a.m. in 2167 Rayburn House Office Building and via 
Cisco Webex, to receive testimony on ``Experiences of 
Vulnerable Populations During Disaster.'' At the hearing, 
Members will receive testimony directly from witnesses who work 
to address hardships of several populations disproportionately 
impacted during disaster. The Subcommittee will hear from the 
Partnership for Inclusive Disaster Strategies, the National Low 
Income Housing Coalition, the Institute for Diversity and 
Inclusion in Emergency Management, and the Second Harvest 
Community Food Bank. This hearing will serve as a venue for 
this Subcommittee to hear from groups working on behalf of some 
of the larger vulnerable communities in the United States on 
how they are impacted during disasters, but it is not meant to 
be an exhaustive group speaking on behalf of all vulnerable 
communities.

                               BACKGROUND

    Disasters of varying forms and intensities strike this 
Nation randomly and without prejudice to the people impacted. 
Disaster survivors may experience varying degrees of impact and 
assistance as a result of their race, creed, color, ethnicity, 
physical or mental ability, and socio-economic standing.\1\ 
Federal agencies providing disaster relief are subject to a 
clear nondiscrimination clause in the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (Stafford Act, 
P.L. 93-288, as amended).\2\ Further, Title VI of the Civil 
Rights Act (P.L. 88-352) and the subsequent Americans With 
Disabilities Act (ADA, P.L. 101-336) provide additional 
assurances that should eliminate disparities in assistance, but 
there are many examples where varying types of assistance are 
delayed, denied, or simply not disbursed equitably to disaster-
impacted populations.\3\
---------------------------------------------------------------------------
    \1\ Wilson, Charley E., Phillip M. Singer, Melissa S. Creary, and 
Scott L. Greer. ``Quantifying inequities in US federal response to 
hurricane disaster in Texas and Florida compared with Puerto Rico,'' 
available at https://gh.bmj.com/content/4/1/e001191; Hamel, Liz, Bryan 
Wu, and Mollyann Brody. ``An Early Assessment of Hurricane Harvey's 
Impact on Vulnerable Texans in the Gulf Coast Region: Their Voices and 
Priorities to Inform Rebuilding Efforts,'' Kaiser Family Foundation, 
December 5, 2017, available at https://www.kff.org/other/report/an-
early-assessment-of-hurricane-harveys-impact-on-vulnerable-texans-in-
the-gulf-coast-region-their-voices-and-priorities-to-inform-rebuilding-
efforts/.
    \2\ 42 U.S.C. 5151.
    \3\ See footnotes 1, 5, 18, 21, and 31.
---------------------------------------------------------------------------
    Hurricane Katrina in August 2005 was a perfect storm with 
respect to its outsize impacts on vulnerable communities. In a 
November 2005 report shortly following the storm, the 
Congressional Research Service (CRS) wrote the following 
regarding social impacts of the storm:

        ``Hurricane Katrina likely made one of the poorest areas of the 
        country even poorer. Among those displaced by the storm, many 
        lost their homes, material possessions, and jobs. Some had 
        insurance to replace their material property losses, received 
        help from FEMA or Small Business loans to get by on an 
        emergency basis or replace property, or received unemployment 
        insurance or disaster unemployment insurance to replace lost 
        wages. However, some who lived in the areas most impacted by 
        the storm may now be destitute; while having financially gotten 
        by before the storm, in the storm's aftermath they may have 
        joined the ranks of the poor. Further, the socio-economic 
        profile of the areas hardest hit by Katrina indicates that 
        these newly poor would join a population that was already 
        disproportionately poor and disadvantaged. Before the storm, 
        the 700,000 people acutely affected by Katrina were more likely 
        than Americans overall to be poor; minority (most often 
        African-American); less likely to be connected to the 
        workforce; and more likely to be educationally disadvantaged 
        (i.e., not having completed a high school education). Both 
        those who were poor before the storm, and those who have become 
        poor following the storm, are likely to face a particularly 
        difficult time in reestablishing their lives, having few if any 
        financial resources upon which to draw.'' \4\
---------------------------------------------------------------------------
    \4\ Congressional Research Service, ``Hurricane Katrina: Social-
Demographic Characteristics of Impacted Areas'', November 4, 2005. 
Available at https://crsreports.congress.gov/product/pdf/RL/RL33141.

    8While Stafford Act Section 308 was in effect at the time 
of Hurricane Katrina, the 2005 hurricane season brought to 
light some of the discrepancies in Federal disaster planning 
and assistance for vulnerable communities, including 
disproportionate death and adverse impacts for many.\5\
---------------------------------------------------------------------------
    \5\ Barnshaw, John, Joseph Trainor. Race, Class, and Capital Amidst 
the Hurricane Katrina Diaspora, 2007; Farber, Daniel A. ``Disaster Law 
and Inequality,'' Law & Inequality: A Journal of Theory and Practice, 
2007, available at https://scholarship.law.umn.edu/cgi/
viewcontent.cgi?article=1122&context=lawineq.
---------------------------------------------------------------------------
    Statutory changes in the Post-Katrina Emergency Management 
Reform Act (P.L. 109-295, Title VI) led to the re-establishment 
of the Federal Emergency Management Agency (FEMA) as an agency 
focused on the total cycle of preparedness, prevention, 
response, recovery, and mitigation. Additionally, the 
legislation specifically called for the establishment of the 
Office of Disability Integration and Coordination at FEMA to 
work to ensure that communities with access and/or functional 
needs were incorporated into planning assumptions for hazard 
events.\6\
---------------------------------------------------------------------------
    \6\ P.L. 109-295, Subtitle A, Sec. 611.
---------------------------------------------------------------------------
    During the next several years, emergency management 
significantly transformed at the Federal level to improve upon 
the very public response and recovery shortcomings from the 
2005 storms. Perhaps the most significant foundational 
development was the issuance of Presidential Policy Directive-8 
(PPD-8) and its focus on bolstering national preparedness.\7\ 
PPD-8 led to the National Response Framework, the Recovery 
Framework, as well as a formal FEMA-led shift to a whole-of-
community approach to emergency management, intended to ensure 
that emergency managers and planners were not only working in 
concert with other organizations that play key roles during the 
response and recovery phases of an event, but also to ensure 
that there was an almost ``universal design'' to the programs 
and policies being reviewed, updated, or developed.\8\ Such an 
approach would ensure that disaster survivors would not 
necessarily need to seek special accommodations if they 
required them during an evacuation, seeking shelter, or seeking 
other assistance; the whole-of-community approach would take 
these needs into consideration as planning or operations were 
underway so the survivor's experience would be as seamless as 
possible.\9\
---------------------------------------------------------------------------
    \7\ Presidential Policy Directive 8--National Preparedness. https:/
/www.dhs.gov/presidential-policy-directive-8-national-preparedness.
    \8\ Federal Emergency Management Agency, ``A Whole Community 
Approach to Emergency Management: Principles, Themes, and Pathways for 
Action.'', December 2011. Available at https://www.fema.gov/media-
library-data/20130726-1813-25045-0649/whole_community_
dec2011__2_.pdf.
    \9\ Id.
---------------------------------------------------------------------------
    In 2016, there was a clear focus on a whole-of-community 
construct to emergency planning and management, including joint 
guidance released in August by the US. Departments of Justice, 
Health and Human Services, Housing and Urban Development, 
Homeland Security, and Transportation, as well as follow-up 
from DHS specifically to FEMA grantees in December.\10\ 
Unfortunately, there were examples during Hurricanes Harvey, 
Irma, Maria, and the ongoing COVID-19 pandemic that have 
highlighted areas where the Federal government, as well as 
state, local, tribal, and territorial governments, could 
improve support for vulnerable communities before, during, and 
after disasters.\11\
---------------------------------------------------------------------------
    \10\ U.S. Department of Justice, ``Federal Agencies Issue Joint 
Guidance to Help Emergency Preparedness, Response and Recovery 
Providers Comply with Title VI of the Civil Rights Act'', August 16, 
2016. Available at https://www.justice.gov/opa/pr/federal-agencies-
issue-joint-guidance-help-emergency-preparedness-response-and-recovery; 
U.S. Department of Homeland Security, ``Notice to Recipients on 
Nondiscrimination During Disasters'', December 5, 2016. Available at 
https://www.dhs.gov/publication/notice-recipients-nondiscrimination-
during-disasters.
    \11\ U.S. Government Accountability Office, ``FEMA Action Needed to 
Better Support Individuals Who Are Older or Have Disabilities'', June 
5, 2019. Available at https://www.gao.gov/products/GAO-19-318.
---------------------------------------------------------------------------

EMERGENCY MANAGEMENT WORKFORCE DOES NOT REFLECT SOCIETY

    Significant research and thought has focused on the impacts 
and costs of disasters, as these events have increased in 
number and severity, and have had greater societal impact. This 
includes work to identify inequities of disaster assistance for 
vulnerable populations--people and communities of color, of 
lower socio-economic standing, of differing levels of physical 
or mental ability or access, of limited English proficiency, 
and Native Americans.\12\
---------------------------------------------------------------------------
    \12\ See footnotes 1, 5, 18, 21, and 31; Urban Institute. 
``Improving the Disaster Recovery of Low-Income Families,'' available 
at https://www.urban.org/debates/improving-disaster-recovery-low-
income-families.
---------------------------------------------------------------------------
    Self-examinations of the emergency management workforce at 
most levels of government--Federal, State, and local--have 
identified a relatively homogenous workforce and a need to 
recruit a more representative set of individuals into the 
emergency management workforce to better serve the needs of the 
whole community during the entirety of the emergency management 
cycle.\13\
---------------------------------------------------------------------------
    \13\ Trotter, Brittany. ``Diversity in Emergency Management and the 
New Normal,'' March 18, 2016, available at www.fema.gov/blog/2016-03-
18/diversity-emergency-management-and-new-normal; Holdeman, Eric. 
``More Diversity Is Needed in Emergency Management.'' Government 
Technology--Emergency Management, September 19, 2014, available at 
www.govtech.com/em/training/More-Diversity-Needed-Emergency-Management-
Opinion.html;Laine, John, and Ellis Stanley. ``Diversity and Emergency 
Management.'' International Association of Emergency Managers, October 
2013. Available at https://www.iaem.org/portals/25/documents/Diversity-
and-EM-2013.pdf.
---------------------------------------------------------------------------

SELECT CHALLENGES FACED BY VULNERABLE POPULATIONS BEFORE, DURING, AND 
                    AFTER DISASTER

    As noted above, vulnerable populations often face 
additional hurdles in obtaining Federal disaster assistance, 
but there are also hurdles for these populations before, 
during, and after a disaster.

BEFORE DISASTER

    Advocates for various vulnerable populations--notably the 
National Association for the Advancement of Colored People 
(NAACP),\14\ National Council on Disability,\15\ Partnership 
for Inclusive Disaster Strategies \16\--have stressed the 
importance of the whole-of-community approach to pre-disaster 
planning and resilience-building. Unfortunately, in countless 
disasters in the years since Katrina, shortcomings in response 
and recovery for these populations have cited failures in 
meaningful engagement and planning, or abandonment or waiving 
pre-disaster plans due to the severity of events, resulting in 
ongoing frustrations with whether and how pre-disaster planning 
is executed during an actual hazard event.\17\
---------------------------------------------------------------------------
    \14\ NAACP, ``In the Eye of the Storm: A People's Guide to 
Transforming Crisis and Advancing Equity in the Disaster Continuum,'' 
September 2018, available at https://live-naacp-site.pantheonsite.io/
wp-content/uploads/2018/09/NAACP_InTheEyeOfTheStorm.pdf.
    \15\ NCD, ``Effective Emergency Management: Making Improvements for 
Communities and People with Disabilities.'' August 12, 2009. Available 
at https://ncd.gov/publications/2009/Aug122009.
    \16\ Roth, Marcie, June Isaacson Kailes, and Melissa Marshall, J.D. 
``Getting It Wrong: An Indictment with a Blueprint for Getting It 
Right,'' Partnership for Inclusive Disaster Strategies, May 2018, 
available at https://disasterstrategies.org/wp-content/uploads/2018/08/
5-23-18_After_Action_Report_-_May__2018.pdf.
    \17\ Perry, David M. ``America Is Not Ready for Disability Disaster 
Response in the Coming Hurricane Season,'' June 1, 2018, available at 
https://psmag.com/environment/disability-disaster-response-in-2018-
hurricane-season.
---------------------------------------------------------------------------
    Beyond the scope of this Subcommittee's jurisdiction, yet 
still within Congress' purview given the Federal nexus, 
research has questioned whether inadequate regulations and 
procedures before and after storms contribute to 
disproportionate harms to low-income communities and 
communities of color in the wake of natural disasters, 
demonstrating clear discrepancies in the wake of Hurricane 
Harvey between communities of vulnerable people and non-
vulnerable populations.\18\
---------------------------------------------------------------------------
    \18\ Sherwin, Brie. ``After the Storm: The Importance of 
Acknowledging Environmental Justice in Sustainable Development and 
Disaster Preparedness,'' Spring 2019, available at https://
scholarship.law.duke.edu/cgi/
viewcontent.cgi?article=1362&context=delpf.
---------------------------------------------------------------------------

DURING DISASTER

    Given that roughly 26% of American adults are classified as 
having a disability, one of the most impacted vulnerable 
populations during disaster are those with disabilities and 
other access and functional needs.\19\ Failure to accommodate 
for basic needs of this population--including things like 
ensuring shelters have accessible bathrooms, accessible 
entrances, access to a refrigerator for medications, and backup 
power for powering any medical devices--has often led to these 
individuals being placed into medical environments such as 
rehabilitation centers, nursing homes, psychiatric 
institutions, assisted living facilities, or other long-term 
care facilities.\20\ This creates inconvenience and inequity.
---------------------------------------------------------------------------
    \19\ ``Disability Impacts All of Us,'' September 9, 2019, available 
at https://www.cdc.gov/ncbddd/disabilityandhealth/infographic-
disability-impacts-all.html.
    \20\ McKay, Jim. ``People with Disabilities Often Face 
`Institutionalization' During Disasters,'' May 31, 2019, available at 
https://www.govtech.com/em/preparedness/People-with-Disabilities-Often-
Face-Institutionalization-During-Disasters.html.
---------------------------------------------------------------------------
    More broadly, vulnerable populations in the path of 
disaster--including the disabled--may lack the resources to 
evacuate. This could be due to a suspension of public 
transportation or a lack of funds to pay for fuel; more than 
100,000 residents of New Orleans did not evacuate from the path 
of Katrina for many of these reasons.\21\ Being forced to ride 
out a hazard event because there are inadequate resources 
exponentially increases the likelihood that there may be a need 
for greater resources after disaster strikes.
---------------------------------------------------------------------------
    \21\ Barnshaw, John, Joseph Trainor. Race, Class, and Capital 
Amidst the Hurricane Katrina Diaspora, 2007; Farber, Daniel A. 
``Disaster Law and Inequality,'' Law & Inequality: A Journal of Theory 
and Practice, 2007, available at https://scholarship.law.umn.edu/cgi/
viewcontent.cgi?article=1122&context=lawineq.
---------------------------------------------------------------------------

AFTER DISASTER

    In 2017 and 2018, Americans witnessed shortfalls in 
disaster assistance for vulnerable communities impacted by 
catastrophic hurricanes and wildfires, particularly FEMA's 
Individuals and Households Program (IHP), or Individual 
Assistance (IA). An antiquated land-titling infrastructure and 
non-traditional system of passing home ownership in Puerto Rico 
shed light on some of these inequities, which persists during 
recovery from the 2020 earthquakes on the island.\22\ Unable to 
demonstrate ownership, survivors were denied Federal assistance 
or received less than they would have were they able to prove 
ownership.\23\ In wildfire-ravaged communities in California, 
people already experiencing homelessness, subject to choking 
air quality and stifling heat, were denied FEMA assistance 
because, ``[u]nless people are made homeless by a declared 
disaster, assistance for pre-disaster homelessness does not 
fall within the rules, policies, and guidance for eligibility 
to receive Stafford Act assistance,'' a FEMA spokesperson wrote 
to Jefferson Public Radio in southwest Oregon.\24\
---------------------------------------------------------------------------
    \22\ Garci, Ivis. ``The Lack of Proof of Ownership in Puerto Rico 
Is Crippling Repairs in the Aftermath of Hurricane Maria,'' American 
Bar Association, February 21, 2020, available at https://
www.americanbar.org/groups/crsj/publications/
human_rights_magazine_home/vol--44--no-2--housing/the-lack-of-proof-of-
ownership-in-puerto-rico-is-crippling-repai/.
    \23\ Viglucci, Andres. ``They Lost Homes During Hurricane Maria, 
But Didn't Have Deeds. FEMA Rejected Their Claims,'' Miami Herald, 
September 20, 2018, available at https://www.miamiherald.com/news/
nation-world/national/article217935625.html.
    \24\ Erlich, April. ``After Wildfires, Homeless People Left Out Of 
Federal Disaster Aid Programs,'' September 24, 2019, available at 
https://www.opb.org/news/article/fema-disaster-aid-wildfires-homeless-
people/.
---------------------------------------------------------------------------
    As part of its work examining issues requested by this 
Committee and others during the supplemental appropriation 
process to provide additional relief for powerful 2017 
hurricane and wildfire seasons, the Government Accountability 
Office released its findings that:

        ``aspects of the process to apply for assistance from FEMA 
        after the 2017 hurricanes were challenging for older 
        individuals and those with disabilities . . . disability-
        related questions in the registration materials are confusing 
        and easily misinterpreted. For example, FEMA's registration 
        process does not include an initial question that directly asks 
        individuals if they have a disability or if they would like to 
        request an accommodation for completing the application process 
        . . . While FEMA has made efforts to help registrants interpret 
        the questions, it has not yet changed the language of the 
        questions to improve clarity. As a result, individuals with 
        disabilities may not have requested accommodations or reported 
        having disabilities, which may have hindered FEMA's ability to 
        identify and assist them.'' \25\
---------------------------------------------------------------------------
    \25\ U.S. Government Accountability Office, ``FEMA Action Needed to 
Better Support Individuals Who Are Older or Have Disabilities'', June 
5, 2019. Available at https://www.gao.gov/products/GAO-19-318.

    8This is particularly troubling given that the Centers for 
Disease Control and Prevention (CDC) reports that 61 million 
adult Americans--or 26%--live with at least one disability.\26\
---------------------------------------------------------------------------
    \26\ CDC, ``Disability Impacts All of Us'', September 9, 2019. 
Available at https://www.cdc.gov/ncbddd/disabilityandhealth/
infographic-disability-impacts-all.html.
---------------------------------------------------------------------------
    The Subcommittee has met with the Disaster Housing Research 
Consortium--researchers from several public universities who 
conduct significant research utilizing Federal datasets, 
primarily from the Census Bureau--frustrated with FEMA's 
willingness to share disaster survivor registrant data with 
them for research purposes.\27\ What disaster survivor data has 
been released by FEMA regarding its Individual Assistance 
program, has been limited in scope compared to the total 
universe of disaster survivors who have sought Federal 
assistance from the Agency. The National Council on Disability 
has expressed similar concerns in a letter to former FEMA 
Administrator Brock Long.\28\ That said, there is limited yet 
repeated, evidence over several years and geographically 
disparate disaster-impacted communities to inform some social 
science research and analysis into access to FEMA assistance 
and recoveries of individuals and communities.\29\
---------------------------------------------------------------------------
    \27\ T&I EDPB&EM staff-level meetings with Disaster Housing 
Research Consortium. February 12, 2019 and March 2, 2020.
    \28\ National Council on Disability, Letter to FEMA Administrator 
Long Regarding Disaster Management, April 10, 2018, available at 
https://ncd.gov/publications/2018/ncd-letter-fema-administrator-long-
regarding-disaster-management.
    \29\ See footnotes 1, 5, 18, 21, and 31.
---------------------------------------------------------------------------
    While there may be Federal statute, regulation, and policy 
crafted to prevent discrimination in emergency management, the 
construct of locally-executed, state-managed, and Federally-
supported emergency management experiences discussed above show 
that some communities are more attuned to addressing the needs 
of vulnerable populations than others as a result of practice, 
resources, awareness, or past experience.

                               CONCLUSION

    When examining the disparities of assistance in disaster-
impacted communities, salaried, home-owning, insured disaster 
survivors are more likely to have an easier time applying for 
FEMA disaster assistance and often also qualify for tax rebates 
and Small Business Administration assistance above and beyond 
initial FEMA grants.\30\
---------------------------------------------------------------------------
    \30\ Hersher, Rebecca, and Robert Benincasa. ``How Federal Disaster 
Money Favors The Rich.'' National Public Radio, March 5, 2019. 
Available at www.npr.org/2019/03/05/688786177/how-federal-disaster-
money-favors-the-rich; Frazee, Gretchen. ``How Natural Disasters Can 
Increase Inequality.'' Public Broadcasting Service, April 11, 2019. 
Available at www.pbs.org/newshour/economy/making-sense/how-natural-
disasters-can-increase-inequality.
---------------------------------------------------------------------------
    The disparities touched upon above may also contribute to 
widening wealth inequality following disasters for these 
vulnerable communities. One study, conducted by researchers at 
Rice University and the University of Pittsburgh, found 
significant correlation of increasing wealth inequality in 
counties receiving FEMA-administered disaster assistance in 
times before and after disaster struck along the lines of race, 
education, and homeownership.\31\ This exacerbates a widening 
gap in family wealth while the United States is concurrently 
experiencing more and costlier natural disasters.\32\
---------------------------------------------------------------------------
    \31\ Howell, J. & Elliott, J.R. ``Damages Done: The Longitudinal 
Impacts of Natural Hazards on Wealth Inequality in the United States.'' 
August 14, 2018. Available at https://doi.org/10.1093/socpro/spy016.
    \32\ Congressional Budget Office, ``Trends in Family Wealth, 1989 
to 2013.'' August 18, 2016. Available at www.cbo.gov/publication/51846; 
Congressional Budget Office, ``Expected Costs of Damage from Hurricane 
Winds and Storm-Related Flooding,'' April 10, 2019, available at http:/
/www.cbo.gov/publication/55019.
---------------------------------------------------------------------------
    This Subcommittee hearing will explore where there may be 
room for further congressional guidance to FEMA and reforms to 
Stafford Act to address these challenges so that vulnerable 
populations--before, during, and after disaster--are treated 
with equity and receive proper assistance commensurate to 
address their needs.

                              WITNESS LIST

    <bullet> LCurtis Brown, State Coordinator of Emergency 
Management, Virginia Department of Emergency Management, 
Testifying on Behalf of the Institute for Diversity and 
Inclusion in Emergency Management
    <bullet> LChad Higdon, CEO, Second Harvest Community Food 
Bank
    <bullet> LMarcie Roth, Executive Director and CEO, World 
Institute on Disability
    <bullet> LDiane Yentel, President and CEO, National Low 
Income Housing Coalition

 
         EXPERIENCES OF VULNERABLE POPULATIONS DURING DISASTER

                              ----------                              


                         TUESDAY, JULY 28, 2020

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2167 Rayburn House Office Building and via Webex, Hon. 
Dina Titus (Chairwoman of the subcommittee) presiding.
    Ms. Titus. The subcommittee will come to order. Thank you 
to our tech folks for getting us all connected. I ask unanimous 
consent that the chair be authorized to declare recess at any 
time during today's hearing. Without objection, so ordered. I 
also ask unanimous consent that Members not on the subcommittee 
be permitted to sit with the subcommittee at today's hearing 
and ask questions. Without objection, so ordered.
    Since this is a hybrid meeting, I want to remind Members of 
key regulations of the House Committee on Rules to ensure that 
the hearing goes smoothly. Members must be visible on screen 
for purposes of identification when joining the hearing. 
Members must also continue to use the video function of today's 
software platform, Cisco Webex, for the remainder of the time 
they are attending this hearing unless they're experiencing 
connectivity issues or some other technical problems.
    If a Member is experiencing any kind of technical problems, 
please inform the committee's staff as soon as possible so you 
can receive assistance. A chat function is available for 
Members on the Cisco Webex platform for this purpose, or you 
can call the committee's main phone line at 202-225-4472 for 
technical assistance by phone.
    Members may not participate remotely in any other 
proceeding that may be occurring simultaneously. It's the 
responsibility of each Member seeking recognition to unmute 
their microphone prior to speaking. To avoid any inadvertent 
background noise like dogs barking or babies crying, I request 
that every Member keep their microphone muted when not seeking 
recognition to speak. Should I hear any inadvertent background 
noise, I will respectfully request that the Member please mute 
the microphone.
    Finally, despite this being a hybrid hearing, I want to 
emphasize that all the standard rules of decorum apply. As the 
chair of today's hearing, I will make a good faith effort to 
provide every Member experiencing these connectivity issues an 
opportunity to fully participate in the proceedings. Members 
will have the standard 5 minutes to ask questions. To insert a 
document into the record, please have your staff email it to 
the committee's clerk, Mike Twinchek. This hearing is also 
being livestreamed for the public to view.
    Before we get started today, I want to recognize the loss 
of our friend and colleague, Congressman John Lewis. John Lewis 
dedicated his life to service to this Nation and to the goal of 
a more perfect union. He famously said, ``When we see something 
that is not right, not fair, not just, you have to speak up. 
You have to say something; you have to do something.''
    It's in that spirit that we hold today's hearing, which 
focuses on the experiences of vulnerable and underserved 
populations during disasters. Disaster survivors experience 
varying degrees of both impact and assistance as a result of 
factors such as race, ethnicity, gender identity or expression, 
immigration status, physical or mental ability, and 
socioeconomic status.
    As is often the case in this country, the most vulnerable 
among us are the most adversely affected during times of 
hardship. We are certainly seeing this play out in communities 
across the country with respect to ongoing disaster recovery 
and the coronavirus pandemic. The continued failures by our 
emergency preparedness apparatus at every level of Government 
to account for the well-being of certain communities prior to, 
during, and in the wake of disasters, and right now, these are 
just unacceptable and must be addressed.
    Take several examples of the problem. Whether it's due to 
underfunded public transportation or insufficient means to pay 
for a personal vehicle, fuel, or alternate means of shelter, 
vulnerable populations in the path of disaster often lack the 
resources to evacuate. Second problem, while taking refuge in 
congregate sheltering during a storm, individuals with 
disabilities or mobility issues frequently face accessibility 
challenges due to a lack of proper accommodations.
    Third, some of our most vulnerable populations continue to 
be overlooked or neglected by existing FEMA programs. For 
instance, in the wildfire ravaged communities in California, 
people experiencing homelessness were told by FEMA that they 
were not eligible for sheltering assistance to escape heat and 
smoke under the Stafford Act, because their homelessness was a 
pre-existing condition.
    During this subcommittee's hearing back in March with FEMA 
Administrator Gaynor, we raised some of these concerns. I noted 
then that FEMA's Office of Disability Integration and 
Coordination was established over a decade ago during the post-
Katrina Emergency Management Reform Act. We thought this would 
address some of the issues.
    But the current administration's attention to and 
engagement with people with disabilities is lackluster to say 
the least. It is appropriate that we have this hearing today, 
because just this past Sunday marked the 30th anniversary of 
the enactment of the Americans with Disabilities Act.
    We have done a good job when it comes to improving 
conditions for those with disabilities. I'm proud of the U.S. 
when I travel internationally. Much has been accomplished, but 
much needs to be accomplished, and it's troubling when we 
consider how far we need to go to live up to the intent of this 
landmark legislation.
    I'd like to conclude by saying that the spectrum of 
vulnerable communities represented by witnesses today is by no 
means exhaustive, but we hope that they can provide some 
perspective so that we might take a step towards making 
disaster response efforts and assistance more inclusive, more 
just, more fair, and more right.
    [Ms. Titus' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
  from the State of Nevada, and Chairwoman, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    Before we get started today, I want to recognize the loss of our 
friend and colleague, Congressman John Lewis.
    Congressman Lewis dedicated his life in service to this nation and 
to the goal of a more perfect union.
    He famously said, ``When you see something that is not right, not 
fair, not just, you have to speak up. You have to say something; you 
have to do something.''
    It is in that spirit that we hold today's hearing, which focuses on 
the experiences of vulnerable and underserved populations during 
disasters.
    Disaster survivors experience varying degrees of impact and 
assistance as a result of factors such as race, ethnicity, gender 
identity or expression, immigration status, physical or mental ability, 
and socio-economic status.
    As is the case too often in this country, the most vulnerable among 
us are the most adversely affected during times of hardship. We're 
seeing this play out in communities across the United States with 
respect to ongoing disaster recovery and the coronavirus pandemic.
    The continued failures by our emergency preparedness apparatus at 
every level of government, to account for the well-being of certain 
communities prior to, during, and in the wake of disasters is 
unacceptable and must be addressed.
    Whether it's due to underfunded public transportation; or 
insufficient means to pay for a personal vehicle, fuel, and alternative 
means for shelter; vulnerable populations in the path of disaster often 
lack the resources to evacuate.
    While taking refuge in congregate sheltering during a storm, 
individuals with disabilities or mobility issues frequently face 
accessibility challenges due to a lack of proper accommodations.
    For instance, in wildfire-ravaged communities in California, people 
experiencing homelessness were told by FEMA that they were not eligible 
for sheltering assistance to escape heat and smoke under the Stafford 
Act because their homelessness was a pre-existing condition.
    Some of our most vulnerable populations continue to be overlooked 
or neglected by existing FEMA programs.
    During this Subcommittee's hearing back in March with FEMA 
Administrator Gaynor, we raised some of these concerns.
    I noted then that FEMA's Office of Disability Integration and 
Coordination was established over a decade ago by the Post-Katrina 
Emergency Management Reform Act, but the Trump Administration's 
attention to and engagement with people with disabilities is lackluster 
to say the least.
    Just this past Sunday we recognized the 30th anniversary of 
enactment of the Americans With Disabilities Act.
    Yet, it is troubling when you consider how far the federal 
government still has to go to live up to the intent of this landmark 
legislation and do right by people with disabilities.
    I'd like to conclude by saying that the spectrum of communities 
represented by our witnesses today is by no means exhaustive, but we 
hope they can provide some perspective so that we might take a step 
forward in making disaster response efforts and assistance more 
inclusive, more right, more fair, and more just.

    Ms. Titus. With that, I thank you, and I would yield to the 
minority leader.
    Mr. Katko. Thank you, Madam Chair.
    Thank you today for the witnesses that are joining us 
remotely. Before I start my comments, I wanted to just take a 
brief second to honor the life and the legacy of John Lewis.
    John and I became friendly at my first State of the Union 
Address where I showed up 10 minutes beforehand thinking I was 
going to have a seat. And remarkably, the seat right next to 
him was open, so I sat down, and we started talking, and became 
friends. And one time, a reverend came down from Syracuse. I 
said, John, would you just say hello to him? He idolizes you. 
And John said, yeah, sure. Of course. He then said, come on 
back to my office. Brought us back to his office, canceled his 
appointments, and spent 1\1/2\ hours with the reverend, just 
showing him everything in his office and talking about the 
history and what he's been through in his life, and he couldn't 
have been more gracious and humble and he impacted that 
individual--that pastor's life immensely, and it's just a small 
example of the kind of person he was, and the gentle spirit he 
was, and the great leader he was.
    So, I commend him to the afterlife here, but I also commend 
him for a life well lived, and an example that we can all 
follow, and I miss him already.
    I'd like to begin by bringing specific attention to 
important work that is being done in my district to support 
vulnerable populations amid the COVID-19 pandemic. 
Organizations like Vera House, AccessCNY, the Food Bank of 
Central New York, and so many others are working hard to 
maintain services in our community during this disaster. These 
organizations provide critical services to vulnerable members 
of our community, including our seniors, survivors of domestic 
violence and sexual assault, individuals with disabilities, and 
families struggling with mental health issues.
    To provide a snapshot of the historic challenges these 
organizations face, the Food Bank of Central New York saw a 20-
percent increase in households utilizing their services in the 
month of March alone. This translates to the distribution of 
1.9 million pounds of food, 500,000 additional pounds compared 
to the food bank's typical monthly distribution.
    This increased demand persists, and is indicative of the 
unprecedented nature of this crisis. Unfortunately, these 
conditions are being felt all across the United States. 
Americans are responding to the COVID-19 pandemic, as well as 
flooding, storms, and wildfires across the country. In many 
cases, these challenges are on top of ongoing recovery efforts 
from prior disasters. In all of this, it is critically 
important that all communities are prepared for and recover 
from disasters.
    To be successful, lawmakers must work to plan for and 
address the needs of the most vulnerable among us. These 
efforts are not only essential to saving lives, but to helping 
impacted areas put the pieces back together quickly. To this 
end, Congress has enacted significant reform over the years, 
including the post-Katrina Act, the Sandy Recovery Improvement 
Act, and more recently, the Disaster Recovery Reform Act.
    Each of these bills and others included provisions intended 
to help the most vulnerable. In DRRA, for example, we ensured 
those with disabilities could be eligible for additional 
assistance to ensure the repaired homes are accessible.
    We expanded FEMA's flexibility for temporary housing 
solutions, and we clarified eligibility for food banks. We also 
worked to update and improve the agency's public alerting 
system, IPAWS, to ensure capabilities are in place to reach 
persons with disabilities and those with limited English 
proficiency.
    And we continued examining ways where FEMA's process can be 
simplified and streamlined to reduce administrative hurdles for 
eligible applicants. Ultimately, we must ensure our emergency 
management system works for everyone. Today, I look forward to 
hearing from our witnesses on what is working, and where we 
still need improvement. I also want to welcome for the first 
time Mr. Garcia of California to our subcommittee, and I look 
forward to working with him on these and other issues.
    [Mr. Katko's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. John Katko, a Representative in Congress 
    from the State of New York, and Ranking Member, Subcommittee on 
    Economic Development, Public Buildings, and Emergency Management
    I would like to begin by bringing specific attention to important 
work that is being done in my district to support vulnerable 
populations amid the COVID-19 pandemic. Organizations like Vera House, 
ACCESS CNY, the Foodbank of Central New York, and so many others are 
working hard to maintain services in our community during this 
disaster.
    These organizations provide critical services to vulnerable members 
of our community, including our seniors, survivors of domestic violence 
and sexual assault, individuals with disabilities, and families 
struggling with mental health issues.
    To provide a snapshot of the historic challenges these 
organizations face, the Foodbank of Central New York saw a 20 percent 
increase in households utilizing their services in the month of March. 
This translates to the distribution of 1.9 million pounds of food--
500,000 additional pounds compared to the Foodbank's typical monthly 
distribution.
    This increased demand persists and is indicative of the 
unprecedented nature of this crisis. Unfortunately, these conditions 
are being felt across the United States.
    Americans are responding to the COVID-19 pandemic, as well as 
flooding, storms, and wildfires across the country. In many cases, 
these challenges are on top of ongoing recovery efforts from prior 
disasters.
    In all of this, it is critically important that all communities are 
prepared for and can recover from disasters.
    To be successful, lawmakers must work to plan for and address the 
needs of the most vulnerable among us. These efforts are not only 
essential to saving lives, but to helping impacted areas put the pieces 
back together quickly.
    To this end, Congress has enacted significant reforms over the 
years--including the Post-Katrina Act, the Sandy Recovery Improvement 
Act, and more recently the Disaster Recovery Reform Act (DRRA). Each of 
these bills and others included provisions intended to help the most 
vulnerable.
    In DRRA, for example, we ensured those with disabilities could be 
eligible for additional assistance to ensure their repaired homes are 
accessible, we expanded FEMA's flexibility for temporary housing 
solutions, and we clarified eligibility for food banks. We also worked 
to update and improve the nation's public alerting system--IPAWS--to 
ensure capabilities are in place to reach persons with disabilities and 
those with limited English proficiency. And, we continue to examine 
ways where FEMA's process can be simplified and streamlined to reduce 
administrative hurdles for eligible applicants.
    Ultimately, we must ensure our emergency management system works 
for everyone.
    Today, I look forward to hearing from our witnesses on what is 
working and where we still need improvement.
    I also want to welcome Mr. Garcia of California to our subcommittee 
and look forward to working with him on these and other issues.

    Mr. Katko. And in that, Madam Chair, I yield back.
    Ms. Titus. Thank you, Ranking Member Katko. I don't believe 
that our chairman of the full committee, Mr. DeFazio, is here, 
nor Mr. Sam Graves who is the ranking member, so we'll go 
straight to our witnesses' testimony.
    I'd like to now welcome the witnesses on our panel. They 
represent great expertise, and we're looking forward to hearing 
from them. Mr. Curtis Brown, who is the State coordinator of 
emergency management with the Virginia Department of Emergency 
Management; he's going to be testifying on behalf of the 
Institute for Diversity and Inclusion in Emergency Management.
    Mr. Chad Higdon, who is the CEO of Second Harvest Community 
Food Bank, and I know he's had an association with Three Square 
in Las Vegas. Ms. Marcie Roth, executive director and CEO of 
the World Institute on Disability, and Ms. Diane Yentel, 
president and CEO of the National Low Income Housing Coalition.
    We want to thank you for participating today. We look 
forward to your testimony. Without objection, our witnesses' 
full statements will be included in the record. Since your 
written testimony has been made a part of the record, the 
subcommittee requests that you limit your oral testimony to 5 
minutes. So, we'll proceed with the testimonies.
    Mr. Brown, we look forward to hearing from you first.

   TESTIMONY OF CURTIS BROWN, STATE COORDINATOR OF EMERGENCY 
   MANAGEMENT, VIRGINIA DEPARTMENT OF EMERGENCY MANAGEMENT, 
    TESTIFYING ON BEHALF OF THE INSTITUTE FOR DIVERSITY AND 
INCLUSION IN EMERGENCY MANAGEMENT; CHAD HIGDON, CHIEF EXECUTIVE 
   OFFICER, SECOND HARVEST COMMUNITY FOOD BANK; MARCIE ROTH, 
EXECUTIVE DIRECTOR AND CHIEF EXECUTIVE OFFICER, WORLD INSTITUTE 
ON DISABILITY; AND DIANE YENTEL, PRESIDENT AND CHIEF EXECUTIVE 
         OFFICER, NATIONAL LOW INCOME HOUSING COALITION

    Mr. Brown. Thank you. Good morning, Chairwoman Titus, 
Ranking Member Katko, and members of the subcommittee. I 
appreciate the opportunity to discuss the disproportionate 
impacts on at-risk communities, and solutions for addressing 
systemic and structural inequities in disaster management. My 
name is Curtis Brown, and I am an emergency manager and 
cofounder of the Institute for Diversity and Inclusion in 
Emergency Management.
    I-DIEM was created to increase diversity in the profession, 
and to promote the integration of equity for at-risk and 
marginalized people and communities, and to all aspects of 
emergency management practices. My approach to providing 
testimony and recommendations today is based on research data 
with a keen understanding that the equitable implementation of 
disaster policies would address the continuous losses currently 
left unaddressed after each disaster.
    Political leaders, policymakers, and emergency managers can 
no longer turn a blind eye to the recurring disproportionate 
impact of disasters on vulnerable populations. FEMA and the 
entire emergency management enterprise--Federal, State, local, 
nonprofit, and private--must drastically improve. The COVID-19 
disaster once again brings to light the glaring disparities 
that continue to entrap far too many communities of color in 
continuous cycles of tragedy and loss. COVID-19 is 
disproportionately affecting black, indigenous, Hispanic, 
Latino, and other people of color the most.
    What are the experiences of vulnerable populations during 
disasters? Unfortunately, the answer to that question is the 
same as it has been for quite some time. With examples of mass 
fatalities and economic loss throughout the 20th century, and 
the first 20 years of this one, there are numerous documented 
examples of disaster inequities resulting in negative impacts 
for communities of color, underserved communities, and people 
with disabilities whose needs have not been consistently 
integrated in disaster preparedness mitigation response and 
recovery efforts. Whether the disaster is a pandemic or an 
extreme weather event, one thing is consistently true.
    The most vulnerable individuals of communities will 
disproportionately suffer disaster impacts, fatalities, 
injuries both physical and psychological, infrastructure damage 
and loss, and economic decline which contributes to widening 
wealth inequality. Nationwide, black people are dying of COVID-
19 at 2.5 times the rate of white people.
    Considering flooding risks, research has found that a 
higher share of the population living in the combined flood 
plain identified as Hispanic and Latino. The fatality rate of 
people with disabilities has been found to be two to four times 
higher than the general population. Unaddressed systemic and 
structural racism and inequitable discriminatory economic 
policies are the root causes for creating and enhancing 
vulnerability faced by at-risk and marginalized communities.
    Environmental injustices have located toxic facilities in 
and around communities of color contributing to the 
concentration of black and brown people with the same 
underlying health conditions that make COVID-19 so fatal. 
Integrating equity into emergency management and prioritizing 
the needs of the most vulnerable will produce numerous 
benefits, including limiting fatalities and injuries, reducing 
disaster costs, and improving the effectiveness and efficiency 
of emergency management operations. We have to commit to 
disaster equity, and prioritize the needs of the most 
vulnerable in legislation, policies, practices, plans, and 
funding programs.
    We must commit to dismantling systemic and structural 
inequities in disaster preparedness mitigation response and 
recovery to reverse the current trend of disproportionate 
impacts. Unfortunately, these numerous disaster events in lives 
lost have not prompted a major change in existing emergency 
management approaches. It has become painfully clear that 
effective emergency management practices require a new 
equitable approach that prioritizes those most in need.
    As we celebrate the life and significant contributions to 
civil rights of Congressman John Lewis, let his legacy serve as 
a motivation to promote efforts to finally and fundamentally 
address the systemic and structural inequities that continue to 
negatively impact marginalized people and communities by 
integrating equity into emergency management. Thank you, 
Chairwoman Titus, and I look forward to offering 
recommendations and answering any questions from the committee.
    [Mr. Brown's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Curtis Brown, State Coordinator of Emergency 
Management, Virginia Department of Emergency Management, testifying on 
   behalf of the Institute for Diversity and Inclusion in Emergency 
                               Management
    Good morning, Committee Chairman Peter A. DeFazio, Committee 
Ranking Member Sam Graves, Subcommittee Chairman Dina Titus, 
Subcommittee Ranking Member John Katko and members of the Subcommittee. 
My name is Curtis Brown; and I am the co-founder of the Institute for 
Diversity and Inclusion in Emergency Management (I-DIEM). I-DIEM was 
created to diversify the profession of emergency management and to 
promote the integration of equity into all aspects of emergency 
management practices to improve disaster outcomes for those most 
vulnerable. Last month, Governor Ralph Northam appointed me State 
Coordinator of Emergency Management at the Virginia Department of 
Emergency Management. Throughout my career, I have worked closely on 
issues related to emergency management, resilience-building and 
diversity, equity and inclusion. I appreciate the opportunity to 
provide testimony on the experiences of vulnerable populations before, 
during, and after disasters and the responsibility for lawmakers, 
public policy leaders, and emergency managers on all levels of 
government to make changes in order to fundamentally address the 
systemic and structural inequities that continue to negatively impact 
marginalized people and communities.
    I-DIEM's mission is to serve as a resource and an advocate for the 
value of diversity and inclusion in emergency management (EM). I-DIEM 
leads efforts to increase representation of women and people of color 
in the field of emergency management, including in positions of 
leadership, through awareness and education. I-DIEM serves as the 
conduit for research on diversity and inclusion (D&I), social equity, 
and the practical application of equitable EM practices to improve 
outcomes and build resilience. Our approach to providing our comments 
and recommendations is based on data with a keen understanding of 
equitable implementation within disaster policies to support 
individuals and communities disproportionately impacted by disasters. 
Long-term change can only occur by educating and training the emergency 
management enterprise on diversity, inclusion and equity issues as it 
relates to women, people of color, people with disabilities, LGBTQ, 
various religious beliefs, rural, low-income, disadvantaged 
communities, and other underrepresented groups within each phase of 
emergency management (preparedness, mitigation, response, recovery). I-
DIEM believes that leveraging and integrating diversity, inclusion, and 
equity will produce numerous benefits including limiting fatalities and 
injuries, increasing trust in government, building response and 
recovery capacity, reducing disaster costs, improving the effectiveness 
and efficiency of disaster operations, and building long-term 
resilience.
         Long Struggle for Social Justice and Equity Continues
    Last week America lost two great leaders of the Civil Rights 
movement. Congressman John Lewis and Reverend C.T. Vivian each 
dedicated their lives to the work of social justice and the fight 
against racism. Both men risked their lives in order to end 
discriminatory laws and practices that terrorized African Americans. 
Their resolve along with many other civil rights leaders during a 
critical time in our nation's history led to dramatic changes that 
resulted in the expansion of rights for African Americans that were 
long delayed due to sanctioned and legal discrimination such as Jim 
Crow laws. All Americans benefit from their work because we live in a 
more just society, but more work remains. The fight for civil rights 
during that pivotal time provides a great roadmap for today's efforts 
to address systemic and structural racism that remains deeply embedded 
in every public policy area, including in emergency management. The 
ongoing impact of the COVID-19 disaster has demonstrated, once again, 
that disasters disproportionately impact Black, Indigenous, People of 
Color (BIPOC), low-income, and people with disabilities. Both primary 
impacts such as fatalities and COVID-19 cases and the numerous 
secondary negative economic (i.e. unemployment) and health impacts have 
ravaged marginalized individuals and communities. Sadly, this 
disproportionate impact of disasters on vulnerable populations is no 
surprise. It is consistent theme with a long narrative that requires 
urgent and intentional action. The 20th and 21st centuries have 
numerous examples of disaster inequities resulting in the loss of life 
to BIPOC, low-income, and people with disabilities who have 
consistently not benefitted from disaster preparedness, mitigation, 
response, and recovery efforts. The recent murder of George Floyd has 
awakened a new sense activism across the country intended to dismantle 
both the symbols and the systemic policies and practices of inequities 
that continue to entrap marginalized communities of color, people with 
disabilities, low income and marginalized individuals and communities.
    The Issue: Disproportionate Impact of Disasters on Marginalized 
                      Individuals and Communities
    Whether the disaster is a pandemic or natural, one thing is 
consistently true, the most vulnerable individuals and communities will 
be disproportionately impacted due to existing inequities. Numerous 
natural disasters indiscriminately have impacted large swaths of the 
United States over the last decade but the resulting impacts continue 
to reveal inequities. These disasters continue to demonstrate the need 
for emergency planners and key decision-makers to understand how 
historical and existing exclusionary and discriminatory practices 
increase the risks and impact of disasters on specific individuals and 
communities. Those most vulnerable are consistently not prioritized in 
disaster planning or allocated sufficient resources during recovery. 
Years of biased ``community development'' segregated communities of 
color to higher risk areas have contributed to creating distrust in 
government. Emergency management officials have a responsibility to 
integrate equity into preparedness and response to disasters by 
understanding the unique vulnerabilities and limitations of 
communities. There should be a clear recognition that the vulnerability 
of the community was heightened due to discriminatory policies and 
these communities will need the more support during a disaster.
    Preparedness efforts directed to at-risk BIPOC communities prior to 
COVID-19's onslaught in the United States were slow and disjointed. 
Clear and accurate emergency information regarding the seriousness of 
the threat was lacking. Black and Brown communities represented a large 
percentage of the essential workforce but access to essential personal 
protective equipment was unavailable. Public awareness messaging 
regarding social distancing failed to take into consideration cultural 
differences and living conditions of diversity communities. Data 
regarding the disproportionate impact of the pandemic on people of 
color was not regularly collected further delaying mitigation efforts. 
Consistent fumbled response efforts reaffirm the belief that systemic 
and structural issues exist within emergency management.
    ``Social Equity'' is defined as the fair, just and equitable 
management of all institutions serving the public directly or by 
contract, and the fair and equitable distribution of public services, 
and implementation of public policy, and the commitment to promote 
fairness, justice, and equity in the formation of public policy 
(Standing Panel on Social Equity in Governance of the National Academy 
of Public Administration). Inequitable policies have lead to the 
congregation of marginalized individuals in communities across the 
country. Equitable emergency planning is required due to the rising 
frequency of extreme weather caused by climate change and 
disproportionate impacts based on systemic biases.
    Emergency planning must understand the historic and existing 
barriers that create and enhance vulnerability. Disasters act as 
``shocks'' to communities amplifying and exacerbating the existing 
inequities experienced by those lacking resources and excluded from 
``mainstream'' disaster planning. Further contributing to the issue is 
the lack of diversity within the profession of emergency management 
from a racial and gender perspective. This lack of diversity combined 
by a failure to integrate cultural competence and fully understanding 
and respecting the unique attributes of communities has resulted in a 
disconnect leading to non-inclusive and inequitable emergency plans. 
The negative impact on emergency management results in preparedness, 
mitigation, prevention, response, and recovery plans consistently 
falling short of meeting the needs of those individuals and communities 
requiring the most support. As noted in FEMA's 2019 Building Cultures 
of Preparedness: Report of the Emergency Management Higher Education 
Community, ``to meet the challenge, professionals in the field of 
emergency management must better understand the communities, peoples, 
and varied populations that they hope will become ``better prepared.'' 
The report also states that, ``these households are not at risk simply 
due to their exposure when disaster threatens; they live in a state of 
permanent emergency resulting from socio-economic conditions and 
marginality that make each day precarious.'' Recognition of the 
causality of vulnerability and intentional inclusion of diverse 
stakeholders is required in order to improve emergency planning and 
outcomes.
    In recent years, numerous research findings have identified 
inequity as the root cause for vulnerability which results in 
disproportionate and sometimes fatal impacts for marginalized people 
include:
    <bullet>  ``Communities of color and other frontline communities 
tend to live in the most at-risk environments and are more vulnerable 
to the negative impacts of these kinds of events due to a range of 
preexisting factors.'' (Source: NAACP In the Eye of the Storm: A 
People's Guide to Transforming Crisis & Advancing Equity in the 
Disaster Continuum, Page 9, 2019)
    <bullet>  ``These households are not at risk simply due to their 
exposure when disaster threatens; they live in a state of permanent 
emergency resulting from socio-economic conditions and marginality that 
make each day precarious. (Source: FEMA Building Cultures of 
Preparedness: Report of the Emergency Management Higher Education 
Community, Page 8, 2019)
    <bullet>  Researchers found ``a consistent pattern over a 30-year 
period of placing hazardous waste facilities in neighborhoods where 
poor people and people of color live''. (Source: 2016 University of 
Michigan and University of Montana)
    <bullet>  3 out of 4 neighborhoods ``redlined'' on government maps 
80 years ago continuing to struggle economically. (Source: 2018 
National Community Reinvestment Coalition)
    <bullet>  The vast majority of neighborhoods marked ``hazardous'' 
in red ink on maps drawn by the federal Home Owners' Loan Corp. from 
1935 to 1939 are today much more likely than other areas to comprise 
lower-income, minority residents. (Source: 2018 National Community 
Reinvestment Coalition)
    <bullet>  People in lower income brackets often live in the most 
vulnerable housing and lack the resources to undertake recommended 
loss-reduction or evacuation measures. (Source: Insurance Institute for 
Business & Home Safety)
    <bullet>  ``People with disabilities may be unable to undertake 
self-protective actions before, during or after disasters''. According 
to a 2006 Census Bureau report commissioned by the National Institute 
on Aging, almost 20% of the U.S. population age 65 and older report 
some level of disability.'' (Source: Insurance Institute for Business & 
Home Safety)
    <bullet>  ``Low-income individuals and families often live in lower 
cost homes that are less able to withstand disasters.'' (Source: 
Insurance Institute for Business & Home Safety)
    <bullet>  ``As sea levels rise, each of the 23 coastal states in 
the contiguous US faces the loss of residential and commercial 
properties and frequent flooding of populated areas, posing new 
challenges for all communities and adding particular stressors for 
communities of color and low-income and working-class communities.'' 
(Source: Underwater: Rising Seas, Chronic Floods, and the Implications 
for US Coastal Real Estate, Union or Concerned Scientist, 2018)
    <bullet>  ``Additionally, wildfire vulnerability is spread 
unequally across race and ethnicity, with census tracts that were 
majority Black, Hispanic or Native American experiencing ca. 50% 
greater vulnerability to wildfire compared to other census tracts. 
Embracing a social-ecological perspective of fire-prone landscapes 
allows for the identification of areas that are poorly equipped to 
respond to wildfires.'' (Source: The unequal vulnerability of 
communities of color to wildfire, Ian P. Davies, Ryan D. Haugo, James 
C. Robertson, Phillip S. Levin, 2018)
    <bullet>  ``So when natural disasters pour, literally, trillions of 
gallons of water onto largely Black and Latinx cities surrounded by oil 
and gas refineries, don't blame Mother Nature; blame institutions, 
historic and systemic racism, and the people behind these institutions, 
systems, and history.'' (Source: 5 Reasons Why Natural Disasters Screw 
Over People of Color, Yessenia Funes, 2017)
    <bullet>  ``Extreme weather events impact the most vulnerable in a 
multiplicity of ways. In the days before, poorer people have less 
opportunities to evacuate as they may not have anywhere to go, cannot 
afford a motel out of town, or do not have a car to drive there.'' 
(Source: Hurricane Harvey was a natural disaster, but a man-made 
catastrophe that will hurt the poor the most, Andrew Buncombe, 2017)
    <bullet>  Prioritizing adaptation actions for populations that face 
higher risks from climate change, including low-income and marginalized 
communities, may prove more equitable and lead, for instance, to 
improved infrastructure in their communities and increased focus on 
efforts to promote community resilience that can improve their capacity 
to prepare for, respond to, and recover from disasters. (Source: Fourth 
National Climate Assessment, Volume II Impacts, Risks, and Adaptation 
in the United States, Page 55, 2018)
    <bullet>  ``Results indicate that as local hazard damages increase, 
so does wealth inequality, especially along lines of race, education, 
and homeownership. At any given level of local damage, the more aid an 
area receives from the Federal Emergency Management Agency, the more 
this inequality grows. These findings suggest that two defining social 
problems of our day--wealth inequality and rising natural hazard 
damages--are dynamically linked, requiring new lines of research and 
policy making in the future.'' (Source: Damages Done: The Longitudinal 
Impacts of Natural Hazards on Wealth Inequality in the United States, 
Rice U., University of Pittsburgh, 2018)
    <bullet>  ``Compared to the overall U.S. population, a higher share 
of the population living in the combined floodplain identified as 
Hispanic. 25% of the population living in the combined floodplain 
identified as Hispanic, as compared to 17% nationally''. (Source: 
Populations in the Floodplain, NYU Furman Center, 2018)
    <bullet>  Finding 1: Natural disaster-affected areas in 2016 and 
2017 differed from the U.S. overall, in notable ways:
      <bullet>  FEMA-designated disaster zip codes contained a higher 
share of individuals who identify as Hispanic or African American.
      <bullet>  These zip codes were also more likely to contain 
individuals who were foreignborn and speak a language other than 
English at home.
    <bullet>  Finding 3: Disasters struck small firms across the age 
and income spectrum, but losses were concentrated among Hispanic-owned 
firms and firms in the retail and leisure & hospitality industries
    <bullet>  54% of Hispanic-owned firms in affected areas reported 
natural disaster-related losses, compared to 40% of White-owned firms 
and 35% of Black or African American owned firms. (Source: 2017 Small 
Business Credit Survey (SBCS), Federal Reserve Banks)
 Root Cause of Vulnerability: Systemic Racism and History of Negative 
 Impacts/Examples of Past and Present Inequitable Impacts (Explaining 
                why there are disproportionate impacts)
    The COVID-19 disaster has once again brought to light the glaring 
disparities that continue to entrap far too many communities of color 
in a continuous cycle of tragedy and loss. Institutional racism serves 
as the fuel that creates the inequities that combust when disasters 
strike. Discriminatory economic and social policies are the root cause 
for the vulnerability faced by marginalized communities. Decades of 
divestments have created impoverished communities across the country 
that lack basic necessities including affordable, safe, and adequate 
housing. Federal and State guidance to ``socially distance'' to limit 
the spread of COVID-19 is difficult when systemic racism has confined 
impoverished families to occupy incredibly small living spaces. 
Environmental injustices have located toxic facilities in and around 
communities of color contributing to concentration of Black and Brown 
people with the same ``underlining health conditions'' (asthma, cancer, 
etc) that makes COVID-19 so fatal.
                  Lack of Diversity and Representation
    The profession of emergency management's lack of diversity with 
representation of people of color and women within its ranks prevents 
the field from rising to the great disaster challenges of the present 
and tomorrow. Research and labor data indicates that an overwhelming 
number of individuals, designated as ``Emergency Managers'' are white 
males. But several studies have been released over the last decade that 
confirms the positive impact of diversity on organizational 
performance. Private sector companies increase profits with more women 
and people of color throughout their organization, especially in 
positions of leadership. Though not studied as much, the impact of 
diversity in public service positions, such as emergency management, 
produces similar positive results. Racial diversity within the EM 
workforce improves decision-making, reduces ``blind spots'' errors by 
leveraging new perspectives, and results in better performance and 
improved outcomes. Within emergency management, a more diverse 
workforce would ensure that emergency operation and preparedness plans 
are inclusive and equitably consider the unique needs of communities of 
color. More representation of people of color in emergency management 
would increase the likelihood for investing greater mitigation funding 
into communities that have historically been divested and has 
contributed to increased vulnerability. A more diverse network of 
emergency managers at the decision-making table and in senior 
leadership roles would promote better response decisions such as 
allocating equitable resources to communities most in need and 
possessing the cultural competence to effectively engage diverse 
communities. Short-term and long-term recovery would be improved by the 
participation of people of color that have a connection to the 
communities most impacted. Simply put, diversity in emergency 
management will help to reverse the existing failure to enact equitable 
practices before, during, and after disasters.
 Recommendations for Integrating Equity to support At-Risk Populations
    Dismantling the systemic and structural inequities in each phase of 
emergency management (preparedness, mitigation, response, and recovery) 
requires significant commitment, resources, and time. The inequities 
have been embedded and institutionalized for many years so the 
solutions will not be quick and require more than ``lip service'' or 
``check the box'' efforts that do nothing more than further 
institutional inequitable practices. I-DIEM's hope is that the COVID-19 
disaster and recent focus on equity by a broader audience will lead to 
dramatic and fundamental changes to all aspects of disaster management. 
The entire Emergency Management Enterprise (Federal, State, local, non-
profit, and private) must prioritize and embed equity as a core part of 
all its responsibilities. Emergency management leaders should be held 
accountable with performance measures aligned to equitable practices 
and outcomes. Emergency managers are unable to make sustained changes 
alone. Political leaders on all levels of government must provide the 
resources and prioritize equity as critical function of government.
    There have been positive actions taken in recent years to embed 
equity into emergency management which serve as great examples or 
implementation nationally. The Commonwealth of Virginia created a 
Health Equity Working Group (HEWG) as a key component of the COVID-19 
Unified Command (UC) response. Led by a multi-agency leadership team 
that includes representatives from the Governor's Chief Diversity 
Office, Virginia Department of Health-Office of Health Equity, and 
Virginia Department of Emergency Management, the Health Equity Working 
Group was initially created at the beginning of the COVID-19 response 
due to the recognition of inequitable impacts and the need to embed 
equity into all aspects of the disaster response. The Health Equity 
Working Group reports directly to the UC leadership and have designed 
innovative programs to support those most in need. The purpose of HEWG 
is to apply a health equity lens to the Commonwealth of Virginia's 
COVID-19 response by proactively and reactively:
    <bullet>  Identifying and prioritizing resources and decision 
points impacting marginalized and at-risk individuals and communities.
    <bullet>  Supporting intentional inclusion of the needs of at-risk 
and marginalized individuals and communities within each working group 
related to preparedness, mitigation, response, and recovery.
    In Houston, officials are integrating equity into flood protection 
efforts by prioritizing communities of color which have historically 
excluded from mitigation efforts in the past. City officials are 
removing the normal cost-benefit ratio that has prioritized more 
valuable housing properties which tended to only benefit wealthy and 
white areas. Instead of prioritizing spending to protect the most 
valuable properties, that tended to exclude communities of color, the 
intentional focus and priority has been placed to target communities 
``that would have the hardest time recovering, including communities of 
color'' (Source: A Climate Plan in Texas Focuses on Minorities. Not 
Everyone Likes It. Christopher Flavelle. New York Times, 7/24/29). This 
type of bold mitigation action is necessary due to the increasing 
number of extreme weather events due to climate change that will 
disproportionately impact vulnerable communities. Funding priorities 
should focus on the communities most in need. Dedicating pre-disaster 
mitigation funding in the most at-risk areas will reduce cost long-term 
and improve disaster outcomes.
    Below are several recommendations for sustainably integrating 
equity into each phase of emergency management:
    <bullet>  Integrate Diversity, Inclusion, and Equity as 
Foundational Goal and Responsibility of Emergency Management.
    <bullet>  Prioritize Vulnerable and Underserved Populations in all 
planning and grant programs.
    <bullet>  Thoroughly review all current emergency management laws 
and policies through an equity lens, including identifying the intended 
and unintended effects of current policies on marginalized on 
individuals and communities.
    <bullet>  Integrate equity and cultural competence into the current 
FEMA doctrine, training and educational programs, including 
incentivizing equity in grants programs, to influence sustainable 
changes throughout the Emergency Management Enterprise.
    <bullet>  Integrate diversity, equity, and inclusion, and 
information on disproportionate impacts of disasters into FEMA's 
planning, exercises, guidance and priorities.
    <bullet>  Include the addition of equity-related performance 
measures in emergency management grants and other funding requirements.
    <bullet>  Invest in innovative technology to conduct predictive 
modeling to identify potential inequitable outcomes.
    <bullet>  Ensure continuous use of Social Vulnerability Assessments 
and Community Engagement to identify and understand the needs of 
vulnerable individuals and communities.
    <bullet>  Commitment to enhance efforts to promoting diversity 
within the Emergency Management Profession by increasing the number of 
people of color and women, especially in positions of leadership.
    <bullet>  Leverage Diversity, Equity, and Inclusion experts and 
engage marginalized communities when making any changes to policies and 
plans.
    <bullet>  Increase the number of Small, Minority, and Woman-owned 
Businesses in FEMA procurement opportunities
    <bullet>  Fund efforts to increase research and improve datasets on 
equity and disproportionate impacts of disasters
                          Stafford Act Changes
    The Robert T. Stafford Disaster Relief and Emergency Assistance Act 
provide critical support to states, tribes, and local governments when 
a federal emergency declaration is issued. Since its creation in the 
1950s, the Stafford Act has evolved based on increasing disasters, 
failures, and lessons learned. The next evolution of the Stafford Act 
should intentionally focus on equity and disproportionate impacts of 
disasters to eliminate any barriers that negatively impacts vulnerable 
individuals and communities.
    <bullet>  Require equitable delivery of Stafford Act services 
equitably.
    <bullet>  FEMA updates policy guidance for the Building Resilient 
Infrastructure and Communities (BRIC) program to dedicate the majority 
of funding to support marginalized communities that will be 
disproportionately during disasters
    <bullet>  Better leverage FEMA's Office of Civil Rights to ensure 
equity is integrated into the delivery of all Stafford Act related 
response, recovery, and mitigation programs.
    <bullet>  Equitably adjust caps for federal assistance to recognize 
that at-risk individuals and communities need more support for longer 
periods of time.
    <bullet>  Create additional provision so FEMA can provide equitable 
support for long-term housing recovery efforts.
    <bullet>  FEMA should ensure match requirements are equitable and 
consider the limited resources of different stakeholders
    <bullet>  Provide additional support or allow under-resourced local 
governments to follow State Procurement requirements instead of 44 CFR 
since many lack adequate number of staff capable to navigate all the 
requirements.
    <bullet>  Ensure the integration of equity into the delivery public 
assistance and individual assistance program to provide additional 
resources and support for vulnerable communities.
    <bullet>  Eliminate the preference for homeowners in the Individual 
Assistance Program which has been found to be biased against 
communities of color and contributes to the expansion of wealth 
inequality.
    <bullet>  Ensure FEMA equitably considers the diverse resource, 
capacity, and limitations of communities its support and has resources 
and authority to provide additional support.
                       The Fierce Urgency of Now
    Fifteen years have passed since Hurricane Katrina battered New 
Orleans resulting in over 3,000 fatalities, mostly within the Black 
community. Since then there are have been other major natural disasters 
that resulted in disproportionate impacts on at-risk population, in 
terms of both lives lost and economically. Unfortunately, these 
numerous events and lives lost have not prompted a major change in 
existing emergency management approaches. It has become painfully clear 
that effective disaster management requires a new, equitable approach 
that understands the unique circumstances of the individuals and 
communities in order to prioritize their needs. The emergency 
management tactics in recent years have proven ineffective in many 
cases because false assumptions have been made about the ability of 
individuals and communities who are already suffering to survive 
disaster impacts. Political leaders, policymakers, and emergency 
managers can no longer turn a blind eye to the reoccurring 
disproportionate impact of disasters on vulnerable populations. New and 
innovative equitable practices must be integrated and prioritized in 
emergency management in order for dramatic and sustainable changes to 
be made to build resilience in the most at-risk communities. As the 
COVID-19 response continues and the heart of hurricane season starts, 
the transition to equitable disaster approaches should begin now. There 
is a ``fierce urgency of now'' that requires all levels of government 
to take action before the next disaster continues the horrible, unjust, 
and disproportionate cycle of loss in vulnerable populations.

    Ms. Titus. Thank you much, Mr. Brown.
    Mr. Higdon?
    Mr. Higdon. Good morning, Chairwoman Titus, Ranking Member 
Katko, and members of the subcommittee. My name is Chad Higdon, 
chief executive officer for Second Harvest Community Food Bank, 
and I appreciate the opportunity to offer perspective regarding 
the experiences of vulnerable populations during disasters.
    For 7 years I have been the CEO of Second Harvest, which is 
headquartered in St. Joseph, Missouri, and serves 19 counties 
in northeast Kansas and northwest Missouri. Second Harvest is a 
member of Feeding America, the nationwide network of 200 food 
banks which provide food and services to food insecure people 
in every county in the United States. I first want to thank 
members of the committee for your support of food banks in your 
districts.
    Every food bank is very appreciative of the support we 
receive from Members of Congress, and we recognize your efforts 
to support the work we do. We have seen a tremendous increase 
in need as a result of COVID-19. This past fiscal year, Second 
Harvest distributed 9.9 million pounds of food, up 31 percent 
from our record distribution the year prior. There are no signs 
of this slowing down as we distributed 1 million pounds of food 
product in July, our first month of the new fiscal year.
    We understand that low-income families in general are 
vulnerable. One vehicle emergency or unexpected home repair can 
set a family back financially for months, and we know that low-
income seniors often must choose between needed prescriptions 
and a nutritious meal. We are mindful of racial disparities and 
the prevalence of poverty and food insecurity across 
demographics, as well as urban and rural disparities.
    Our focus has always been to support all families in need, 
and in doing so have worked to identify and address inequities 
in our service and distribution efforts. To address inequities, 
we recently closed our onsite pantry in an effort to focus more 
attention to mobile pantry distributions across our 19 
counties. We learned that our poorest performing county, 
Leavenworth County in Kansas, is the county with our largest 
black population.
    I'm proud to say our focus in Leavenworth County saw an 
increase in distribution by more than 72 percent in the past 2 
years. Second Harvest also created partnerships with Native 
American populations in northeast Kansas and has established 
food distribution programs on the reservations. Our goal is to 
reach all distressed populations, and the Federal support we 
have received has helped us accomplish this.
    We have seen the benefit of food purchased through the 
Families First Coronavirus Response Act and the CARES Act, the 
Kansas Department of Emergency Management has purchased shelf-
stable food packages for us to distribute, and we have seen 
increases in USDA commodity purchases to support the need. Even 
with these additional sources of food being provided, we are 
still purchasing significantly more product at a higher price 
than we did a year ago.
    We understand programs such as pandemic unemployment 
assistance, housing assistance, SNAP, and CFAP are temporary 
solutions and will eventually come to an end. I am concerned 
that as the Federal relief programs expire, demand will remain 
high, as will the price to distribute food.
    Among the most important support we have received is that 
provided by National Guard members deployed to Second Harvest. 
The Guard has been assisting in all facets of our operations, 
including preparing disaster relief food boxes, distributing 
product at local pantry locations, and deliveries of food and 
other efforts to support food distributions. The National Guard 
has shown commitment to safety at a time when traditional 
volunteers are on the decline because of concerns related to 
the pandemic.
    We also appreciate FEMA's response efforts, including 
efforts of emergency feeding activities eligible for 
reimbursement under FEMA Public Assistance. The PPE that has 
been offered and provided across the country to support our 
personnel and volunteers has also been greatly appreciated. 
There does appear to be a lack of clarity about which incurred 
expenses may be reimbursable, as well as how partnering with 
the State or local government might impact our ability to 
receive reimbursement for emergency food distribution.
    We also heard concerns with the implication and overlap of 
services for individuals who would receive food through FEMA 
Public Assistance in addition to other Federal services. For 
all the assistance we have received to support our pandemic 
response, the continuance of title 32 funding to support 
deployment of the National Guard by the States is what would 
best support our efforts to continue our pandemic response.
    I would also strongly encourage States to consider 
developing proactive agreements with individual food banks and 
State associations so that when food banks are needed to 
support emergency food distribution efforts, we have the tools 
necessary to rapidly support the communities we serve. Through 
all the adversity and challenges, I'm proud to say our team at 
Second Harvest has demonstrated a tremendous effort in keeping 
up with the demand.
    We are very appreciative of everything the Federal 
Government has done to help our response and support vulnerable 
populations, and I hope you consider this testimony as an 
indication of what has been working well, and ideas for how we 
can all be better at what we do.
    Thank you.
    [Mr. Higdon's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Chad Higdon, Chief Executive Officer, Second 
                      Harvest Community Food Bank
    Dear Chairwoman Titus, Ranking Member Katko, and Members of the 
Subcommittee:
    Thank you for allowing me the opportunity to provide written 
testimony regarding the experiences of vulnerable populations during 
disasters. It has been an honor and privilege for Second Harvest 
Community Food Bank and myself to support distressed families during 
this pandemic. I hope the insight I provide will be taken into 
consideration as the federal government continues to respond to the 
needs of its citizens and prepares for future unforeseen emergencies.
    I also want to take the opportunity to thank Members of the 
Committee for your support of food banks within the Feeding America 
network and your dedication and commitment to hunger relief efforts and 
causes. We appreciate Chairwoman Titus' efforts on legislation targeted 
to assist children with weekend and out-of-school meals in previous 
sessions. While preparing my testimony and remarks, I solicited 
feedback from food banks across the country. Food bank staff from 
Nevada communicated how attune Chairwoman Titus is to the work of food 
banks, citing her efforts to address childhood food insecurity. Food 
bank staff in New York commended Ranking Member Katko for being 
genuinely concerned with issues surrounding poverty and food 
insecurity. They mentioned he has visited their food bank as well as 
summer feeding sites for children, has volunteered at a mobile pantry 
distribution and has taken time to discuss issues related to food 
insecurity with their staff. My own Congressman, full Committee Ranking 
Member Sam Graves, has visited my food bank and others in his district 
learning about United States Department of Agriculture (USDA) Commodity 
distributions, our partner agency network, food distribution programs, 
and legislative issues critical to our cause. We appreciate and thank 
all Members of Congress who have taken time to visit or volunteer at 
food banks serving their constituents and hearing our concerns.
    Second Harvest Community Food Bank is a non-profit food 
distribution organization serving fifteen counties in Northwest 
Missouri and four counties in Northeast Kansas. Our mission is to 
provide nourishment and hope to the hungry, while engaging and 
empowering the region in the fight to end hunger. We welcome food from 
the federal government, food manufacturers, retailers, restaurants, 
food drives, through our own purchases, and from other partners. We 
strive for efficiency and integrity in our work and are proud to say 
that ninety-six percent of our operating budget goes directly to 
providing food for families and only four percent is used for 
administrative or fundraising purposes. We distribute nutritious food 
product through a network of 54 partner agencies and direct 
distribution programs such as mobile pantries, childhood, and senior 
hunger initiatives. In the last fiscal year, 39 percent of the 
nutritious food product Second Harvest distributed was associated with 
federal nutrition programs.
    From July 1, 2019 to June 30, 2020, Second Harvest distributed 
nearly 9.9M pounds of food through direct service programs and partner 
agency distributions. This translates to the equivalent of 
approximately 8.25M meals to families in need. This was a 31 percent 
increase over our distribution from the year before. We employ a staff 
of 24 full-time employees with an annual operating budget of $3.7M. 
Prior to the pandemic we served an estimated 45,000 individuals 
identified as food insecure out of a total estimated population of 
350,000, or 13 percent of the population. The estimated number of food 
insecure is expected to increase by approximately five percent to an 
estimated 64,000 individuals as a result of the pandemic.
    Second Harvest Community Food Bank is also part of the Feeding 
America nationwide network of 200 food banks and 60,000 food pantries 
and meal programs which provide food and services to food insecure 
people in every county in the United States. Together, we are the 
nation's largest hunger-relief organization. While food banks 
throughout our network are very diverse and vary in size and types of 
distributions, one thing that we all have in common is our reliance on 
donors and volunteers to carry out our day-to-day operations. I am 
proud to serve on Feeding America's Policy Engagement and Advocacy 
Committee (PEAC), which helps direct policy and advocacy work for the 
organization.
    The focus of this hearing--the impact on vulnerable populations of 
disasters like the COVID-19 pandemic--is something our food bank has 
also been considering. When we look at vulnerable populations, we 
understand that low-income families in general are vulnerable. One 
vehicle emergency or unexpected home repair can set a family back 
financially for months, and we know that low-income seniors often must 
choose between needed prescriptions and a nutritious meal.
    We are particularly mindful of racial disparities and the disparate 
prevalence of poverty and food insecurity among various ethnic groups 
as well as between urban and rural communities. While the focus for our 
food bank has always been reaching and serving all food insecure 
families in our service territory, we also seek to better understand 
the inequities that exist in our service territory so that we may 
develop plans to address any disparities.
    As an example of our efforts in this area, during the past two 
years we have benchmarked our food distribution efforts against the 
estimated need in each of the nineteen counties we serve, and perhaps 
not surprisingly, we discovered that some counties were receiving more 
support than others. The county where our food bank is physically 
located received more support than counties in more remote, rural 
areas, as a significant amount of our distribution was happening 
through an on-site pantry and pickups from local agencies. We made a 
conscious decision to close our on-site pantry and initiate a mobile 
pantry program. Initially this idea was met with some criticism and 
skepticism, but the focus on mobile pantries in every county we serve 
has not only helped us increase our overall distribution but also 
improve the equity of service we provide.
    Additionally, we learned that our poorest performing county--
Leavenworth County--is the county in our service area with the largest 
black population. Because of this work evaluating our service at the 
county level I am proud to say we have increased our food distribution 
in Leavenworth County by more than 72 percent in the past two years. We 
will continue to challenge ourselves to be better and ask the tough 
questions about why these disparities exist, and how we can continue to 
ensure our distribution is fair and equitable throughout our 19-county 
service territory.
    Second Harvest also created partnerships with the Iowa Tribe of 
Kansas and Nebraska and Kickapoo Tribe, both operating on federally 
established reservations in Northeast Kansas and worked with these 
native populations to support food distributions to children when 
schools on the reservations closed. Second Harvest is currently 
providing support through the summer feeding program for children at 
both locations. Monthly mobile pantry distributions are regularly 
scheduled on the reservations and food product received for COVID-19 
relief has been provided through these distributions.
    The focus of all Second Harvest programs and distribution efforts 
is reaching all vulnerable populations within our service territory. 
The response and recovery effort from COVID-19 will be the largest 
relief assistance program in American history by far and will require 
significant partnerships along the way, including federal, state, and 
local government and nonprofit organizations. Our work to support 
hunger relief needs resulting from the pandemic in the communities we 
serve would not have been possible if not for the federal support and 
assistance our organization has received. This support has allowed us 
to begin building a path to a brighter, food secure future for people 
in our communities and we are proud to be a partner in this endeavor.
    Obviously, this is an unprecedented time, and I believe this has 
been the quickest I have witnessed the government respond to the needs 
of its citizens. This is not to say there have not been challenges 
along the way. We appreciate the response and continuous efforts to 
support us in hunger relief strategies for vulnerable families. From 
passage of the Families First Coronavirus Response Act (FFCRA), to the 
Coronavirus Aid, Relief and Economic Security (CARES) Act, the 
Coronavirus Food Assistance Program (CFAP), and the Paycheck Protection 
Program, we have seen the government roll out new programs to respond 
to the pandemic, illustrating a commitment and dedication to serving 
the citizens of this country.
    In Missouri the FFCRA provided $5.1M for food purchases and $7.6M 
was provided by the CARES Act for the State to purchase and distribute 
food through The Emergency Food Assistance Program (TEFAP) channels. 
Additionally, $1.7M has been allocated through FFCRA for administrative 
funding to support food distribution and an additional $1.5M in 
flexible CARES Act funding is being funneled to the food banks in 
Missouri for reimbursement of purchased food. A total of $107,811 of 
the flexible CARES Act funding has been provided directly to Second 
Harvest.
    In Kansas, $2.7M was allocated for food purchase through FFCRA and 
an additional $400,000 allocated for administrative funding, and $3.5M 
in CARES Act funding was authorized for food purchases. In addition, 
the Kansas Department of Emergency Management has purchased nutrient-
dense, shelf stable meals that were packaged by members of the National 
Guard. Second Harvest has also distributed over 1M pounds of CFAP 
product between the two states it serves with an estimated value of 
$1.5M.
    With as much additional food provided for our pandemic response 
efforts, we still have purchased significantly more food product than 
we did a year ago. In addition, the cost for purchased product has 
increased and our budget for food purchases does not go as far as it 
did before the pandemic. From March to June of 2019 Second Harvest 
spent $404,538 on purchased food product, and from March to June of 
2020 we spent $727,284. With funds spent last year we purchased 692,492 
pounds of product, compared to 793,649 pounds this year. This results 
in a $0.33 increase in the price per pound of purchased product. I am 
extremely concerned that as the federal relief programs expire, demand 
will remain high, prices to purchase food will remain higher and the 
strain this will put on most food banks will be difficult to navigate.
    The federal support received has been very critical to our response 
efforts. Yet we also understand these programs are temporary solutions 
and will eventually come to an end. Pandemic unemployment assistance 
will soon expire. Housing and SNAP assistance programs will eventually 
return to pre-pandemic levels. Funds families have received through 
stimulus programs will eventually be spent. The CFAP program will 
eventually expire. Unfortunately, I do not believe the food insecurity 
crisis caused by the pandemic will be short-lived. In fact, I am 
concerned the significant increase in demand we have seen since March 
will only increase, and as some of these federal disaster response 
programs end it will be a tremendous challenge for food banks to 
sustain current levels of operations without ongoing support.
    The estimated food insecurity rate for Second Harvest's service 
territory in 2018 was 13 percent of the total population. For 2020 we 
expect that number to increase by 40 percent to an estimated 18.3 
percent of the population--and 26.5 percent of the children--living in 
our 19 counties. We have closely monitored our demand and service 
between mid-March and mid-July of 2020 compared to the same period in 
2019. Through our partner agency network, we have witnessed an increase 
of approximately 58 percent of individuals served, and through Second 
Harvest's mobile pantry distributions we have seen an increase of more 
than 220 percent of individuals served from the previous year. This has 
been possible in large part due to the additional support of food 
product received from USDA and through CARES Act food purchases, and 
increased distributions made possible through utilization of the 
National Guard in both Missouri and Kansas.
    Our biggest concern is that the increased demand will remain 
heading into 2021, while much of the support we received in the current 
year will not.
    Among the most important support we have received, and that we can 
least afford to lose, is that provided by National Guard members 
deployed to Second Harvest who have done an exceptional job and have 
been critical to our work of providing much needed support to families 
in need. The Guard has been assisting in all facets of our operations 
including preparing disaster relief food boxes, distributing product at 
mobile pantry locations, delivering USDA commodities and other food 
product, sorting produce for distributions, packaging boxes of food for 
distributions to children, delivering food to the homebound, and 
serving at summer feeding sites for children.
    Additionally, clients receiving services and our staff feel 
extremely confident in the Guard members' efforts to adhere to social 
distancing and best safety practices with our distributions, where 
monitoring volunteers to adhere to the same standards can be a 
challenge. One of our biggest fears would be one volunteer working a 
mobile distribution who tested positive for COVID-19 where more than 
200 vehicles received food through that distribution, and the effort it 
would take to track families who received support through that 
distribution and provide future assurances to families that we are 
taking all necessary measures to ensure their safety when receiving 
food. The National Guard has shown a tremendous commitment to safety 
through their mission at the food bank.
    Many of our efforts and service levels would have been highly 
impacted without the support of the National Guard. With the increase 
in demand and reduction in traditional volunteers, what we have 
accomplished during the pandemic would not have been possible without 
their support. From May to July we established 67 additional mobile 
pantry distributions utilizing National Guard personnel and vehicles 
and the majority of these would not have been possible without their 
support. In total during those months, 70 mobile pantry distributions 
in Missouri and 34 in Kansas were conducted utilizing National Guard 
support at Second Harvest.
    The Federal Emergency Management Agency's (FEMA) response efforts 
are no different, and we are especially grateful for the Agency's April 
11 guidance that made emergency feeding activities eligible for 
reimbursement under FEMA Public Assistance. FEMA staff in regional 
offices have also been working hard to meet the requests of state and 
local governments and their partner non-government organizations, 
including food banks.
    In Texas FEMA Public Assistance funds were utilized for food 
replenishment in the amount of $65M. Food bank staff shared that this 
effort came at a critical juncture and helped bridge the gap from 
existing inventory and private funding shortages. In Indiana, FEMA 
supported delivery of meals for approximately six weeks as donations 
decreased. This effort was greatly appreciated and well received by the 
food bank's partner agencies and clients served. Across the country 
food banks are distributing record amounts of food product, and the 
various channels of food sourcing which have been made available to 
support the record levels of demand have directly correlated to the 
success we have seen in our disaster response efforts.
    We have seen other initiatives that have contributed to the 
disaster response in different parts of the country. Funding has been 
provided to support pork processing initiatives in Missouri and pork 
and beef processing efforts in Iowa. Drive thru distribution models 
proved to be a safe and efficient way to get a large quantity of food 
distributed to a high volume of individuals with contactless 
distribution efforts implemented. Personal protective equipment (PPE) 
has been offered and provided across the country. Face shields have 
been offered by Missouri's State Emergency Management Agency and will 
be delivered to food banks this week.
    All of these combined efforts and much needed support have arrived 
during a critical time of need for hunger relief in this nation as a 
result of the pandemic. We truly appreciate the efforts of federally 
elected officials, administrative agency staff, state officials and 
local resources who have had a hand in carrying out each of these 
efforts. The work of food banks like ours would not have been as 
responsive to the needs of Americans if not for these actions taken.
    With all the demonstrated success stories, there are also going to 
be opportunities for improvement and takeaways to improve on future 
disaster response efforts. When no one could have planned and prepared 
for everything that transpired as a result of COVID-19, the federal 
response should be commended for the swift action and rapid response. 
In the next few paragraphs, I will outline areas which I hope will be 
considered as the federal government continues to evaluate the 
effectiveness of its COVID-19 response efforts and the impact on 
vulnerable populations.
    One of the challenges food banks experienced was a disparity in 
response efforts across FEMA regions. It seems that in some instances, 
discretion from the FEMA regional offices and the level of effort or 
understanding on the part of state and local emergency management 
agencies directly impacts the likelihood of emergency feeding 
activities by food banks having been reimbursed by FEMA during the 
pandemic.
    There appears to be a tremendous opportunity to better educate 
state, local, tribal and territorial governments about how to partner 
with food banks to receive reimbursement for food distribution expenses 
during a disaster. Specifically, for Second Harvest Community Food Bank 
there has been a lack of clarity about which incurred expenses may be 
reimbursable, as well as how partnering with a state or local 
government might impact our ability to receive reimbursement for 
emergency food distribution. We developed a Memorandum of Understanding 
with our largest county served but to date have not had a need to act 
on this initiative. In addition, if we were to try and determine 
increased costs as a response to the pandemic, it would be difficult to 
differentiate costs that would be eligible for other federal program 
reimbursement or private funding and exclude those expenses.
    As an example, Second Harvest provides a report to Missouri 
Department of Social Services regarding purchases and value of 
distributions to families with children as a third-party maintenance of 
effort (MOE) claim toward the state's Temporary Assistance to Needy 
Families (TANF) MOE. We do not directly receive federal TANF dollars as 
a result of this, but we do receive funding from the state for the 
partnership created. However, it would be my understanding that if we 
claim expenses toward TANF MOE those expenses would not be eligible for 
any FEMA disaster reimbursement. Additionally, we received funding from 
a private donor for food purchases in response to the pandemic through 
March and April, and I assume we would not be able to claim costs 
covered through private donations also as a disaster reimbursement. 
However, there has not been much clarity on whether we can claim any 
expenses for disaster reimbursement, or what the guidelines would be in 
doing so. And for a small organization which employs 23 full-time 
employees and only one staff member handling all financial activity, 
tracking expenses across government programs can be very challenging.
    Feedback provided by other food banks reiterated some of these same 
concerns, with a lack of understanding for what populations or services 
would be eligible for reimbursement. I also heard concerns from other 
food banks that FEMA prohibits reimbursement of expenses which are tied 
to serving anyone who receives any other form of government food 
assistance. Typically, during a disaster we would assume that those 
seeking additional assistance may very well also be SNAP recipients or 
receive federal commodities through USDA TEFAP or the Commodity 
Supplemental Food Program (CSFP). When the goal would be to serve a 
high volume of individuals in drive thru operations, it would be 
extremely difficult to track who might be receiving any other type of 
federal assistance. It appears that this may not in fact be the case, 
but this is the message some food banks received from emergency 
management officials they had been working with. Food banks shared that 
they along with many local governments could not afford to take the 
risk that FEMA would not reimburse expenses for emergency food 
distributions, and therefore did not pursue the opportunity.
    In addition to these challenges, it can also be problematic 
managing various food distribution programs across multiple states and 
among different state agencies operating in the same state. States are 
allowed flexibilities to operate food distribution programs within the 
standards set by the federal government, but within those standards can 
manage programs as they best see fit. This can be a challenge when 
managing the same program, with basically the same food product in the 
same warehouse, but variances in how to manage each of these for 
different states. In Kansas we operate USDA Commodity programs with 
oversight from the Kansas Department of Children and Families. In the 
same state we operate the USDA Child and Adult Care Food Program 
(CACFP) and USDA Summer Food Service Program (SFSP) under the Kansas 
Department of Education. In Missouri we work with the Missouri 
Department of Social Services in operating SNAP Outreach Assistance and 
the TEFAP Commodity program, and the Missouri Department of Health and 
Senior Services in operating the USDA CSFP, CACFP, and SFSP programs. 
In addition, each state has other departments managing other federal 
nutrition programs. This can often cause challenges in working to find 
the best methods to efficiently manage each program.
    As we look at what the federal government could do to best support 
our efforts going forward, the first effort which would be a tremendous 
help to our food bank and others across the country would be extension 
of the Title 32 authorization to support states in the deployment of 
the National Guard to support food distribution efforts. We know that 
over the next few months many of the food distribution programs will 
continue and we expect to have increased amounts of food available to 
distribute. The challenge will be in our individual food bank cold 
storage capacity and logistical limitations. With National Guard 
support we can increase distributions and move product more quickly so 
that it reaches families needing support in a timely manner. The second 
item which would be most helpful is financial support for the purchase 
of shelf-stable food product. Because product from the CFAP program and 
other steady channels includes more perishable product, an increase in 
shelf-stable food would complement our current product offerings and is 
much easier for food banks and partner agencies to distribute in a safe 
and efficient manner.
    I would also encourage any efforts to provide consistency across 
FEMA regions to ensure all parts of the country are receiving similar 
support and resources for disaster response. We know that states may 
have different priorities in how they choose to respond to the 
pandemic, but a priority should be placed on making sure food banks 
have the support and tools they need to keep up with the increased 
demand, regardless of how those resources are acquired. We know there 
are different approaches that can work to address any problem and we 
simply hope steps are being taken to make sure the end-result is the 
same and vulnerable families receive the support they need.
    I also believe steps could be taken to build stronger partnerships 
between emergency management agencies and Feeding America food banks. 
Feeding America has the infrastructure and history of meeting the 
hunger needs of American citizens. During this pandemic we found 
ourselves developing an agreement with a state for emergency food 
distribution to receive product that was highly needed just prior to 
implementation, and consequent month-to-month agreements were signed as 
prior agreements expired.
    If a time comes when we must respond to a disaster worse than this 
pandemic, it could be detrimental to have a need to develop and 
requirement to sign a formal agreement which could delay a food bank 
from being able to provide the necessary and expedient response. 
Instead, we should be focused on meeting the need and equipping food 
banks to be ready to move as disaster strikes. Ideally, we would like 
FEMA to encourage proactive partnerships with food banks and state 
associations of food banks on an ongoing basis, so that relationships 
already exist for food banks to respond quickly when such need should 
arise.
    Providing PPE to food banks for staff and volunteers at the food 
bank and partner agency level is encouraged. This has been a tremendous 
help and provides added safety for staff, volunteers, and clients 
involved with food distributions. Along those lines, if hand sanitizer 
is provided, it is most needed in individual sizes or more manageable 
packaging, rather than large 55-gallon drums which some food banks were 
offered. No contact thermometers have also been very helpful to check 
temperatures for staff and volunteers involved in food distribution 
efforts.
    The final suggestion I would offer is related to the capacity of 
food banks to meet ongoing community needs and also be better prepared 
to respond to future disaster situations. The dramatic increase in 
commodity foods being distributed by our nation's food banks, which 
began with the introduction of the USDA's Food Purchase and 
Distribution Program two years ago, is stressing the ability of food 
banks and our agency partners to store and distribute this volume of 
perishable foods.
    The $600 million for TEFAP food purchases provided in the FFCRA and 
CARES Acts, as well as the approximately $500 million in additional 
USDA Section 32 food purchases announced in May 2020, will add further 
distribution strain to food banks and agency partners. This need is 
more acute in communities that are also receiving a high volume of 
perishable food through the CFAP program. Specifically, we are seeing a 
significant need at food banks and partner agencies across the country 
to acquire the coolers, freezers, trucks, and trailers necessary to 
efficiently store and distribute food across their service areas. 
Additionally, and especially during disaster response, there is a need 
for on-site generators to help ensure food banks can maintain 
operations during prolonged power outages.
    To address these needs Feeding America has recommended an 
investment of $543,625,000 to support the rental, lease, or purchase of 
these essential assets across the nation's network of 200 food banks 
and 60,000 partner agencies. Such an investment will allow Second 
Harvest Community Food Bank and our colleagues across the country to 
better meet the ongoing needs related to the current pandemic, and 
ensure we are prepared to respond to future crises.
    In conclusion, there have been multiple challenges we have faced 
during our pandemic response at Second Harvest. I am extremely proud of 
my team and the efforts of our food bank, to distribute record levels 
of nutritious food product this past fiscal year. We have persevered 
and accomplished much of this while dealing with partner agency 
closures including food pantries and meal service centers and concerns 
among staff for their own safety. Children's initiatives were impacted 
with school closures, and our staff worked closely with multiple school 
districts to continue to provide much needed support to families with 
children. We have worked through a decrease in volunteerism, and we 
still have many volunteers reluctant to return because of COVID-19 
concerns.
    While food safety and product integrity has always been a focus of 
our food bank, we have been extremely mindful of safety and sanitation 
needs associated with food distributions during the pandemic. We have 
dealt with work from home efforts with full intention of keeping our 
doors open and uninterrupted service. We dealt with challenges 
acquiring and providing PPE and hand sanitizer to accommodate staff and 
volunteers. We understood families needing assistance were at times 
reluctant to go out to a food distribution site to receive food product 
their family needed. We have experienced increased food costs and 
disruptions to supply chains, impacting our food sourcing efforts. 
Finally, we have worked through extreme limitations with cold storage 
capacity and a significant increase in the amount of frozen and 
refrigerated product received and needed to support families in need.
    Through all the adversity and challenges I am proud to say my team 
has demonstrated a tremendous effort keeping up with the demand and 
serving families in need. And we are very appreciative of everything 
the federal government has done to help us respond to COVID-19 and 
support vulnerable populations which have been impacted. We will 
continue to serve the American public and I hope you consider this 
testimony as an indication of what has been working well, and ideas for 
how we can all be better in what we do.
    If I can provide any additional information to support the 
committee's efforts through this process, please do not hesitate to 
reach out.

    Ms. Titus. Thank you, Mr. Higdon.
    Ms. Roth, you may proceed.
    Ms. Roth. Good morning, Chairwoman Titus, Ranking Member 
Katko, and distinguished members of the subcommittee. It is an 
honor to testify before you today as one voice among the 26 
percent of the U.S. population who have disabilities. I too 
honor a man who was a beacon for me and so many others with 
disabilities.
    In that spirit, I am here to make good trouble. I am the 
executive director and CEO for the World Institute on 
Disability. I've been focusing on the intersection of 
disability rights, emergency management, disasters, public 
health emergencies, and disaster resilience since the 9/11 
terrorist attacks almost 20 years ago.
    For almost 8 years, I served as Senior Advisor to FEMA 
Administrator Craig Fugate, establishing and directing the FEMA 
Office of Disability Integration and Coordination. Thank you 
for allowing me to share the experiences of people with 
disabilities during disasters, the topic of today's hearing.
    After so many years of effort, I wish I was here with 
better news. The Centers for Disease Control and Prevention 
reports that at least 1 in 4 adults has a disability. Like me, 
they have sweeping civil rights protections against 
discrimination on the basis of their disability, and are 
entitled to equal access throughout almost all aspects of daily 
life in the U.S. These rights are never suspended or waived, 
including before, during, and after public health emergencies 
and disasters.
    Having a disability does not make people more vulnerable in 
disasters. Everyone is potentially vulnerable to the impact of 
disasters. What makes people vulnerable is the failure of 
communities and governments to plan for the inclusion of people 
with disabilities in every aspect of the disaster cycle, 
including community preparedness and disaster exercises, 
accessible instant warnings, building and community evacuation, 
sheltering in temporary housing, access to health, maintenance, 
and medical services, and all aspects of the recovery process.
    Chairwoman Titus, we can't even assure that service animals 
will be consistently admitted to shelters in a disaster, 
despite the obligation, training, and technical assistance I 
and many others have been providing for years. Failure to 
comply with the ADA and other key civil rights laws is what 
makes people with disabilities more vulnerable in disasters and 
public health emergencies.
    While 8 percent of the country's COVID-19 cases have 
occurred in long-term care facilities, deaths related to COVID-
19 in these facilities account for at least 43 percent of the 
country's pandemic fatalities. With 150,000 Americans dead, 
this means at least 65,000 people, almost all disabled, many 
black, indigenous, brown, and other people of color, mostly 
poor, have died horrible deaths in the last 137 days, almost 
always without any loved ones to hold their hand.
    How can I say most of these people were disabled? Because 
no one ever goes to a nursing home or a long-term care facility 
because they're old. They go because of the failure of their 
community and their Government to provide adequate housing, 
support, and services in their own home, despite the 
requirements of disability civil rights laws. These 65,000 
people with disabilities all have unwaiverable rights confirmed 
in the 1999 Supreme Court Olmstead decision, giving them all 
the right to live in the most integrated setting appropriate to 
their needs, which was clearly not in the COVID infested death 
pits in which they gasped their final breath without loved ones 
by their side.
    It's too late for them, but not for the millions of others. 
According to a New York Times database, as of July 23rd, the 
virus has infected more than 335,000 people at some 15,000 
facilities. This includes people who are in prisons and in 
detention facilities.
    We have many asks in our testimony, but most particularly, 
we asked for immediate passage of the bipartisan bicameral Real 
Emergency Access for Aging and Disability Inclusion for 
Disasters Act, and the Disaster Relief Medicaid Act.
    And we ask you to help us find out who is monitoring and 
enforcing FEMA's and HHS' use of disaster funds to ensure that 
every Federal dollar spent or granted to others to spend are in 
full compliance with all of the obligations under the 
Rehabilitation Act of 1973.
    We can't seem to get that answer, and can't seem to get an 
answer for who is responsible for monitoring the folks who are 
supposed to be monitoring the expenditure of billions, perhaps 
trillions, of taxpayer disaster funds. I have many individual 
examples I wish I had time to share with you today.
    [Ms. Roth's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Marcie Roth, Executive Director and Chief 
            Executive Officer, World Institute on Disability
    Good morning Chairman Titus, Ranking Member Katko, and 
distinguished members of the Committee. It is an honor to testify 
before you today, as one voice among the 26 percent of the US 
population who have disabilities.
    I am the Executive Director and Chief Executive Officer for the 
World Institute on Disability, one of the first global disability 
rights organizations, founded in 1983 by people with disabilities and 
continually led by disabled people for the past 37 years. Thank you for 
allowing me to share the experiences of people with disabilities during 
disasters, the topic of today's hearing.
    I have been active in the disability rights movement since I was in 
high school and have worked as an advocate for the rights and services 
needed by people with disabilities throughout my 45-year career. Along 
the way, I acquired my disability, raised two disabled children, 
married a man with a disability and, though some don't own it, most of 
my family and friends have disabilities, too.
       Disability Rights, Disasters and Public Health Emergencies
    Since the Centers for Disease Control and Prevention (CDC) reported 
in 2018 that at least 1 in 4 adults has a disability, it's safe to 
assume that many people listening to or reading my testimony has a 
disability too. Like me, they have sweeping civil rights protections 
against discrimination on the basis of their disability and are 
entitled to equal access throughout almost all aspects of daily life in 
the US.
    Two days ago, July 26, 2020, the 30th anniversary of the Americans 
with Disabilities Act was celebrated. This law, known as the ADA, gives 
civil rights protections to individuals with disabilities similar to 
those provided to individuals on the basis of race, color, sex, 
national origin, age, and religion. The ADA also assures equal 
opportunity for individuals with disabilities for access to businesses, 
employment, transportation, state and local government programs and 
services, and telecommunications. These rights are never suspended or 
waived, including before, during and after public health emergencies 
and disasters.
    In the words of one of the original authors of the ADA, Bob 
Burgdorf, written in the Washington Post ``The ADA was a response to an 
appalling problem: widespread, systemic, inhumane discrimination 
against people with disabilities. In 1971, a New York judge described 
people with disabilities as ``the most discriminated [against] minority 
in our nation.''
    My laser focus on emergency preparedness and improving disaster 
outcomes for people with disabilities and building accessible disaster-
resilient communities began in the immediate aftermath of the September 
11, 2001 terrorist attacks, when I was asked to advise the White House 
on the rights and urgent needs of thousands of people with disabilities 
living in the area around ground zero.
    Appointed by President Obama to the U.S. Department of Homeland 
Security--Federal Emergency Management Agency from 2009 to 2017, I 
served as Senior Advisor to Administrator Fugate, establishing and 
directing the FEMA Office of Disability Integration and Coordination. I 
also served as FEMA's Congressionally mandated Disability Coordinator; 
a requirement established when the Post Katrina Emergency Management 
Reform Act (PKEMRA) amended the Stafford Act in 2006.
    Now I'm going to speak about what happens to people with 
disabilities in disasters, again and again. The news is not good.
    Having a disability does not make people more vulnerable in 
disasters. Everyone is potentially vulnerable to the impacts of 
disasters. What makes people vulnerable is the failure communities and 
governments to plan for the inclusion of people with disabilities in 
every aspect of the disaster cycle, including community preparedness 
and disaster exercises, accessible alerts and warnings, building and 
community evacuation, sheltering and temporary housing, access to 
health maintenance and medical services, and all aspects of the 
recovery process.
    Failure to comply with the ADA and other key civil rights laws is 
what makes people with disabilities more vulnerable in disasters and 
public health emergencies. Most notable among the civil rights laws is 
the Rehabilitation Act of 1973 which requires equal physical access, 
program access and equally effective communication access. The 
Rehabilitation Act, now almost 50 years old, applies to EVERY federal 
dollar spent, including all funds expended by the federal government 
before, during and after disasters, and every federal dollar spent by 
grantees and sub grantees, including states, tribes, territories and 
their subgrantees from cities and counties and any other user of 
federal funds.
    The US Department of Justice, FEMA, the Departments of Health and 
Human Services, Homeland Security, Housing and Urban Development have 
all confirmed that they know that these civil rights laws are NEVER 
waived or suspended, including in a disaster. Even when waivers of 
other laws are granted in a federally declared disaster, those waivers 
never apply to the ADA and the Rehabilitation Act, nor do they apply to 
the non-discrimination requirements in the Stafford Act.
    Despite this, the Centers for Medicare and Medicaid have repeatedly 
issued waivers in public health emergencies that allow states to bypass 
many of the protections that keep people with disabilities out of 
institutions, nursing homes and other congregate facilities, in direct 
violation of their rights. These Section 1135 of the Social Security 
Act blanket waivers have been issued repeatedly over the past four 
years with dire consequences for people with disabilities, despite 
their ADA, Stafford and Rehabilitation Act rights.
    I have repeatedly raised these concerns for years, including in a 
formal complaint from the Partnership for Inclusive Disaster Strategies 
in 2017, filed with the Departments of Justice, Health and Human 
Services, Homeland Security and FEMA. As the Executive Director of the 
Partnership for Inclusive Disaster Strategies, I was granted a 
``listening session'' hosted by the Disability Rights Section of the 
Department of Justice in November 2017. Representatives from HHS and 
DHS attended, FEMA RSVPed to DOJ that they would attend, but never 
showed up. In my one-way conversation, while everyone ``listened'', I 
requested that these federal representatives exercise their obligation 
to enforce disability rights laws since the civil rights of people with 
disabilities are never allowed to be waived or suspended. I never heard 
another word about my complaint and the issuance of 1135 blanket 
waivers continued in many subsequent disasters, including the current 
COVID-19 pandemic.
    The National Council on Disability (NCD) is an independent federal 
agency charged with advising the President, Congress, and other federal 
agencies regarding policies, programs, practices, and procedures that 
affect people with disabilities. In May 2019, NCD published Preserving 
Our Freedom: Ending Institutionalization of People with Disabilities 
During and After Disasters. In NCD's cover letter to President Trump, 
Presidential Appointee NCD Chairperson Neil Romano tells the president, 
``NCD has found that people with disabilities are frequently 
institutionalized during and after disasters. The report examines 
factors that lead to institutionalization. Then, most critically, it 
provides recommendations to eliminate institutionalization of people 
with disabilities during and after disasters. It also recommends how to 
improve community readiness to meet obligations that require equal 
access to emergency and disaster services and programs in the most 
integrated setting appropriate for disaster-impacted people.'' Chairman 
Romano tells President Trump, ``There will be no remedy in future 
disasters without sweeping changes.''
                       Where do we need to focus?
    After many years of calls for action to address the disaster rights 
and needs of 26% of the population, we have largely failed. Among the 
many issues we are asking this Committee to prioritize, include the 
following:
    <bullet>  Focus on disability inclusive preparedness, response and 
recovery.
      <bullet>  Please help us find out who is monitoring and enforcing 
FEMA and HHS' use of disaster funds to ensure that every federal dollar 
spent or granted to others to spend are in full compliance with all of 
the obligations under the Rehabilitation Act of 1973? We can't seem to 
get that answer and can't seem to get an answer for who is responsible 
for monitoring and enforcing the agencies required to monitor and 
enforce the expenditure of billions--perhaps trillions of taxpayer 
dollars!
      <bullet>  Are we centering our efforts on the disaster needs of 
multiply marginalized Black, Indigenous, Brown and other People of 
Color?
      <bullet>  Are the rights and needs of disabled prisoners and 
detainees prioritized in emergency and disaster planning?
      <bullet>  What efforts are being taken to ensure people with 
intellectual disabilities, autistic people, people with mental health 
needs and other disabled people who are most often the most excluded 
from emergency planning?
      <bullet>  Why are funds being directed to improve nursing homes 
when they very obviously are incapable of protecting the people in 
their facilities from infections, including deadly COVID-19. Invest 
funds in home and community based services and accessible housing!
      <bullet>  Who is responsible for monitoring the GAO findings 
regarding FEMA's obligations to people with disabilities? Despite 
several recent reports about the failures of the Office of Disability 
Integration and Coordination, several agreements remain unfulfilled and 
although GAO reported that they weren't conducting a civil rights 
review, many disability civil rights violations have been documented 
and remain unresolved. If GAO is not responsible for addressing these 
documented civil rights violations, who is?
      <bullet>  Are people with disabilities involved in planning, 
participating in and reviewing disaster exercises?
      <bullet>  Do they get alerts and warnings in formats accessible 
to them? Has the Integrated Public Alerts and Warning Act adequately 
addressed all accessibility requirements? Information must be 
accessible to be actionable.
      <bullet>  The only service provided to individuals under the 
nationwide COVID-19 disaster declarations is ``Crisis Counseling''. 
Currently, FEMA has been unable to provide any information about which 
states are providing accessible crisis counseling services or what 
those accommodations are and how to locate them.
      <bullet>  Can they evacuate from multistory buildings? Can they 
evacuate the community with everyone else, even if they need accessible 
transportation, or are they left behind?
      <bullet>  Are shelters prepared to meet their access and 
functional needs?
      <bullet>  Will service animals be welcomed? Despite relentless 
efforts, people with service animals are still repeatedly denied access 
to shelters.
      <bullet>  Can people with disabilities register for FEMA 
assistance? Can they request reasonable accommodations for the 
application process when they apply? After years of repeatedly raising 
these issues, FEMA told GAO over a year ago that they would have this 
resolved. It still is not, and we are told, ``hopefully by the end of 
2020''.
      <bullet>  Will national disability organizations finally be 
invited to work with FEMA's Office of Disability Integration and 
Coordination after being refused time and again since 2017.
      <bullet>  How will personal assistance and other accommodations 
be provided in concurrent disasters during the pandemic? There is a 
need for immediate solutions to prevent admissions to nursing homes and 
other COVID-19 infested congregate facilities.
      <bullet>  There is a national shortage of accessible and 
affordable housing before disasters destroy homes. This must be a 
priority or the cascade that leads to institutionalization won't be 
stemmed.
      <bullet>  Likewise, we must prioritize Home and Community Based 
Services funding and Money Follows the Person funding to prevent 
institutionalization and provide the resources for nursing home 
transition and other deinstitutionalization for all who wish to live in 
the community, without exception.
      <bullet>  Meeting the educational needs of students with 
disabilities remains an especially urgent need during the pandemic. The 
disaster related needs of students with disabilities have been an issue 
in every recent disaster, and this must be addressed so that planning 
can prevent the disproportionate interruption of the educational needs 
of these students, in violation of their rights under the Individuals 
with Disabilities Education Act.
      <bullet>  And, disaster recovery and mitigation must always start 
with a commitment to universal design standards and accessibility as 
imperatives. Without accessibility, community resilience is impossible.
      <bullet>  Immediately pass the bi-partisan, bi-cameral Real 
Emergency Access for Aging and Disability Inclusion for Disasters 
(REAADI for Disasters Act)--S-1755 and HR-3208 and Disaster Relief 
Medicaid Act (DRMA) S-1754 and HR-3215. These bills will go a long way 
towards closing many of the deadly gaps in disasters and public health 
emergencies, not just for people with disabilities, but for the whole 
community.
                           The current crisis
    On March 3, 2020, in anticipation of what was to come, disability 
advocates led by the Partnership for Inclusive Disaster Strategies, the 
National Council on Independent Living Emergency Preparedness 
Subcommittee, and my organization, the World Institute on Disability 
issued a National Call to Action joined by 194 other local, national, 
and international groups.
    The coalition, led by the Partnership followed our Call to Action 
with a letter to Vice President Pence and the White House COVID-19 Task 
Force on March 9, 2020.
    It took many complaints before CMS amended their COVID-19 1135 
blanket waiver guidance last month, adding one line to the document 
originally published 4 months earlier. The added language reads, 
``States are still subject to obligations under the integration mandate 
of the Americans with Disabilities Act, to avoid subjecting persons 
with disabilities to unjustified institutionalization or segregation.
    In a footnote, CMS also added ``Please note that consistent with 
the integration mandate of Title II of the ADA and the Olmstead vs LC 
decision, States are obligated to offer/ provide discharge planning 
and/or case management/ transition services, as appropriate, to 
individuals who are removed from their Medicaid home and community 
based services under these authorities during the course of the public 
health emergency as well as to individuals with disabilities who may 
require these services in order to avoid unjustified 
institutionalization or segregation. Transition services/ case 
management and/or discharge planning would be provided to facilitate 
these individuals in their return to the community when their condition 
and public health circumstances permit.'' Based on reports, this has 
not stemmed the placement of people with disabilities in COVID infested 
nursing homes.
                            Who is affected?
    On March 13, 2020, President Trump declared the COVID-19 pandemic a 
national emergency. While 8 percent of the country's COVID-19 cases 
have occurred in long-term care facilities, deaths related to COVID-19 
in these facilities account for 50 percent of the country's pandemic 
fatalities, according to Larry Kudlow, representing President Trump on 
CNN's State of the Union on 7/26.
    According to Mr. Kudlow's numbers, in the 137 days that have 
followed President Trump's National Emergency Declaration, 50% of the 
150,000 US COVID-19 deaths, 75,000, were almost all people with 
disabilities who despite their right to live in the community, died a 
horrific death, without any loved ones by their side, in congregate 
facilities, such as nursing homes, long term care facilities, and group 
homes. Countless other disabled people are also dying from COVID in 
juvenile and adult psychiatric hospitals and carceral facilities, such 
as jails, prisons and detention centers. Many of these people are 
multiply marginalized Black, Indigenous, Brown and other people of 
color, most of them were poor.
    According to a New York Times database, as of July 23, the virus 
has infected more than 335,000 people at some 15,000 facilities. These 
numbers would indicate that there are still well over a million 
institutionalized people who could still be prevented from contracting 
the virus. Clearly, given the abject failure of these facilities to 
protect the people under their care, this won't be possible in those 
15,000 facilities.
    Disability rights advocates from across the country are calling for 
immediate relocation of all disabled people currently in congregate 
facilities. Many of the nation's 400+ Centers for Independent Living, 
non-residential community advocacy organizations, serving most 
communities in every state, have completed thousands of successful 
transitions from nursing homes to non-congregate community living. They 
are ready, willing and able to implement their federally mandated 
nursing home transition services. In a July 6, 2020 letter to the 
nation's governors, these community living experts and their allies 
notified the governors that they will assist state and federal 
government authorities to meet their civil rights obligations under the 
ADA and the Rehabilitation Act by rapidly relocating nursing home 
residents with disabilities to far safer transitional housing where 
they would continue to receive all of the supports and services they 
require in the privacy and safety of non-congregate community 
locations. FEMA has been repeatedly requested to provide guidance to 
governors about how to use the current disaster declarations to enable 
the use of Public Assistance, Category B funds, Emergency Protective 
Measures, to fund the emergency protective needs of hundreds of 
thousands of people with disabilities in dangerous COVID infested 
congregate facilities. FEMA has shown no urgency in providing this life 
saving guidance. People with disabilities living in our communities, in 
their own homes, have a radically lower infection rate than people 
living in congregate settings. Home and community-based services are 
also a very cost-effective solution.
    In the NCD report Preserving Our Freedom: Ending 
Institutionalization of People with Disabilities During and After 
Disasters

        ``data shows it is more cost-effective to provide community-
        based services like accessible shelters versus 
        institutionalization. In NCD's 2009 report The Cost of 
        Deinstitutionalization: Comparing the Cost of Institution 
        Versus Community-Based Services, the average annual expenditure 
        for a state institution was $188,318 compared to $42,486 for 
        Medicaid funded home and community-based services.1 The fiscal 
        disparity between the two options is staggering and further 
        supports NCD's recommendations in this report that 
        institutionalization of persons with disabilities during and 
        after disasters is not an economically sound option.''
                            Real Experiences
    Here are the experiences of three disabled people affected in 
extreme ways in the midst of the COVID-19 federally declared disaster.
    Katy is a disability advocate in Yuba City, CA. She lives in her 
own home, and, as a person with quadriplegia, she receives In-Home 
Supportive Services (IHSS) as an alternative to out-of-home care. This 
State of CA program is described as ``enabling recipients to remain 
safely in their own homes''. Due to COVID, Katy's in-home support 
providers stopped coming and, despite repeated promises from the state, 
she was told IHSS workers were unavailable. Without in-home support, 
Katy's health and safety were in danger. She could find people to hire 
on Craigs List, but they were far more expensive than the $133/day IHSS 
currently pays but IHSS won't cover the additional cost. Instead, Katy 
was forced to go into a nursing home at a cost to the state of $600/
day, a $467 more expensive option in an especially dangerous place for 
anyone to be forced to live.
    Kristen is a mother of four, from Atlanta. During childbirth, she 
had a massive stroke, resulting in paralysis and a brain injury. After 
a recent hospitalization related to her brain injury, the hospital was 
in a hurry to discharge Kristen so they could fill her bed with a 
higher paying patient. While she and her friends scrambled to find an 
accessible home for her and her children to live, she was relocated 300 
miles away to a nursing home in TN against her will. As a result of 
that decision, she can't see her children and she has been told that 
since she is out of state, proceedings to sever her parental rights 
will begin soon.
    Both Katy and Kristen have submitted Civil Rights complaints to the 
US Department of Health and Human Services Office for Civil Rights. As 
of this hearing, neither has had any action taken by HHS.
    Last month, a Black, disabled, 46-year-old African American father 
of five was one of the tens of thousands of disabled people who had 
contracted COVID-19 in a nursing home. However, Michael Hickson, who 
was paralyzed after a massive heart attack caused a brain injury in 
2017, did not die from the virus. He was euthanized, despite his wife's 
pleading with doctors to provide life sustaining care to her husband. 
In the words of one reporter, Michael ``was black and paralyzed, so 
doctors decided his life wasn't worth saving''.
    Michael's wife, Melissa, legally recorded an exchange she had with 
her husband's doctor about Michael's care. ``As the recording shows, 
they agreed that Michael should not be intubated, but Melissa still 
wanted Michael to be treated aggressively. The doctor insisted 
aggressive treatment wouldn't ``help him improve'' and ``right now, his 
quality of life . . . he doesn't have much of one.'' ``What do you 
mean?'' Melissa asked. ``Because he's paralyzed with a brain injury, he 
doesn't have quality of life?'' ``Correct,'' the doctor flatly replied. 
``The doctor admitted he'd had ``three patients survive who were in 
Michael's situation'' but claimed ``Michael's ``quality of life is 
different from theirs.'' The others ``were walking and talking people. 
I don't mean to be frank or abrasive, but at this point, we are going 
to do what we feel is best for him along with the state, and this is 
what we decided.'' Michael, a father of 5, was denied food and water 
and he died a horrific death six days later, with none of his loved 
ones by his side.
    Kristen is a black woman and Michael was a black man.
    Advocates had to move quickly earlier in the declared disaster to 
prevent children and adults from rationing of their medical care and 
medical devices based simply on their disability and the perceived 
quality of life.
    ``The Center for Public Representation and others filed complaints 
alleging that crisis standard of care plans in two of the states 
currently being hardest hit by COVID-19, Arizona and Texas, 
discriminate against people with disabilities, older adults, and people 
of color, placing these communities at risk of substantial and imminent 
harm--and the real risk of being denied basic and emergency treatment--
during the pandemic.
    In response to the disability community's strong advocacy, the U.S. 
Department of Health and Human Services' Office of Civil Rights (HHS 
OCR) published a bulletin on March 28, 2020 to ensure that covered 
entities follow civil rights laws, including Section 1557 of the 
Affordable Care Act and Section 504 of the Rehabilitation Act which 
``prohibit discrimination on the basis of disability in HHS funded 
health programs or activities.'' The guidance explains that entities 
funded by HHS cannot deny people with disabilities medical care ``on 
the basis of stereotypes, assessments of quality of life, or judgments 
about a person's relative ``worth'' based on the presence or absence of 
disabilities.'' It is also discusses the obligations of hospitals to 
ensure equal access and effective communication.''
    In many states, efforts have been taken to provide immunity to all 
hospitals, nursing homes and other congregate facilities, protecting 
those facilities and their employees from any criminal or civil 
liability for their treatment decisions and actions. Families, 
disability advocates and advocates for older adults are outraged. One 
advocate in New York told the New York Times ``Having liability can 
cause a facility to be more diligent and prevent incidents occurring 
that will cost them money,'' said Susan M. Dooha, the executive 
director of the Center for Independence of the Disabled. ``The 
preventive power of liability has been muted.''
    Based on the findings of the report, Preserving Our Freedom: Ending 
Institutionalization of People with Disabilities During and After 
Disasters, NCD recommends that:
    <bullet>  The Department of Justice (DOJ), the Department of Health 
and Human Services (HHS), the Department of Homeland Security (DHS), 
and the Department of Housing and Urban Development (HUD) monitor and 
enforce the Americans with Disabilities Act (ADA) Olmstead integration 
mandate and the Rehabilitation Act obligation to use federal funds in 
such a way that people are served in the most integrated setting 
appropriate to their needs.
    <bullet>  All relevant federal agencies engage with national, 
state, and local coalitions of disability led organizations and 
stakeholders.
    <bullet>  DOJ assesses the equal access and non-discrimination 
civil rights compliance performance of the American Red Cross and other 
shelter and mass-care providers in relation to actions resulting in 
institutionalization of disaster survivors with disabilities.
    <bullet>  The Federal Emergency Management Agency (FEMA) explore 
ways to expeditiously modify its Individual Assistance registration 
process to curtail the incidence of institutionalization of individuals 
with disabilities.
    <bullet>  DHS/FEMA and HHS/Administration for Community Living 
(ACL) provide grant funds to support Independent Living Centers in 
supporting disaster-impacted people with disabilities in their 
community. (This funding should incorporate all five core services of 
Independent Living Centers, including their obligation to prevent and 
divert institutionalization of disaster-impacted people throughout 
disaster response and recovery.)
    <bullet>  Relevant federal agencies integrate disaster-related 
services for veterans with disabilities with all other emergency and 
disaster services in order to address the current gap in coordination.
    <bullet>  Legislation be introduced and swiftly enacted to address 
all gaps in meeting the civil rights obligations to people with 
disabilities impacted by disasters.

    Recommendations from the Emergency Relocation of Congregate Setting 
Residents letter to the National Governors Association:
    <bullet>  Relocate residents to safe, non-congregate, cohort 
settings that house no more than one person per room
    <bullet>  Identify residents who want to transition to Home & 
Community Based Services (HCBS)
    <bullet>  Require that institutions / long-term care facilities 
grant access to essential CIL staff and transition coordinators in 
order to implement these relocation plans
    <bullet>  Expedite HCBS eligibility determinations for those who 
want to remain in the community OR who refuse to return to an unsafe 
congregate setting
    <bullet>  Work with your Department of Commissioners, etc. to 
utilize alternative funds (such as FEMA Public Assistance Category B 
funds) to cover the costs of care, shelter and food during disaster 
relocations
    <bullet>  Immediately lift the restrictions on visitations. Data 
shows visits from family are critical to the well-being and quality of 
life of people housed in these congregate settings. Not allowing 
visitations is contributing to the increases in death

    And, the Partnership for inclusive Disaster Strategies led our 
COVID-19 Coalition to issue the following Legislative Recommendations 
for Public Health Emergencies and Disasters to meet the urgent and 
immediate needs of people with disabilities, including multiply-
marginalized people, throughout the COVID-19 Public Health Emergency, 
Presidential Disaster Declarations, concurrent disasters and in 
preparation for future disasters and public health emergencies:
    <bullet>  There must be the establishment and funding of one or 
more Disability, Emergency and Disaster Technical Assistance Centers 
led and managed by disability inclusive emergency management experts, 
operational within 30 days of enactment in order to meet the immediate 
lifesaving and life sustaining needs and protecting the rights of 61 
million adults with disabilities and for others who also have access 
and functional needs in a disaster or public health emergency. Purposes 
of the Disability, Emergency and Disaster Technical Assistance Centers:
      <bullet>  Operating a National Disability Disaster and COVID-19 
rights and needs Hotline
      <bullet>  Developing and delivering remote just-in-time training 
on the COVID-19 rights and needs of people with disabilities, with a 
specific focus on:
        <bullet>  The rights and immediate needs of people with 
disabilities who need supports and services to protect themselves from 
exposure.
        <bullet>  People with disabilities who are in quarantine.
        <bullet>  People with disabilities who are in isolation or in 
an acute care medical setting.
        <bullet>  Information for medical, public health, and public 
safety officials, government and non-government, and private sector 
entities to understand their obligations to people with disabilities, 
before, during and after public health emergencies and disasters.
        <bullet>  Meeting continuity of operations and continuity of 
services for serving people with disabilities across the lifecycle and 
throughout the disaster cycle.
        <bullet>  Public engagement, coordination between all public 
and NGO stakeholders to provide accessible information, promising and 
good practices, and problem-solving via disability accessible 
teleconference and web-based information sharing.
        <bullet>  Crisis counseling and Disaster Case Management for 
people with disabilities, eligible as a result of Federal Disaster 
Declarations. Crisis counseling and Disaster Case Management must be 
provided by disability culturally competent providers, and must be 
equally effective for all people with communication disabilities. 
Crisis Counseling and Disaster Case Management must be provided without 
interruption and gaps. Auxiliary aids and services to make 
communication equally effective include sign language interpreters, 
real-time captions, CART, plain language, easy read, Braille, large 
print, screen reader and other alternative formats. Alternative and 
augmentative communication is used by many people with disabilities to 
meet their daily communication needs. For people with COVID-19 whose 
ability to communicate may be temporarily affected, equal access to 
crisis counseling can be provided by utilizing auxiliary aids and 
services to meet their urgent crisis communication needs.
    <bullet>  Amendment to Stafford Act--Use of Disaster Response and 
Recovery Funds
    <bullet>  Fund certain ``nonprofit entities'' in Category B 
language--amended to define funding for a training & technical 
assistance center.
    <bullet>  Funding for disability-led organizations providing life 
saving and life sustaining assistance in a federally declared, Stafford 
Act eligible disaster or emergency.
    <bullet>  Fund state, local, tribal and territorial government 
entities to track the displacement of people with disabilities into 
skilled nursing facilities (SNF) and other institutions with or without 
the use of a CMS 1135 Blanket Waiver.
    <bullet>  Require and fund federal, state, local, tribal, and 
territorial government entities to ensure disability services and 
supports are provided in the most integrated settings appropriate to 
the person.
    <bullet>  If the person is in an acute care setting, all reasonable 
accessibility accommodations and modifications of policies and 
practices are provided without interruption.
    <bullet>  To maintain all reasonable accessibility accommodations 
and modifications of policies and practices are provided without 
interruption at home and throughout transition home from an acute care 
or institutional setting.
    <bullet>  Increase Home and Community Based Services (HCBS) funding
    <bullet>  Expand funding for Money Follows the Person (MFP)
    <bullet>  Fund federal entities to monitor recipients and 
subrecipients of federal funds to ensure compliance throughout all 
disaster-related placement decisions by recipients and subrecipients of 
federal financial funds within 30 days, and with quarterly reports to 
Congress.

    Additional recommendations for legislative action are all drawn 
from the 5/24/19 report from the National Council on Disability report 
to President Trump: Preserving Our Freedom: Ending Institutionalization 
of People with Disabilities During and After Disasters
    <bullet>  Require CMS to establish a process for Medicaid 
portability and continuity of services within states and among states, 
tribes and territories during disasters and public health emergencies 
to ensure uninterrupted health maintenance and medical care in the 
least restrictive environment for Medicaid recipients.
    <bullet>  Require that all recipients and subrecipients of federal 
funds receive just-in-time training in the scope of their obligations 
to people with disabilities. This training must be developed and 
delivered by disability led organizations with knowledge, skills and 
abilities. This training must include information advising that federal 
funds may be revoked due to noncompliance with the obligation to 
receive services in the most integrated setting appropriate and that 
this obligation applies during disasters.
    <bullet>  Training on the scope of the obligations of recipients 
and subrecipients of federal financial assistance to people with 
disabilities during the period of hospitalization and discharge for 
individuals impacted by public health emergencies and disasters, 
including those who have been abandoned during evacuation, sheltering, 
and transition to long-term housing.
    <bullet>  Funding will be provided to disability-led organizations 
to deliver technical assistance to local, state, tribal, territorial 
and federal agencies responsible for emergency preparedness, community 
resilience, and disaster-related services, programs, supports, or 
activities to engage with national, state, and local coalitions of 
disability-led organizations and stakeholders.
    <bullet>  Fund NCD to lead a review of the National Response 
Framework, Emergency Support Function Annexes, and Federal Interagency 
Operations Plans and all other applicable federal doctrine to determine 
any required updates to specifically address responsibility for meeting 
the equal access, health maintenance, safety, and independence needs of 
children and adults with disabilities to prevent institutionalization.
    <bullet>  Fund an organization with expertise in IDEA, ADA, Rehab 
Act and Stafford Act to assess and make recommendations that disaster-
impacted students with disabilities are not excluded from distance 
learning and returning to school with their peers and that all supports 
and services included on their IEP or Section 504 plan are provided 
without interruption. This includes providing services during school 
closure and upon school reopening in order to meet their individualized 
educational needs and to prevent institutionalization.
    <bullet>  Fund a comprehensive assessment of with recommendations 
for the establishment and execution of a seamless and integrated 
process in Emergency Support Functions #6 and #8 to prioritize health 
maintenance for children and adults with disabilities and seamlessly 
deliver services and supports to people in the most integrated setting 
throughout the evacuation, sheltering, hospitalization, temporary 
housing, and disaster recovery. Recommendations must include actionable 
steps for the HHS Secretary's Operations Center and the FEMA Emergency 
Support Function Leadership Group to ensure the rights and needs of 
people with disabilities are maintained throughout the period of a 
declared public health emergency and disaster.
    <bullet>  Establish a roster of federal agencies who must provide 
senior leadership participation and active engagement in a community 
led public private partnership with disability organizations with 
specific expertise and involvement in national disability inclusive 
emergency management policy and practice.
    <bullet>  Authorize and appropriate funds for DHS and FEMA to 
provide disaster preparedness grants specifically targeted to 
organizations led by and serving marginalized communities, including 
but not limited to people with disabilities experiencing poverty; 
people with disabilities experiencing homelessness; women with 
disabilities; people of color with disabilities; and members of the 
LGBTQ community with disabilities.
    <bullet>  Provide funding and quarterly reporting by DOJ, DHS and 
HHS to monitor and enforce the obligation under both the ADA and the 
Rehabilitation Act to serve people with disabilities in the most 
integrated setting appropriate to their needs.
    <bullet>  Fund the FCC to reestablish its Emergency Access Advisory 
Committee to establish effective communication access requirements for 
alerts, warnings and notification, including provision of American Sign 
Language and other existing and new assistive technology. These 
guidelines should be developed in consultation and collaboration with 
DOJ, applying the requirements for equal effective communication 
access. Implementation should include monitoring and enforcement by the 
FCC and DOJ.
    <bullet>  Fund immediate operations and research into solutions for 
existing disability service providers (such as independent living 
centers, paratransit service providers, meals on wheels, medical supply 
providers, developmental disability service providers, personal 
assistants, direct support professionals, birth to 3, ADRCs, AAA, sign 
language interpreters, peer support, respite, etc to jointly plan for, 
share information and meet the emergency and disaster needs of the 
people one or more of them maintain in their database.
    <bullet>  Fund research on HIPAA and Privacy Act laws to determine 
if and how they need to be revised to allow providers to share 
information and resources in emergencies and disasters. This is an 
alternative to the use of ``special'' registries that repeatedly fail 
to provide a solution for meeting the civil rights obligations the 
government has to people with disabilities in emergencies and 
disasters.
    <bullet>  Fund NCD to review the Federal Mass Evacuation Plan, DRRA 
and PKEMRA evacuation planning requirements, and any other plans that 
use federal funding for evacuation be reviewed by the Department of 
Justice, Department of Transportation, Department of Homeland Security, 
and other federal agencies with a role in planning, implementing and/or 
funding evacuation initiatives to ensure compliance with disability 
civil rights obligations throughout disaster response and implement all 
necessary corrective action immediately.
    <bullet>  Fund HHS CMS to develop and implement within 30 days, a 
comprehensive federal database in collaboration with all other federal 
entities with admission and monitoring or funding and reimbursement 
obligations to ensure that all admissions to hospitals and long-term 
care facilities during and after disasters are monitored at every 
admission and discharge and that people placed are provided with the 
assistance needed to return to their community with all supports and 
services they need to regain and maintain their independence. Reporting 
to congress must begin NLT 60 days and must continue quarterly until 
all admissions from the start of a declared emergency (including public 
health emergency) and disaster have returned home (or died).
    <bullet>  Fund DOJ and other federal entities with enforcement 
authority to monitor and prohibit the automatic placement of 
individuals with disabilities in hospital and nursing home settings and 
direct state and local entities to immediately provide supports and 
services in the most integrated setting appropriate to any person who 
does not need this level of care. Monitor and enforce civil rights 
compliance with Titles II and III of the ADA regarding sheltering.
    <bullet>  Fund DOJ, DHS, and HUD to monitor and enforce compliance 
with obligations for emergency sheltering in a disaster consistent with 
emergency sheltering requirements under the Fair Housing Amendments 
Act. Compliance should occur in transient and long-term emergency 
shelters.
    <bullet>  Congress funds all elements of the REAADI and DRMA Acts 
not otherwise specified in these recommendations to ensure that the 
rights of people with disabilities are protected and that the needs of 
people with disabilities and older adults are met in concurrent and 
future disasters.
    <bullet>  This includes:
      <bullet>  Establish a National Research Center to conduct 
research and collect and analyze data to determine recommended 
practices for including people with disabilities and older adults in 
planning during and following disasters. Establish a ``projects of 
national significance'' program to increase the involvement of people 
with disabilities and older adults in the planning and response to 
disasters.
      <bullet>  Establish a National Commission on Disability Rights, 
Aging and Disasters that will provide recommendations on how to ensure 
effective emergency preparedness, disaster response, recovery, and 
community resilience efforts for people with disabilities and older 
adults.
      <bullet>  Establish one national and 10 regional Training and 
Technical Assistance Disability and Disaster Centers that provide 
comprehensive training, technical assistance, development of funding 
sources, and support to state, tribal, and local disaster relief; 
public health entities; social service agencies; and stakeholder 
groups.
      <bullet>  Require and fund DOJ to create an oversight committee 
that will review all ADA settlement continued agreements related to 
disaster-response activities for the years 2005 to 2017.
      <bullet>  Medicaid Relief for Disaster Survivors
      <bullet>  Amending the Social Security Act to provide medical 
assistance available to relief-eligible survivors of disasters during 
relief coverage periods in accordance with section 1947.
      <bullet>  Disaster Relief Medicaid for Survivors of Major 
Disasters.
      <bullet>  Promoting Effective and Innovative State Responses to 
Increased Demand for Medical Assistance Following a Disaster.
      <bullet>  HCBS Emergency Response Corps Grant Program.
      <bullet>  Targeted Medicaid Relief for Direct Impact Areas.
      <bullet>  Presumptive and Continuous Eligibility, No 
Documentation Required.
        <bullet>  Fund DOJ to provide pointed guidance to sister 
federal agencies to address the issue of outdated regulations that 
conflict with the Olmstead integration mandate.
        <bullet>  Fund the University of Minnesota Institute on 
Community Integration University Center on Excellence in Disabilities 
Residential Information Systems Project (RISP) to expand their research 
on institutionalization during and after disasters in all states and 
territories to include people with all types of disabilities.
        <bullet>  Fund DOJ to assess the equal access and non-
discrimination civil rights compliance performance of the American Red 
Cross and other shelter and mass care providers in relation to actions 
resulting in institutionalization of disaster survivors and issue 
orders for immediate corrective actions as needed.
        <bullet>  Fund DOJ to issue a fact sheet that defines 
monitoring and enforcement obligations in order to ensure compliance 
with civil rights requirements in the placement, as well as to track 
and use of federal funds associated with emergency and disaster 
sheltering of people with disabilities.
        <bullet>  Fund Independent Living Centers and other affordable 
and accessible housing experts to provide individual and household 
disaster case management focused on the transition and permanent 
housing needs of disaster-impacted people with disabilities.
        <bullet>  Fund Independent Living Centers and other experts on 
affordable and accessible housing to provide individual and household 
disaster case management focused on the transition and permanent 
housing needs of disaster-impacted people with disabilities during 
concurrent and future disasters.
        <bullet>  Fund HUD to establish metrics and measure the 
nationwide availability of the ready supply of accessible, adaptable, 
affordable, and disaster-resistant permanent and temporary housing.
        <bullet>  Fund FEMA and HUD to create systems for collecting 
and publishing all disaster recovery and mitigation expenditures for 
housing that is subject to compliance with requirements under the 
Rehabilitation Act, Fair Housing Amendments Act, and the ADA. This 
reporting systems must measure and report compliance with accessibility 
standards.
        <bullet>  Fund DOJ to monitor and enforce civil rights 
compliance throughout all phases of disaster response to: a. Prevent 
abandonment on the part of government entities, such as National Guard 
and other recipients and subrecipients of federal financial assistance. 
b. Ensure compliance throughout all disaster related placement 
decisions made by recipients and subrecipients of federal financial 
assistance. c. Ensure compliance with Titles II and III of the ADA 
pertaining to sheltering.
        <bullet>  Fund FEMA to explore ways to modify their Individual 
Assistance registration process expeditiously to curtail the incidence 
of institutionalization of individuals with disabilities during 
concurrent and future disasters.
        <bullet>  Fund the DHS Office for Civil Rights and Civil 
Liberties to lead and manage the 25-plus federal agencies included in 
Executive Order 13347, which established the Interagency Coordinating 
Council on Emergency Preparedness and Individuals with Disabilities 
(ICC), to collaborate to ensure moving forward that emergency 
preparedness plans incorporate the perspectives and needs of 
individuals with disabilities, and that barriers to access, services, 
and planning are removed.
        <bullet>  Fund member agencies of the ICC to place disability 
experts from their agency into the field during federally declared 
disasters in all FEMA Joint Field Offices and Area Field Offices 
throughout disaster operations. These experts must be qualified by 
either the FEMA Qualification System or the National Qualification 
System to ensure adequate expertise in guiding compliance with the 
civil rights of disaster-impacted people with disabilities to prevent 
institutionalization during concurrent and future disasters.
        <bullet>  Fund HHS to establish a process for states and 
territories to immediately loan and replace durable medical equipment, 
consumable medical supplies, assistive technology, and disability 
services and supports, well as disaster case management to disaster 
survivors with disabilities, in order to provide equal access and non-
discrimination throughout emergency response to meet immediate health, 
safety, and independence needs.
        <bullet>  Fund the Veterans Administration and HHS to ensure 
disaster-related services for veterans are integrated with all other 
emergency and disaster services to address the current gap in 
coordination between services for veterans with disabilities and 
services for other people with disabilities.
        <bullet>  Fund the immediate provision of experts on reasonable 
accommodations for every disaster applicant until such time as 
applicants with disabilities can request and receive these reasonable 
accommodations through the FEMA application.
                               In Closing
    One of my favorite sayings is associated with the Chinese symbols 
for Crisis, Danger and Opportunity. ``Crisis is an opportunity riding 
on a dangerous wind.''
    In these very troubled times, we all face three choices. Do we go 
back to what wasn't working before? Do we stay stuck right where we are 
until the next catastrophic event forces us to scramble again, or do we 
use this unprecedented opportunity to boldly move forward on the 
dangerous wind that is blowing, all of us, to create and sustain a 
resilient country that prioritizes the resilience of the people who 
will once again be disproportionately impacted if we don't act. I 
choose the bold commitment to resilience for all and I ask you to join 
me in turning words into action.
    Thank you for listening.

    Ms. Titus. Well, thank you. Perhaps we can get to some of 
those examples in the questions. We appreciate your testimony 
very much.
    Ms. Yentel?
    Ms. Yentel. Yes, Chair Titus and Ranking Member Katko and 
members of the subcommittee, thank you for the opportunity to 
testify before you today. The National Low Income Housing 
Coalition has worked on disaster housing recovery for 15 years 
since Hurricane Katrina, and from this experience we have 
reached a simple conclusion: America's disaster housing 
recovery system is fundamentally broken.
    It certainly exacerbates the housing crisis, solidifies 
segregation and racial inequities, and deepens inequality. When 
disasters strike, the lowest income and most marginalized 
people are often hardest hit. They have the fewest resources, 
and face the longest, steepest path to recovery. Yet these are 
the households that are least likely to receive FEMA 
assistance.
    FEMA prioritizes protocol over outcomes, relies on programs 
that are inefficient or unhelpful to low-income people, creates 
unnecessary and arbitrary deadlines, and refuses to release 
data on program requirements or outcomes.
    FEMA has consistently failed to learn lessons from past 
disasters, and to apply them to future efforts. A clear example 
is FEMA's refusal to update the Disaster Housing Assistance 
Program, or DHAP, which Republican and Democratic 
administrations have upheld as a best practice to help families 
find permanent housing solutions. Instead, FEMA relies on 
programs that low-income and marginalized families struggle to 
access and use. As a result, homelessness often increases in 
communities impacted by disasters.
    After Hurricane Maria, FEMA implemented arbitrary deadlines 
that required Puerto Ricans that evacuated the island to leave 
FEMA-funded hotels before they had alternate housing. As a 
result, homelessness increased in communities with Puerto Rican 
evacuees by 14 percent in Massachusetts, and 17 percent in 
Connecticut. After Hurricane Harvey, homelessness increased in 
Houston by 18 percent. Nearly 20 percent of people experiencing 
homelessness in the city reported that they had become homeless 
as a result of the disaster, a stunning indictment of the 
failed disaster response.
    FEMA-funded programs exacerbate racial inequities. After 
Hurricane Harvey, nearly half of disaster survivors with the 
lowest incomes, mostly people of color, were denied FEMA 
assistance. The vast majority of higher income or mostly white 
households were approved. The average white family in the 
higher income neighborhoods received about $60,000 per person. 
Black families in poorer neighborhoods received an average of 
$84 per person.
    FEMA frequently denies assistance to eligible survivors 
because of inflexible requirements. For example, title 
documentation rules bar low-income homeowners, residents of 
manufactured housing, and renters without written leases from 
receiving the assistance for which they are eligible. After 
Hurricane Maria, FEMA denied assistance to at least 77,000 
people because of otherwise accepted informal systems for 
documenting homeownership.
    Rural, historically black, or immigrant communities also 
implement informal systems of home ownership. After Hurricane 
Michael, FEMA denied assistance to as many as 50 percent of 
applicants in certain parts of the panhandle due to title 
issues. After California's wildfires, FEMA denied assistance to 
70 percent of applicants due to title issues. In all cases, 
FEMA refused to modify its programs to accommodate applicants 
and needs.
    FEMA has known this issue is a problem since 1995, and has 
done little to remedy it. FEMA has a systemic lack of 
transparency. The agency refuses to make information public 
about its application and appeals processes, which leads to 
higher and often shocking levels of denial rates for low-income 
people.
    People experiencing homelessness are often most at risk 
during a disaster, and have the fewest resources to recover, 
but they are denied FEMA assistance, even if all their 
belongings were destroyed by a disaster. These are just some 
examples of our country's broken disaster recovery system, and 
the ways in which it neglects the people most in need of 
assistance, and my written testimony has many more examples and 
evidence.
    Congress should rebuild a disaster housing recovery system 
that is centered on the needs of the lowest income people. 
Racial equity and equity for all marginalized and impacted 
people should be a central and explicit goal of Federal 
disaster policy. There must be opportunities for public 
engagements, systemic transparency, full accountability, due 
process, robust civil rights enforcement, fair mitigation 
practices, and a focus on increased local capacity and 
benefits. These priorities must be reflected in every stage of 
disaster recovery and response. This work will take many years, 
but Congress can take action immediately.
    Congress should permanently authorize the DHAP program, and 
activate it after every major disaster. Congress should require 
FEMA to activate it now for those people experiencing 
homelessness that have been moved to hotels to contain the 
spread of COVID-19.
    Congress should enact the Housing Survivors of Major 
Disasters Act, which passed unanimously out of this committee, 
and would help overcome documentation issues, and Congress 
should require that FEMA provide basic, essential information 
about its response and recovery efforts, including full 
transparency on program eligibility, the application process, 
reasons for denial of assistance and outcomes.
    Decades of evidence makes clear that our country's disaster 
housing system is fundamentally broken. Congress must develop a 
new system that centers the housing needs of the lowest income 
survivors, including people of color, people with disabilities, 
and others. Thank you again for the opportunity to testify and 
for holding this important hearing. I look forward to your 
questions.
    [Ms. Yentel's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Diane Yentel, President and Chief Executive 
             Officer, National Low Income Housing Coalition
    Committee Chair DeFazio and Ranking Member Graves, Subcommittee 
Chair Titus and Ranking Member Katko, and members of the subcommittee, 
thank you for the opportunity to testify before you today on ways to 
ensure that our nation's disaster housing recovery and response efforts 
address the unique and often overlooked needs of low-income people, 
people of color, people with disabilities, people experiencing 
homelessness and other marginalized people.
    The National Low Income Housing Coalition (NLIHC) is dedicated 
solely to achieving socially just public policy that ensures people 
with the lowest incomes in the United States have affordable and decent 
homes. NLIHC leads the Disaster Housing Recovery Coalition of more than 
850 national, state, and local organizations, including many working 
directly with disaster-impacted communities and with first-hand 
experience recovering after disasters. We work to ensure that federal 
disaster recovery efforts prioritize the housing needs of the lowest-
income and most marginalized people in impacted areas.
    NLIHC has worked on disaster housing recovery since Hurricane 
Katrina, and from this experience, we have come to a simple conclusion: 
America's disaster housing recovery system is fundamentally broken and 
in need of major repair and reform. It is a system that was designed 
for middle-class people and communities--a system that never 
contemplated, and so does not address, the unique needs of the lowest-
income and most marginalized people. Because of this fundamental design 
flaw, these families are consistently left behind in recovery and 
rebuilding in disaster after disaster. The disaster recovery system not 
only ignores the needs of the lowest-income people, but it exacerbates 
many of the challenges they faced prior to the storm; disaster response 
and recovery often worsens the housing crisis, solidifies segregation, 
and deepens inequality.
    When disasters strike, the lowest-income and most marginalized 
survivors are often hardest hit. They have the fewest resources and 
face the longest, steepest path to recovery. Despite the clear need, 
federal efforts frequently leave these survivors without the assistance 
needed to recover and leave their communities less resilient to future 
disasters. Without this critical assistance, many of the lowest-income 
and most marginalized survivors return to uninhabitable homes, sleep in 
cars or at shelters, double- or triple-up with other low-income 
families, or pay more than half of their limited incomes on rent, 
putting them at increased risk of displacement, eviction, and, in worst 
cases, homelessness.
    The national coronavirus pandemic underscores the deep inequities 
embedded in our nation's disaster housing response and recovery system 
and the urgent need for reform. Black and Native people--who, even 
before the pandemic, faced higher rates of homelessness and housing 
instability due to decades of systemic racism in housing and other 
systems--are most at risk of severe illness and death due to the 
coronavirus, and Black and Latino people are disproportionately harmed 
by the resulting economic impacts. Now their homes--and with it their 
ability to keep themselves and their families safe--are at risk. 
Without significant and immediate federal action, there will be a wave 
of evictions and a spike in homelessness in the coming months and, once 
again, Black and brown people will be most harmed.
    In my testimony today, I will discuss key barriers to an equitable 
and comprehensive disaster housing recovery and opportunities to reform 
our country's disaster framework. These barriers and opportunities are 
reflected in ``Fixing America's Broken Disaster Housing Recovery 
System,'' a two-part report published by NLIHC and Fair Share Housing 
Center of New Jersey.
    These policy recommendations reflect nine core principles that 
should guide our country's disaster housing response and recovery:
    1.  Recovery must be centered on survivors with the greatest needs 
and ensure equity among survivors, especially for people of color, low-
income people, people with disabilities, immigrants, LGBTQ people, and 
other marginalized people and communities;
    2.  Everyone should be fairly assisted to fully and promptly 
recover through transparent and accountable programs and strict 
compliance with civil rights laws, with survivors directing the way 
assistance is provided;
    3.  Securing help from government must be accessible, 
understandable, and timely;
    4.  Everyone in need should receive safe, accessible shelter and 
temporary housing where they can reconnect with family and community;
    5.  Displaced people should have access to all the resources they 
need for as long as they need to safely and quickly recover housing, 
personal property and transportation;
    6.  Renters and anyone experiencing homelessness before the 
disaster must quickly get quality, affordable, accessible rental 
property in safe, quality neighborhoods of their choice;
    7.  All homeowners should be able to quickly rebuild in safe, 
quality neighborhoods of their choice;
    8.  All neighborhoods should be free from environmental hazards, 
have equal quality and accessible public infrastructure, and be safe 
and resilient; and
    9.  Disaster rebuilding should result in local jobs and contracts 
for local businesses and workers.

    These core principles and the following policy recommendations 
should serve as a guidepost for this committee and other federal 
policymakers as you work to reform our nation's disaster housing 
recovery framework.
               Barriers to an Equitable Housing Recovery
    After a disaster, displaced families must have a safe, accessible, 
and affordable place to live while they recover. FEMA programs can 
provide crucial assistance to help survivors recover from a disaster by 
providing temporary shelter and financial assistance and making basic 
structural repairs to homes. However, FEMA created unnecessary and 
often insurmountable barriers to accessing these programs, leaving many 
low-income survivors at increased risk of displacement, eviction, and, 
in worst cases, homelessness.
    FEMA programs are not designed to serve lower-income people with 
the greatest needs; these households are consistently denied 
assistance. For example, nearly half of disaster survivors with the 
lowest incomes were denied FEMA Individual Assistance after Hurricane 
Harvey. The vast majority of higher-income households were approved \1\ 
(see Figure 1).
---------------------------------------------------------------------------
    \1\ Adams, A. 2018. Low-income Households Disproportionately Denied 
by FEMA Is a Sign of a System that is Failing the Most Vulnerable. 
Retrieved from https://texashousers.org/2018/11/30/low-income-
households-disproportionately-denied-by-fema-is-a-sign-of-a-system-
that-is-failing-the-most-vulnerable/
---------------------------------------------------------------------------
Figure 1
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                FEMA's Failure to Address Housing Needs
    Despite the clear need, FEMA housing programs neglect the housing 
needs of America's lowest-income disaster survivors and exacerbate 
housing insecurity. Without the affordable and accessible homes 
survivors need, many return to uninhabitable homes, sleep in cars or 
tents, stay at shelters, double- or triple-up with other low-income 
families, or pay more than half of their limited incomes on rent, 
putting them at increased risk of eviction and, in worst cases, 
homelessness.
    Research from NLIHC demonstrates that disasters exacerbate the 
existing rental housing crisis for households with the lowest 
incomes.\2\ After Hurricane Sandy, households already dealing with 
housing instability were further destabilized through displacement and 
increased rents. Two years after Sandy, few new affordable homes had 
been completed yet survivors were no longer eligible for federal rental 
assistance.\3\
---------------------------------------------------------------------------
    \2\ National Low Income Housing Coalition. 2019. Long-term Recovery 
of Rental Housing: A Case Study of Highly Impacted Communities in New 
Jersey after Superstorm Sandy. Retrieved from https://nlihc.org/sites/
default/files/Sandy-Rental-Recovery-Report.pdf
    \3\ Fair Share Housing Center, Latino Action Network & NAACP New 
Jersey State Conference. 2015. The State of Sandy Recovery (Second 
Annual Report). Retrieved from http://fairsharehousing.org/images/
uploads/State_of_Sandy_English_2015.pdf
---------------------------------------------------------------------------
    The impact of disasters on low-income people's housing needs is 
made worse by FEMA's continued refusal to activate the Disaster Housing 
Assistance Program (DHAP), rendering some survivors homeless.\4\ During 
past disasters, both Republican \5\ and Democratic \6\ \7\ 
administrations upheld DHAP as a best practice for disaster housing 
recovery. DHAP was created after hard-won lessons from Hurricane 
Katrina, and it has been used successfully in some major disasters 
since that time. Under DHAP, displaced families receive longer-term 
direct rental assistance and case management services provided by local 
housing professionals with extensive knowledge of the local housing 
market. This assistance helps families find permanent housing 
solutions, secure employment, and connect to public benefits as they 
rebuild their lives.\8\
---------------------------------------------------------------------------
    \4\ National Low Income Housing Coalition. 2018. Setting the Record 
Straight: FEMA's Failure to Address Long-Term Housing Needs of 
Survivors. Retrieved from https://nlihc.org/sites/default/files/
FEMA_Setting-The-Record-FEMA-TSA.PDF
    \5\ Homeland Security and Counterterrorism. 2006. The Federal 
Response to Hurricane Katrina: Lessons Learned. Retrieved from https://
permanent.access.gpo.gov/lps67263/katrina-lessons-learned.pdf
    \6\ Federal Emergency Management Agency. 2009. National Disaster 
Housing Strategy. Retrieved from https://www.fema.gov/media-library-
data/20130726-1819-25045-9288/ndhs_core.pdf
    \7\ Federal Emergency Management Agency. 2011. National Disaster 
Recovery Framework: Strengthening Disaster Recovery for the Nation. 
Retrieved from https://www.fema.gov/pdf/recoveryframework/ndrf.pdf
    \8\ National Low Income Housing Coalition. 2017. Disaster Housing 
Assistance Program. Retrieved from https://nlihc.org/sites/default/
files/DAHP-Program.pdf
---------------------------------------------------------------------------
    After recent disasters, FEMA has refused to activate the DHAP 
program and instead relied on its Temporary Shelter Assistance (TSA) 
program and other programs that are inaccessible to many low-income 
survivors. TSA is intended to reduce the number of survivors in 
congregate shelters by covering the cost of staying in an approved 
hotel or motel for an initial period of up to 14 days. Once again, this 
is a program better suited to middle-class households than to low-
income people.
    Low-income families are often unable to access TSA motels due to 
financial and other barriers, including the practice of motels charging 
daily ``resort'' fees and requiring security deposits or credit cards. 
Because TSA must be renewed every 14 days, those disaster survivors who 
are able to access the program face arbitrary deadlines that cause them 
to scramble to submit required paperwork or leave the motel before 
finding a permanent housing solution. While FEMA is authorized to 
provide TSA for at least 18 months, the Trump administration abruptly 
terminated \9\ the program for nearly 2,000 Puerto Rican families 
displaced to the mainland after Hurricane Maria, forcing them to find 
alternative housing or to return to their uninhabitable homes on the 
island with just a few hours' notice. Without DHAP, states that 
received large numbers of displaced Puerto Rican survivors--including 
Massachusetts and Connecticut--saw increased homelessness by 14 percent 
and 17 percent respectively.\10\ \11\
---------------------------------------------------------------------------
    \9\ National Low Income Housing Coalition. 2018. NLIHC's Response 
to Court Ruling Allowing FEMA to Move Forward on Evicting Hurricane 
Maria Survivors. Retrieved from https://nlihc.org/news/nlihcs-response-
court-ruling-allowing-fema-move-forward-evicting-hurricane-maria-
survivors
    \10\ Martin, T. 2019. After a Long Road, Hurricane Maria Evacuees 
Settle in Massachusetts. Retrieved from https://www.wgbh.org/news/
local-news/2019/01/23/after-a-long-road-hurricane-maria-evacuees-
settle-in-massachusetts
    \11\ Skahill, P. 2018. Hurricane Maria Drives Up Connecticut's 
Homelessness Numbers. Retrieved from https://www.wnpr.org/post/
hurricane-maria-drives-connecticuts-homelessness-numbers
---------------------------------------------------------------------------
    FEMA's other temporary housing assistance programs--Rental 
Assistance and Direct Temporary Housing Assistance--are also 
problematic for low-income families. Through its Rental Assistance 
program, FEMA provides financial assistance to survivors to rent 
temporary housing. The amount of assistance provided to survivors is 
based on the impacted area's Fair Market Rent (FMR), which is often 
considerably less than rental costs in the area to which survivors have 
been displaced. Moreover, FEMA rental assistance covers rent and 
utilities for only two months, which is too short a timeframe for many 
of the lowest-income survivors. Many landlords are unwilling to enter 
into leases with survivors when only two months of rental assistance is 
assured.
    Under FEMA's Direct Lease program, FEMA enters into lease 
agreements with property owners to provide rent assistance for 
survivors. A similar program, the Multi-Family Lease and Repair 
program, allows FEMA to enter into lease agreements with multifamily 
housing property owners and to make repairs to provide temporary 
housing. Both programs, however, have extremely low rates of 
participation by property owners and are inadequate to meet post-
disaster rental needs.
    After Hurricane Harvey, FEMA piloted a program where states take on 
the responsibility of implementing and managing temporary housing 
programs. These state-run disaster housing programs face significant 
delays and do not address the full scale of housing needs because FEMA 
continues to retain control over eligibility and the program-assignment 
process. According to FEMA, only a few hundred families were served 
under state-administered housing programs following Hurricanes Harvey 
and Irma, despite damage to or destruction of more than 307,000 homes 
in Texas \12\ and 27,649 homes in the Florida Keys alone.\13\ Other 
state-administered programs like Multifamily Lease and Repair were 
wholly unsuccessful because property owners declined to participate.
---------------------------------------------------------------------------
    \12\ CBS News. 2019. We're Still Here: Volunteers Rebuilding Homes 
2 Years After Hurricane Harvey. Retrieved from https://www.cbsnews.com/
news/hurricane-harvey-houston-meet-the-volunteers-rebuilding-homes-all-
hands-hearts-2019-08-24/
    \13\ Monroe County, Florida Government. 2017. Approximate Damage 
Assessment Results. Retrieved from http://www.monroecounty-fl.gov/
DocumentCenter/View/12459/Approximate-Damage-Assessment-Results?bidId=
---------------------------------------------------------------------------
    Due to the lack of housing assistance, one year after Hurricane 
Harvey nearly 20% of individuals experiencing homelessness in Houston 
reported that they became homeless as a result of the disaster.\14\ 
Without DHAP, homelessness increased in Houston by 18%.\15\ This is a 
colossal failure of the federal government's disaster recovery efforts.
---------------------------------------------------------------------------
    \14\ Vigh, E. 2019. Hurricane Harvey Caused Homelessness Lingers in 
Harris County 2 Years Later. Community Impact. Retrieved from https://
bit.ly/3hEvKHW
    \15\ Ward, A. 2018. Homeless after Harvey: For Some, the Historic 
Flooding in Houston Washed Away Shelter and Security. Retrieved from 
https://www.houstonchronicle.com/news/houston-weather/hurricaneharvey/
article/Homeless-after-Harvey-For-some-the-historic-13171309.php
---------------------------------------------------------------------------
    During the current COVID-19 pandemic, FEMA should have activated 
DHAP to provide housing and shelter for people experiencing 
homelessness. DHAP could have been used to quickly move people out of 
congregate shelters or encampments and into affordable homes, where 
they can more easily keep themselves and their neighbors healthy. 
Instead, FEMA has worked with some states and localities under its 
Public Assistance program to place a very limited number of people 
experiencing homelessness into temporary motels for self-quarantine and 
self-isolation.
    Before Public Assistance funding for these motels end, FEMA should 
activate DHAP to help transition these individuals into permanent 
housing, rather than allowing individuals to be pushed back into 
homelessness as is already beginning to happen. For example, after 
funding for a hotel voucher program in Fort Lauderdale, Florida ran out 
on July 17, over 70 people experiencing homelessness who had been 
temporarily residing at a Rodeway Inn & Suites were forced to leave, 
even if they did not have a permanent housing plan.\16\
---------------------------------------------------------------------------
    \16\ Kelley, E. 2020. Fort Lauderdale Ending Program to House 
Homeless in Hotels This Weekend. Retrieved from https://www.sun-
sentinel.com/coronavirus/fl-ne-fort-lauderdale-evicts-homeless-
20200717-h5vjhwlndnf6batks4rgegk3va-story.html
---------------------------------------------------------------------------
          FEMA Neglects the Needs of Marginalized Populations
People Experiencing Homelessness
    People experiencing homelessness are often most at risk during a 
disaster and have the fewest resources to recover. People experiencing 
homelessness are unlikely to have the resources needed to adequately 
prepare for or evacuate prior to a disaster, and their unique needs are 
often overlooked by emergency managers when planning for disasters. 
During the recovery, homelessness resources are stretched thin to 
accommodate those households that became housing insecure as a result 
of the disaster and resources for pre-disaster homeless populations are 
deprioritized. Communities are often unable to return to the level of 
care provided to people experiencing homelessness before the disaster.
    Despite the clear need, people experiencing homelessness are often 
excluded from or face additional barriers to FEMA resources, including 
mass shelters and individual assistance. Following Hurricane Irma, 
there were reports of FEMA requiring people experiencing homelessness 
to wear armbands and be separated from other disaster survivors.\17\ 
Pre-disaster homeless populations are often denied FEMA assistance, 
even if all their belongings were destroyed in the disaster.\18\ These 
actions further stigmatize people experiencing homelessness and often 
prevent them from accessing the resources they need to stay safe.
---------------------------------------------------------------------------
    \17\ Dearen, J., & Kennedy, K. 2017. Yellow Wristbands, Segregation 
for Florida Homeless in Irma. Retrieved from https://www.usnews.com/
news/us/articles/2017-09-29/yellow-wristbands-segregation-for-florida-
homeless-in-irma
    \18\ Ehrlich, A. 2019. After Wildfires, Homeless People Left Out of 
Federal Disaster Aid Programs, Oregon Public Broadcasting. Retrieved 
from https://www.opb.org/news/article/fema-disaster-aid-wildfires-
homeless-people/
---------------------------------------------------------------------------
    During the current COVID-19 pandemic, people experiencing 
homelessness are particularly at risk of severe illness and death from 
coronavirus, yet many of these individuals have been unable to access 
the assistance they need to self-isolate and self-quarantine.
    Narrow eligibility criteria for FEMA reimbursement, however, have 
created significant barriers to moving people experiencing homelessness 
to safety in hotels and motels. In San Francisco, for example, people 
experiencing homelessness must be over the age of 60 or have documented 
underlying health conditions in order to be deemed eligible. This 
narrow interpretation of eligibility criteria has limited the 
efficiency of San Francisco's hotel program.\19\ Additionally, FEMA 
reimbursement of non-congregate shelter for people experiencing 
homelessness is only made available if a Governor requests it; people 
who are homeless in states with governors who do not prioritize their 
needs are left with no assistance.
---------------------------------------------------------------------------
    \19\ Karlis, N. 2020. How Bureaucracy Kept the Bay Area from 
Housing the Houseless. Retrieved from https://www.salon.com/2020/06/21/
how-bureaucracy-kept-the-bay-area-from-housing-the-houseless/
---------------------------------------------------------------------------
Seniors and People with Disabilities
    People with disabilities also face barriers to assistance. They are 
two to four times more likely to die or sustain a critical injury 
during a disaster than people without disabilities.\20\ Despite an 
increased risk of death and injury, many emergency plans do not address 
how local officials can reach those with disabilities during a 
disaster. People with disabilities are often diverted to ``special 
needs'' or ``medical shelters,'' even if they do not require the level 
of care provided there. This practice fosters forced 
institutionalization and places people with disabilities at greater 
risk of injury or death.
---------------------------------------------------------------------------
    \20\ Timmons, P. ``Disaster Preparedness and Response: The Special 
Needs of Older Americans,'' Statement for the Record, Special Committee 
on Aging, U.S. Senate, September 20, 2017, available at https://
www.aging.senate.gov/imo/media/doc/SCA_Timmons_09_20_17.pdf.
---------------------------------------------------------------------------
    During Hurricane Harvey, elderly residents in a Galveston, Texas 
nursing home were photographed with floodwaters up to their waists,\21\ 
and 14 nursing home residents in the largely unregulated state nursing 
home industry died in 2017 from heat exhaustion when their facility 
lost power in Hurricane Irma.\22\ The COVID-19 pandemic has devastated 
people residing and working in nursing homes, psychiatric hospitals, 
and other congregate settings for people with disabilities. People 
living in these settings comprise less than 1% of the U.S. population, 
but nearly 50% of coronavirus deaths.\23\
---------------------------------------------------------------------------
    \21\ Ferguson, J. W. 2017. Eighteen People Rescued from Flooded 
Assisted Living Facility. Retrieved from https://www.galvnews.com/news/
free/article_e1ffff8e-435d-5c78-ab46-57d6bc7dc6a5.html
    \22\ CNN. 2017. Husband and Wife Among 14 Dead After Florida 
Nursing Home Lost A/C. Retrieved from https://www.cnn.com/2017/10/09/
health/florida-irma-nursing-home-deaths-wife/index.html
    \23\ Mizner, S. 2020. COVID-19 Deaths in Nursing Homes are not 
Unavoidable--They are the Result of Deadly Discrimination. Retrieved 
from https://www.aclu.org/news/disability-rights/covid-19-deaths-in-
nursing-homes-are-not-unavoidable-they-are-the-result-of-deadly-
discrimination/
---------------------------------------------------------------------------
Immigrants
    Individuals with limited English proficiency often face difficulty 
in accessing FEMA resources. For example, in Puerto Rico, FEMA 
struggled to find translators or provide basic information in Spanish, 
which is the predominant language on the island.\24\ While FEMA's 
regulations require that such documents are produced, advocates 
commonly express concern that the agency and its grantees regularly 
distribute forms only in English or with limited translated versions.
---------------------------------------------------------------------------
    \24\ Davidson, J. 2020. How a lack of diversity at federal agencies 
can have serious consequences. Retrieved from https://
www.washingtonpost.com/politics/how-a-lack-of-diversity-at-federal-
agencies-can-have-serious-consequences/2020/02/29/ceec904e-5a65-11ea-
8753-73d96000faae_story.html
---------------------------------------------------------------------------
                Onerous Title Documentation Requirements
    Eligible applicants often do not receive FEMA assistance due to 
inflexible and arbitrary requirements, rigid interpretations of rules, 
and confusing and bureaucratic processes. FEMA's rigid title 
documentation requirements, for example, have barred low-income 
survivors from FEMA assistance.
    FEMA consistently requires disaster survivors to provide title 
documentation in order to prove eligibility for the agency's Individual 
Assistance (IA) \25\ program and other recovery aid, even though its 
own guidance on Individual and Household Assistance allows alternative 
documentation of ownership. Low-income homeowners, residents of 
manufactured housing, renters without written leases, and other 
individuals frequently lack such documentation or the ability to 
quickly procure proper documents. FEMA's rigid and unnecessary policy 
has harmed low-income disaster survivors since at least 1995, but FEMA 
has done little to resolve the problems.
---------------------------------------------------------------------------
    \25\ Individual Assistance (IA) programs provide financial and 
program assistance directly to disaster survivors, as opposed to 
governments or eligible nonprofits. See: https://www.fema.gov/media-
library-data/1565194429982-5674cd81399feaeb00cc72ab7fc4d84f/
FACTSHEETIndividualAssistanceProgram.pdf
---------------------------------------------------------------------------
    After Hurricane Maria, FEMA denied assistance to at least 77,000 
survivors due to title documentation issues.\26\ For months, NLIHC's 
Disaster Housing Recovery Coalition pushed FEMA to remove this 
unnecessary obstacle to low-income Puerto Ricans receiving needed 
assistance. Finally, FEMA's Office of Chief Counsel engaged and worked 
with DHRC members Ayuda Legal Huracan Maria, Fundacion Fondo de Accesso 
a la Justicia, and Servicios Legales de Puerto Rico to prepare a 
``sworn statement'' that would allow Puerto Rican homeowners without 
title documents to prove ownership of their homes so that they can 
receive the assistance to which they are entitled.
---------------------------------------------------------------------------
    \26\ National Low Income Housing Coalition. 2019. Impact of 
Hurricane Maria. Retrieved from https://nlihc.org/sites/default/files/
Hurricane-Impact-Maria.pdf
---------------------------------------------------------------------------
    But FEMA refuses to provide the sworn statement to survivors or 
even to make it available on FEMA's website, social media, or at 
Disaster Recovery Centers, greatly limiting the ability of survivors to 
make use of this new resource. FEMA has told congressional offices that 
it is not allowed to share such documents unless they have been 
approved by the Office of Management and Budget, but FEMA has not taken 
any steps to get the appropriate approval. FEMA staff have now 
indicated that rather than formally adopting a sworn statement, the 
agency may instead simply refuse to create such documents after future 
disasters, doubling down on a clearly flawed and failed policy.
    These same issues occurred in the continental U.S. In North 
Carolina and other parts of the American South, rural, historically 
African American communities often do not use title systems, instead 
implementing informal systems like those used in Puerto Rico. After 
Hurricane Katrina, thousands of poor Alabamians were denied assistance 
due to lack of formal title on their damaged homes. After Hurricane 
Michael, FEMA denied assistance to as many as 50% of applicants in 
certain parts of the panhandle largely due to elderly households and 
mobile homeowners lacking FEMA-required title documentation.\27\ After 
California's wildfires, FEMA denied assistance to 70% of applicants due 
to title issues.\28\ Those denied were predominantly rural mobile home 
owners, many of them farmworkers or other low-income workers, who do 
not have title to their homes. In all cases, FEMA refused to modify its 
programs to accommodate the situation, choosing instead to deny 
eligible applicants needed assistance to which they were entitled.
---------------------------------------------------------------------------
    \27\ National Low Income Housing Coalition. 2019. Impact of 
Hurricane Michael. Retrieved from https://nlihc.org/sites/default/
files/Hurricane-Impact-Michael.pdf
    \28\ National Low Income Housing Coalition. 2019. Impact of the 
2018 California Wildfires. Retrieved from https://nlihc.org/sites/
default/files/Califonia-Wildfire-2018.pdf
---------------------------------------------------------------------------
    Disincentives to apply for assistance and high denial rates not 
only limit immediate assistance for low-income survivors, but these 
factors also distort the entire disaster recovery process because IA 
application data is used to make funding determinations throughout the 
federal disaster recovery process.
                  FEMA's Systemic Lack of Transparency
    FEMA has consistently refused to clarify or make public important 
information about its aid application process. By not releasing this 
information, FEMA makes it difficult, if not impossible, to determine 
who is eligible to receive assistance and why assistance is denied. A 
confusing appeals process leads to higher denial rates for low-income 
disaster survivors.
    While FEMA, SBA, and HUD offer assistance programs to disaster 
survivors, basic information on program eligibility is not made 
publicly available. Without such information, disaster survivors often 
apply to all programs with the hopes that at least some assistance will 
be provided. For low-income individuals who may lack internet or phone 
access or who may need special accommodations to allow them to apply, 
completing multiple applications can be especially problematic. As a 
result, many of the disaster survivors with the lowest incomes forgo 
applying for assistance all together, despite their need.
    FEMA has consistently refused to give reasons upfront for denials 
or opportunities for applicants to correct errors or provide more 
information. Instead of receiving guidelines or clarification from 
FEMA, survivors and advocates must work through a lengthy 
administrative process in order to be given a reason for their denial. 
The lack of clarity makes it more difficult for assistance 
organizations attempting to inform and assist low-income survivors 
after a disaster. As a result, appeals take longer and are more costly.
    The FEMA appeals process is confusing and difficult. A denied 
applicant must first submit a form explaining the dispute and providing 
supporting documentation. FEMA denial letters, however, provide only 
very vague reasons for the initial denial of assistance. The denied 
applicant must refute all possible interpretations of the reason, or 
they will lose their appeal. As a result, low-income survivors with 
little access to legal representation or the money for a protracted 
legal fight simply do not appeal at all.
    It is extremely difficult to access basic data about FEMA programs 
and processes. Freedom of Information Act (FOIA) requests to FEMA often 
go months or years without being answered. NLIHC filed a FOIA request 
in December 2018 requesting basic materials, including FEMA's 
application for assistance, procedure manuals for determining 
eligibility, and data sharing agreements with HUD and other federal 
agencies. To date, FEMA has not provided these materials. In other 
cases, FEMA refuses to provide basic information, claiming grounds of 
privilege. In recent years, some progress has been made with the 
release of data after major disasters through FEMA's OpenFEMA portal. 
These changes, while a welcome development, are not enough and may not 
be continued.
     FEMA's Inflexibility and Inability to Adjust to New Conditions
    Climate change means disasters are more destructive, more frequent, 
and impact a broader geographic scope, posing new challenges for FEMA 
and disaster recovery efforts. FEMA is not adapting its thinking or its 
programs to respond to these challenges, instead sticking to a rigid 
system of disaster aid and recovery based on responding to contained 
local disasters. FEMA has little capacity to effectively deal with both 
large, regional disasters and the unique circumstances and needs of a 
specific community impacted by a disaster.
    FEMA has a rigid allegiance to protocol over outcomes, a stubborn 
reliance on programs inaccessible to low-income survivors and 
repeatedly refuses to release important data on recovery outcomes. FEMA 
relies heavily on protocol written in Washington, D.C. and not on what 
the agency hears from advocates, survivors, FEMA employees in the 
field, and other stakeholders. FEMA systems are not designed to adapt 
to situations on the ground. As a result, predictable issues repeatedly 
arise after each disaster and go unaddressed by the agency, further 
harming low-income survivors.
    FEMA has consistently failed to learn larger lessons from past 
disasters and apply them to future disaster recovery efforts. FEMA's 
own internal watchdog, the Department of Homeland Security Office of 
the Inspector General, removed criticisms from reports on the agency's 
disaster response and replaced them with success stories, praising 
FEMA's work.\29\ As a result of this lack of internal critique and 
self-adjustment, FEMA repeats the same mistakes, and does similar harm, 
disaster after disaster.
---------------------------------------------------------------------------
    \29\ U.S. Department of Homeland Security Office of Homeland 
Security. 2019. Special Report: Review Regarding DHS OIG's Retraction 
of Thirteen Reports Evaluating FEMA's Initial Response to Disasters. 
Retrieved from https://www.oversight.gov/sites/default/files/oig-
reports/OIG-19-41-May19.pdf
---------------------------------------------------------------------------
                      FEMA's Response to COVID-19
    People who are homeless and contract coronavirus are twice as 
likely to be hospitalized, two to four times as likely to require 
critical care, and two to three times as likely to die than others in 
the general public. If unchecked, as many as 20,000 people who are 
homeless could require hospitalization and nearly 3,500 could die.\30\ 
During COVID-19, congregate sheltering poses a severe risk to people 
experiencing homelessness and people with disabilities, who are more 
likely to have pre-existing medical conditions than the general public. 
The only way to reduce this risk is to move these individuals to safer 
non-congregate sheltering.
---------------------------------------------------------------------------
    \30\ https://endhomelessness.org/resource/estimated-emergency-and-
observational-quarantine-bed-need-for-the-us-homeless-population-
related-to-covid-19-exposure-by-county-projected-hospitalizations-
intensive-care-units-and-mortality/
---------------------------------------------------------------------------
    Congress provided critical resources in the ``Coronavirus Aid, 
Relief, and Economic Security (CARES) Act,'' including FEMA Public 
Assistance (PA) funds, to address the critical need to move people 
experiencing homelessness to non-congregate settings. Despite 
congressional efforts, many states, local governments, and homeless 
service providers continue to face barriers to effectively and 
efficiently using FEMA resources. FEMA failed to release clear guidance 
regarding program rules, including rules related to reimbursement 
eligibility, the use of matching funds, and the duplication of 
benefits. The lack of clarity led to delays among county and local 
decisionmakers who fear they will be unable to secure FEMA 
reimbursements for the cost of moving people to safety.
    In North Carolina, for example, the state's guidance vaguely 
implied that all individuals residing at shelters were eligible for 
reimbursable non-congregate sheltering. However, FEMA initially failed 
to clarify the guidelines, and many local officials refused to 
recognize requests to shelter members of the broader homeless 
population.\31\ Lack of clear guidance from FEMA and distrust of its 
reimbursement process also impacted San Francisco's participation in 
Project Roomkey--a California plan to utilize hotel rooms to shelter 
thousands of individuals experiencing homelessness. Concerns about 
whether FEMA would reimburse the costs of hotels and FEMA's requirement 
that governments spend the money first have contributed to the Bay 
Area's ``slow, piecemeal response'' to housing people experiencing 
homelessness in non-congregate settings.\32\
---------------------------------------------------------------------------
    \31\ National Low Income Housing Coalition. 2020. Getting to Yes: 
Working with FEMA to Fund Non-Congregate Shelter During COVID-19. 
Retrieved from https://nlihc.org/sites/default/files/Guidance_Working-
with-FEMA.pdf
    \32\ Karlis, N. 2020. How Bureaucracy Kept the Bay Area from 
Housing the Houseless. Retrieved from https://www.salon.com/2020/06/21/
how-bureaucracy-kept-the-bay-area-from-housing-the-houseless/
---------------------------------------------------------------------------
    Housing and homeless shelter and service providers working directly 
with impacted populations often lack the critical information needed 
from FEMA to plan and interface with the PA program, such as expiration 
dates and application processes. FEMA should ensure that all 
documentation surrounding the request, approval, and justification of 
non-congregate sheltering reimbursement is made publicly available 
online. This would improve transparency and the ability of housing and 
homeless service providers to utilize the PA program to the most 
effective extent possible.
    Moreover, FEMA has neglected to authorize its full range of 
assistance programs to address the pandemic. As authorized by the 
Stafford Act, FEMA can administer a wider suite of disaster assistance 
programs designed to be deployed rapidly to the wide range of 
challenges faced by individuals during and after a disaster, including 
housing instability, financial stress, and the need for legal services. 
To help address the broad health, housing, and economic impacts of the 
coronavirus pandemic, FEMA should activate its IA programs, including 
the Transitional Shelter Assistance (TSA), Individual and Households 
(IHP) assistance, and Disaster Legal Services (DLS) program, to ensure 
that low-income households can remain stably housed. Although not 
originally created for pandemic response, these programs could be 
quickly deployed to serve households in need as a result of the 
coronavirus pandemic, rather than requiring overburdened state and 
local governments to quickly design and stand up new programs.
         Equitable Solutions Centered on the Needs of Survivors
    A reformed disaster housing recovery system that is centered on the 
needs of the lowest-income and most marginalized survivors and their 
communities must ensure opportunities for resident and public 
engagement, systemic transparency, full accountability and due process, 
robust equity and civil rights enforcement, fair mitigation practices, 
and a focus on increased local capacity and benefit. These priorities 
must be reflected in every stage of disaster recovery and response, 
from pre-disaster emergency planning through long-term recovery and 
post-recovery mitigation, to help address the systemic racism and 
classism that have resulted in our broken current disaster housing 
system.
                   resident and public participation
    A reformed disaster housing recovery and response framework must 
ensure robust, ongoing, and timely opportunities for public engagement 
through structured collaboration with stakeholders beginning with 
emergency planning and response and continuing through the closeout of 
recovery and mitigation programs. Residents must be empowered to make 
decisions for themselves and their communities, and their input must be 
given substantial weight.
    Current disaster housing response and recovery efforts effectively 
limit opportunities for impacted residents to meaningfully engage and 
contribute to the rebuilding of their communities after a disaster. 
State officials are under enormous pressure to respond and rebuild as 
quickly as possible, often making any public input process rushed and 
ineffective. Engagement is often limited because residents are unaware 
of emergency response, rebuilding, and mitigation plans, whether 
because state officials fail to announce public meetings or because 
materials are provided only in English or in formats that are not 
accessible, including to people with disabilities. Moreover, plans 
often do not include essential information--including information about 
how funds will be spent and who will be eligible for which funds--that 
is needed for the public to engage effectively. Opportunities for 
engagement are limited, irregular, and occur too late in the process.
                         systemic transparency
    Basic, essential information about federal disaster response and 
recovery efforts must be made publicly available in a timely manner. 
This transparency must be systemized, so that it is not provided on an 
ad hoc basis. Data transparency is critical to ensuring informed public 
policy decisions, allowing greater public participation in disaster 
recovery efforts, and helping public and private entities better 
recognize gaps in services and identify reforms needed for future 
disaster recovery efforts.
    The current federal disaster response and recovery, however, 
suffers from a systemic lack of data transparency. After past 
disasters, this failure to provide basic transparency--ranging from 
damage assessments, determination of unmet needs, program design and 
implementation, grantee and subgrantee performance, and how federal 
dollars are spent--has hampered efforts to effectively target and 
distribute aid to those most in need.
                  full accountability and due process
    Accountability and due process must be central in any reformed 
disaster housing recovery and response framework. Federal efforts must 
ensure that all eligible survivors receive the assistance needed to get 
back on their feet.
    The daunting application process for disaster aid discourages 
survivors from applying for assistance. The application and appeals 
processes are confusing, time-consuming, and frustrating. As a result, 
low-income survivors--especially seniors, people with disabilities, and 
people with limited English proficiency, and other individuals--face 
high, unnecessary, and counterproductive barriers to receiving federal 
disaster housing recovery assistance and many forgo applying for 
assistance altogether. By not providing full accountability, 
transparency, and due process to applicants, the federal government has 
made it difficult--if not impossible--to determine who is eligible to 
receive assistance and why assistance was denied, leading to higher 
denial rates for low-income disaster survivors.
               robust equity and civil rights enforcement
    Equity must be a central and explicit goal of federal disaster 
housing response and recovery efforts, and each stage of the response 
and recovery must be examined and reformed to ensure that federal, 
state, and local efforts actively dismantle systems of oppression. All 
emergency response, long-term recovery, and mitigation actions must be 
designed and pursued in a manner that addresses and prioritizes the 
needs of the lowest-income survivors, people of color, seniors, people 
with disabilities, immigrants, and other protected classes. All such 
actions must also be explicitly anti-racist: analyzed to determine if 
they exacerbate, leave in place, or ameliorate existing or historic 
patterns of segregation and discrimination in housing and 
infrastructure, and remedied accordingly.
                       fair mitigation practices
    All emergency response, long-term recovery, and mitigation efforts 
must be designed and pursued in a manner that provides survivors with 
the choice to relocate or rebuild their communities resiliently, 
minimizing displacement. As the climate changes, disasters will be both 
more frequent and more destructive. In response, local and state 
officials have begun to focus on mitigation and infrastructure 
improvement. Too often, such upgrades go to more affluent communities, 
while the needs of lower-income people and people of color are ignored. 
Moreover, federal, state, and local recovery efforts may actively 
contribute to displacement by failing to provide survivors with 
meaningful choices to rebuild resiliently, relocate, or improve 
infrastructure (such as storm drainage, floodplain management, and 
other common mitigation measures) in their disaster-affected 
communities. This effectively leaves low-income survivors at greater 
risk for future disasters than they were prior to the disaster.
                  increased local capacity and benefit
    All emergency response, long-term recovery and mitigation efforts 
must maximize the engagement of local contractors and workers and build 
the capacity of local community-based organizations, putting as much 
federal resources as possible into the impacted economy and impacted 
survivors.
    Local community-based organizations and networks are in the best 
position to engage with and have intimate awareness of the unique needs 
of the lowest-income survivors. These local organizations often do not 
receive the support needed to build capacity to scale up efforts 
quickly after a disaster. By relying on out-of-town contractors for 
everything from debris removal to repair of electrical grids, state and 
local governments miss an opportunity provide employment, job training, 
and contracting opportunities to low-income local workers and small- 
and minority-controlled businesses, who often are in severe need of 
work as a result of disasters' disruption to local business.
  First Steps to Fix America's Broken Disaster Housing Recovery System
    The ``Fixing America's Broken Disaster Housing Recovery System'' 
report provides specific policy recommendations to reimagine and 
redesign a new disaster housing recovery framework that is centered on 
the needs of the lowest-income and most marginalized survivors. This 
work will take many years. However, there are a number of actions 
Congress can take to immediately address some of the biggest challenges 
facing survivors.
 permanently authorize and automatically activate the disaster housing 
                       assistance program (dhap)
    Congress should permanently authorize DHAP and automatically 
activate it after every major disaster to provide longer-term housing 
assistance and wrap-around services to low-income survivors. Such 
assistance should be provided to eligible survivors until the long-term 
housing recovery--including the rebuilding of affordable rental housing 
stock--is complete.
         enact the ``housing survivors of major disasters act''
    Congress should enact the ``Housing Survivors of Major Disasters 
Act,'' (H.R. 2914) \33\ introduced by Representative Adriano Espaillat 
(D-NY). The bill, which passed unanimously out of the House 
Transportation and Infrastructure Committee in February 2020, contains 
critically needed reforms to ensure that the lowest-income and most 
marginalized survivors can access the housing assistance they need to 
rebuild their lives. I thank the Committee for your work on this bill 
and ask that you help move it to the floor for a vote.
---------------------------------------------------------------------------
    \33\ H.R. 2914, ``Housing Survivors of Major Disasters Act of 
2019.'' Retrieved from https://www.congress.gov/bill/116th-congress/
house-bill/2914
---------------------------------------------------------------------------
    The ``Housing Survivors of Major Disasters Act'' would address the 
significant title-documentation challenges that have resulted in tens 
of thousands of eligible disaster survivors being wrongfully denied 
FEMA assistance. The bill would reform FEMA's application process and 
allow survivors to more easily navigate this process. It would provide 
a new framework to make it easier for disaster survivors to prove 
residency in disaster-impacted areas, either by completing a 
``declarative statement'' form or by submitting a broader range of 
acceptable documents such as utility bills, credit card statements, pay 
stubs, and school registration in lieu of a formal title to property or 
leases.
                ensure equity is an explicit policy goal
    Congress must ensure that equity is a central and explicit goal of 
federal disaster housing response and recovery efforts. Our current 
disaster housing recovery framework exacerbates and reinforces racial, 
income, and accessibility inequities at each stage of response and 
recovery. Survivors of color and communities of color are 
disproportionately harmed by the current disaster housing recovery 
system.
    Federal disaster housing response and recovery efforts must address 
and prioritize the needs of the lowest-income and most marginalized 
survivors, including people of color, people with disabilities, 
immigrants, and other protected classes. All actions must be explicitly 
anti-racist: analyzed to determine if they exacerbate, leave in place, 
or ameliorate existing or historic patterns of segregation and 
discrimination in housing and infrastructure and remedied accordingly.
    Congress must ensure that disaster housing recovery efforts undo 
the racial, income, and accessibility inequities embedded in our 
current disaster housing recovery framework. Disaster recovery 
efforts--which often include significant, robust funds--represent a 
unique opportunity to rebuild in a way that addresses, rather than 
entrenches, these disparities.
                       require full transparency
    Congress should require that FEMA provide basic, essential 
information about federal disaster response and recovery efforts, 
including damage assessments, determination of unmet needs, program 
design and implementation, grantee and subgrantee performance, and how 
federal dollars are spent. Congress should require FEMA to provide full 
transparency on program eligibility, the aid application process, and 
reasons for denials of assistance. Data collected by the government 
must be open and accessible at the most granular and comprehensive 
level, while protecting personally identifiable information. This 
information must be made publicly available in a timely manner and this 
transparency must be systemized, so that it is not only provided on an 
ad hoc basis.
    Data transparency allows policymakers and advocates to be informed 
about program results and make policy improvements and incorporate best 
practices into future activities. Issues of equity clearly exist in the 
disaster recovery process, and Congress must require FEMA to implement 
better transparency practices so the problems can be identified and 
rectified.
           ensure survivor-centered approaches to assistance
    Congress must ensure that every survivor receives assistance to 
which they are entitled. FEMA maintains a culture of rigid allegiance 
to narrowly defined protocol over outcomes; as a result, many disaster 
survivors, including many of the lowest-income survivors, are 
wrongfully denied needed assistance. Congress should require FEMA to 
prioritize categorical eligibility, simplify the application and 
appeals process, and track and report on outcomes to ensure recovery 
aid reaches those in need.
    Rather than creating and implementing numerous categories of 
ineligibility, disaster assistance programs should employ broad-based 
categories of eligibility, with the aim that every survivor receives 
the recovery assistance to which they are entitled. Through the use of 
damage assessments, geographic information, and other data, a reformed 
federal disaster housing recovery system can provide categorical 
eligibility to survivors in disaster-impacted areas. With a shift in 
emphasis to categorical eligibility, many of the convoluted rules and 
requirements employed by recovery assistance programs will no longer be 
necessary, allowing for an easier, quicker, and more flexible 
application process.
    FEMA should allow for a flexible system of documentation for 
distributing disaster recovery assistance. Applying the least 
restrictive guidance regarding alternative documentation--and doing so 
consistently across all jurisdictions--would cut down on wasted time 
and confusion on the parts of both applicants and advocates alike. In 
order to employ full categorical eligibility, there must be a system in 
place that permits alternative documentation to ensure all survivors 
can receive assistance.
    Congress should also require FEMA, HUD, and other federal agencies 
involved in disaster recovery efforts to work together and create a 
single, universal application for aid to make the process easier, 
quicker, and more flexible, reducing the administrative burden and 
speeding the process.
      address the unique needs of people experiencing homelessness
    Congress should enact legislation to ensure equitable treatment of 
individuals experiencing homelessness through the response and recovery 
effort. Pre-disaster homeless populations are often denied FEMA 
assistance. Even if they lost all of their belongs in the disaster, 
FEMA will often deny survivors any benefits once their status as pre-
disaster homeless is established.\34\ With no resources to adequately 
prepare or recover from a disaster, people experiencing homelessness 
are among the most harmed disaster survivors.
---------------------------------------------------------------------------
    \34\ Ehrlich, A. 2019. After Wildfires, Homeless People Left Out of 
Federal Disaster Aid Programs, Oregon Public Broadcasting. Retrieved 
from https://www.opb.org/news/article/fema-disaster-aid-wildfires-
homeless-people/
---------------------------------------------------------------------------
    FEMA has interpreted current law to deny assistance to people 
experiencing homelessness prior to a disaster, despite their 
exceptional needs. Congress should enact clarifying legislation to 
ensure that people experiencing homelessness prior to the disaster have 
access to the same emergency shelter and disaster relief assistance as 
other survivors, including rental assistance.
    meet the urgent health and housing needs of people experiencing 
                    homelessness during the pandemic
    Congress must take every action to save lives and prevent outbreaks 
of coronavirus among people experiencing homelessness and other 
individuals living in congregate settings. Congress should direct FEMA 
to provide full reimbursement to state and local governments for Public 
Assistance (PA) emergency protective measures. These provisions would 
cover all eligible PA costs and allow FEMA to provide assistance in 
advance rather than requiring states to be reimbursed later.
    In addition, Congress should require FEMA to immediately issue 
guidance regarding compliance with federal duplication of benefit 
requirements. FEMA's failure to release such guidance has unnecessarily 
slowed down the best efforts by state and local governments and 
homeless service providers to use the flexible federal resources 
provided in the CARES Act--including FEMA PA grants, HUD Emergency 
Solutions Grants and Community Development Block Grants, Treasury-
administered Coronavirus Relief Funds--to move people experiencing 
homelessness out of shelters or encampments and into non-congregate 
spaces. FEMA guidance should clearly provide the broadest flexibility 
possible to combine federal CARES Act resources. Overly rigid 
duplication of benefits requirements will prevent critical resources 
from reaching survivors with the most acute needs.
    Congress should require full transparency from FEMA on all 
materials related to state reimbursements for non-congregate 
sheltering. At a minimum, FEMA should be required to make publicly 
available on a monthly basis the number of people currently housed in 
FEMA-reimbursable hotels and other non-congregate shelters by state; 
the number of people who were previously experiencing homelessness 
prior to participation in the non-congregate shelter program by state; 
and copies of every state request for non-congregate shelter and every 
letter of approval and/or denial by FEMA. The agency should be directed 
to develop and make publicly available plans to ensure that individuals 
have permanent, stable housing prior to ending FEMA assistance. 
Requiring FEMA to report this data will help policymakers and service 
providers better understand FEMA's role in providing non-congregate 
shelter to individuals experiencing homelessness.
                               Conclusion
    Our country must develop a new disaster housing recovery system 
that centers the housing needs of the lowest-income survivors, 
including people of color, people with disabilities, and others. In 
addition to addressing immediate housing needs caused by the pandemic, 
Congress should address our nation's pervasive structural and racial 
inequities and reform federal disaster planning and response efforts to 
be inclusive and intersectional. We must reform existing programs by 
centering racial equity and equity for all historically marginalized 
people to ensure that affordable housing investments and federal 
disaster recovery resources reach all impacted households.
    Thank you again for the opportunity to testify today. I look 
forward to your questions.

    Ms. Titus. Thank you, Ms. Yentel, and thank all of you for 
excellent testimony laying out the statistics of how this 
community is affected, and also some of the reasons why it's so 
affected. We will now move on to Member questions. Each Member 
will be recognized for 5 minutes, and I'll start by recognizing 
myself.
    This committee did some good work expanding FEMA assistance 
for the disabled community and the Disaster Recovery Reform 
Act, but based on your testimony, there is clearly additional 
room for enhancements to have FEMA evaluate its disaster aid 
for vulnerable communities. Mr. Brown, you said that you had 
some suggestions, and we heard some others mention, but I'm 
wondering if you all would speak directly to what can be done, 
and put it in the context of, is it a problem of law, is it a 
problem of policy, or is it a problem of politics? Does it 
change depending on who is the Administrator, or what those 
priorities of the administration are? Start with you, Mr. 
Brown?
    Mr. Brown. Thank you, Chairwoman. You know, our perspective 
is that these problems are systemic, so they are a problem of 
law and policy and also implementation. Equity has to be fully 
integrated throughout the entire process, and especially 
implementation when a disaster occurs.
    So, one of my recommendations as part of my written 
testimony is a full and thorough vetting of all of FEMA's 
policy practices and grant programs to look at how we can 
integrate equity and prioritize the needs of the most 
vulnerable, and cut through the redtape and the delays that 
disproportionately impact the communities that are most at risk 
and most in need when a disaster strikes.
    So just to answer your question, I think it's systemic. 
It's deeply rooted over many years in time, and in order to 
change the trend that we see continuously, we need some 
intentional efforts, aligned with investment and focus, and we 
also need a diverse profession. We also need to add diversity 
into the field and add additional perspectives to commit to 
long-term change.
    Ms. Titus. I notice that in the field of emergency 
management, there's not much representation from people of 
color, from women, from people with disabilities especially at 
the top levels of management, and do you think if we were more 
open in our recruiting and in our promotion within the agencies 
that deal with these problems, that might have some impact?
    Mr. Brown. Yes, Chairwoman. That's vitally important at all 
levels, and throughout the emergency management enterprise. To 
your point, the field is not diverse, but it is growing.
    There's a unique opportunity here to diversify the field of 
emergency management, more women, more people of color, 
especially in positions of leadership. We've been working with 
Historically Black Colleges and Universities, as well as 
minority-served institutions to increase the number of students 
who are interested in the field. We need to look critically at 
the skillsets needed in the field. We need to bring in folks 
who understand a human-centered approach to disasters and 
understand the communities that are most impacted, and I think 
we can get the best bang for our buck if we do that.
    Right now we have a field that is not diverse, who cannot 
fully understand the unique experiences of the communities that 
are most impacted. And so, yes, that is a huge part of the 
problem, but diversity and inclusion is a part of the solution.
    Ms. Titus. Thank you. Ms. Roth?
    Ms. Roth. Yes, there are so many opportunities for 
improvement. First and foremost, we have got to resolve who has 
the responsibility for monitoring and enforcing Federal laws 
that are now 30 years old. Thank you for recognizing the ADA 
anniversary, and almost 50 years old with regard to the 
Rehabilitation Act, which applies to the use of every Federal 
dollar, whether it's expended by the Government, or whether 
it's granted or sub-granted.
    And so, you know, we address many of these shortfalls, 
failures, and unfortunately those with dire outcomes. We 
address those in the REAADI for Disasters Act, and the Disaster 
Relief Medicaid Act. The issues at FEMA are quite honestly 
baffling.
    We had hired 175, 185 disability integration advocates to 
deploy out into the field of disasters to support the 
Governors, support States, support disability organizations, to 
navigate the complexities of FEMA's programs. Most of those 
were people with disabilities, and unfortunately, most of those 
are no longer working.
    Ms. Titus. Thank you. I'm afraid I've got to cut you off. 
My time is up, but I would like to come back to that if we 
could. Thank you.
    Ms. Roth. Great.
    Ms. Titus. Mr. Katko?
    Mr. Katko. Thank you, Madam Chair, and thank you all for 
your testimony today, and I just--a quick example. I met a 
young woman on the--in my district years ago who had Down 
syndrome, and I had her come down to speak at an event. She did 
such a good job that she became the first person with Down 
syndrome to be registered as a lobbyist for the National Down 
Syndrome Society.
    The point is, is that when they get an opportunity, that's 
often all they need, and we got to keep that in mind, and so, 
opportunities is what the name of the game is as far as I'm 
concerned. So, I credit all of you--all your advocacy and what 
you're saying in that regard.
    Mr. Higdon, the Central New York Food Bank, just in a 4-
month period, from March to June of this year, has distributed 
over 8.4 million pounds of food, or over 7 million meals, had 
73 mobile food pantry distributions, received over 4,000 
requests for assistance, and pre-screened 3,400 households for 
assistance. It accomplished this with 445 volunteers and 27,000 
staff hours devoted to their COVID efforts.
    Food banks are critical to addressing food insecurity, as 
you know, and what is the best way, Mr. Higdon, that we can 
continue to ensure food banks like yours and in central New 
York have what they need to continue to meet the needs in these 
very trying times?
    Mr. Higdon. Yes, Ranking Member. I appreciate your comments 
and support of the food bank. They spoke very highly of your 
efforts to kind of stay plugged in with what they're doing.
    But you know, for us, we've seen a lot of success with our 
mobile pantry distributions. It's really been an opportunity 
for us to do drive-through distributions so individuals don't 
get asked to get out of their cars. You're seeing this across 
the country. It's very--a lot of dignity provided in--through 
those opportunities where, you know, we're not doing a lot of 
income intake.
    We have a lot of opportunities with food that's been 
provided to us right now. And so, for us, really, the support 
that's been most helpful in order for us to increase our 
distributions has been use of the National Guard.
    We have been blessed with--you know, there's been a lot of 
private donors who have responded and been helpful, and support 
from the Government and things of--are happening, and who knows 
how long this is going to go, and what's needed to really 
support the needs long term, because some of these programs 
will run out, but you know, for now, it seems like we're doing 
a good job of trying to keep up, and dealing with adversity and 
trying to keep our doors open and reach as many people as we 
can, and I think one thing that our Feeding America Network 
really has is that opportunity to provide coverage throughout 
the country.
    Every county in the United States is covered, and we have 
established multiple pantries in every county that that we 
serve. And so, really just through our reach and opportunity, 
we're trying to reach as many people as we can, and the support 
we've seen from the Federal Government has really enabled us to 
get out there and help keep meeting the needs through 
everything that's going on right now.
    Mr. Katko. Thank you, Mr. Higdon. I'm glad you mentioned 
the National Guard, and I didn't know you were going to do 
that, of course, but my son is a lieutenant in the National 
Guard called up to Active Duty, and he was serving 
underprivileged communities, and it was quite an education for 
him, and then he commanded a testing site.
    So, I can testify firsthand to you that the National Guard 
was a great help, and I'm glad you mentioned that. Switching 
gears here to all the other witnesses, I want to note that this 
committee has worked over the years to ensure the emergency 
management system works for all people hit by disaster, with a 
particular focus on the most vulnerable. Ultimately we must 
make sure what assistance is valuable is clear and communicated 
effectively, and that the process itself does not revictimize 
the victim. That means removing unnecessary redtape and 
hurdles.
    I appreciate all of your included recommendations in your 
testimony, but what I want to do in the time that's left is to 
try and get at least one or two of you on the record telling us 
what would be your top one or two actions you would recommend. 
The top one or two, briefly, that would improve delivery of 
assistance in vulnerable populations, and we can start with Ms. 
Roth.
    Ms. Roth. My top one or two would be ensuring that the 
monitoring and enforcement of the Federal laws is occurring 
without interruption, and as well that the local disability-led 
organizations are able to provide services before, during, and 
after disasters, and be appropriately funded for them.
    At this point, we have independent living centers across 
the country who are providing their services without 
reimbursement, not because they wouldn't be eligible for that 
reimbursement, but because they are dependent on their States 
to facilitate the process. So we need to correct that in the 
Public Assistance emergency protective measures.
    Mr. Katko. Thank you very much. We're out of time, but for 
the other witnesses, I would ask that you just--if you could 
just submit something in writing, I would really appreciate it 
because I wanted to know what we need to prioritize and what 
you believe the priorities are, and sorry I couldn't get to you 
all, but we ran out of time, and I yield back, Madam Chair.
    Ms. Titus. Thank you. We will now go to Ms. Mucarsel-
Powell.
    Ms. Mucarsel-Powell. Yes. Thank you, Madam Chair, and thank 
you to all the witnesses for coming this morning. Ms. Yentel, I 
wanted to start with a question about housing. As you know, the 
moratorium on evictions is about to end, and that means that 
many Floridians will find themselves without proper housing 
through no fault of their own. I would imagine this would 
seriously exacerbate the tragedies in south Florida if it's hit 
by a strong hurricane, and just this morning I saw that there's 
already a tropical depression that may be hitting us in 5 days. 
So, can you please speak on how this will affect people's 
ability to get FEMA assistance?
    Ms. Yentel. Absolutely. It's a tremendous concern. The 
Federal eviction moratorium has expired, as you say. State and 
local eviction moratoriums are expiring rapidly. Where State 
and local officials have been able to cobble together emergency 
rental assistance programs, they too have been depleted very 
quickly, and many communities like in Florida were suffering 
from a severe shortage of affordable homes even before COVID-19 
came.
    So, the potential for an eviction wave in a State with a 
severe lack of affordable housing available as a hurricane 
approaches is devastating and could be catastrophic, and I 
think it points to both the need for immediate congressional 
action to prevent this wave of evictions through a Federal 
moratorium on evictions through $100 billion in emergency 
rental assistance, through assistance to homeless shelters and 
service providers.
    And it also points to the need for those households who 
were homeless before COVID-19 and have been moved into hotels 
through FEMA's reimbursement for noncongregate shelter. We have 
to ensure that as those programs end that we are moving people 
from hotels into permanent housing, not back onto sidewalks or 
encampments or in homeless shelters, again, which would be 
devastating in the middle of a storm.
    Ms. Mucarsel-Powell. Mm-hmm. Yeah, thank you, Ms. Yentel, 
and as you know, we actually passed the Heroes Act, including 
that rent and mortgage relief to prevent evictions and the 
Senate Republicans came back without including those provisions 
which just seems cruel, especially in my State where we have 
such a serious crisis where people are facing evictions now. 
Thank you so much.
    And Ms. Roth, I wanted to highlight the fact that 2 days 
ago, July 26th, was the 30th anniversary of the Americans with 
Disabilities Act becoming law. Over the past three decades, 
this law has made a world of difference for so many of my 
constituents and people across this country, but we still have 
so much work to do to ensure that individuals with disabilities 
are treated fairly, that they have access to everything that 
our communities have to offer, and receive sufficient 
protections and assistance when disasters strike.
    And we all know someone with a disability, whether it's a 
family member that has had a disability since they were born, 
or a friend who got into an accident, and then was faced with a 
disability. Ms. Roth, approximately, like you said, 26 percent 
of the U.S. population has a disability. One-quarter of our 
population. But somehow, this fact is far too often overlooked.
    My nephew Charlie, who is so close to me, has serious 
disabilities that require him to live in a special group home, 
and they provide him with expert care. His caregivers, 
actually, I have to say are angels. I've had several 
conversations with them about how they're dealing with this 
pandemic.
    They've told me that they can't get the proper testing for 
their residents because they're bed-bound, or are in 
wheelchairs. They fear the day when a hurricane forces them to 
evacuate. They feel forgotten. In fact, the owner and general 
manager of the organization that cares for my nephew stated, 
and I quote, ``nobody thought about group homes.''
    Ms. Roth, as you know, CMS has instituted strict reporting 
requirements for nursing homes. COVID cases must be reported to 
all residents and families as well as directly to the CDC and 
State and local officials. This data is important to stop the 
spread of COVID.
    Do these same reporting requirements apply to facilities 
that care for individuals with intellectual disabilities or 
psychiatric residential treatment facilities, or substance use 
disorder treatment facilities?
    Ms. Roth. Thank you so much for those questions, and 
unfortunately, even where there are now finally some 
requirements, we're still not getting accurate information. It 
is just completely baffling to me that we cannot identify where 
this virus is emerging in hotspots, and make sure that 
everyone, including people with disabilities, have what they 
need in order to protect themselves. Just yesterday, the Senate 
bill completely left out any home- and community-based services 
funding.
    It is that kind of funding that makes it possible for 
people with disabilities and their families to have the support 
and services that they need, and to keep them out of the 
congregate facilities that are unable to keep people safe.
    Ms. Mucarsel-Powell. Yes, Ms. Roth, it's so troubling that 
now, when we need that support the most, we're facing those 
cuts. How does the lack of data and the lack----
    Ms. Titus. I'm sorry----
    Ms. Mucarsel-Powell [continuing]. Of transparency affect 
the emergent----
    Ms. Titus. I think your time----
    Ms. Mucarsel-Powell [continuing]. Standards, or----
    Ms. Titus. We're going to have to move on to the next 
person.
    Ms. Mucarsel-Powell. Oh, Madam Chair----
    Ms. Titus. But we'll have a--maybe have a second round.
    Ms. Mucarsel-Powell. Yeah, I couldn't see the clock.
    Ms. Titus. It's OK.
    Ms. Mucarsel-Powell. I couldn't see the clock, but thank 
you so much. I yield back.
    Ms. Titus. Thank you. Mrs. Miller?
    Mrs. Miller. Thank you, Chairwoman Titus and Ranking Member 
Katko, and thank you all for being here today. This hearing is 
extremely relevant to my State of West Virginia. We have people 
living among the hills and hollers high up, down in valleys, 
along flood plains. Many of our people are low-income 
individuals, and we have a high population of the elderly and 
disabled.
    I cannot express how pleased I am to see you here today, 
because we need to address and improve these longstanding 
issues that will touch my State for generations to come. Mr. 
Brown, when working with your State, you mentioned that you 
examined at-risk communities that may not have applied for 
assistance.
    How do we ensure, for example, that the rural at-risk 
communities can receive the proper outreach education with the 
paperwork, the application requirements, and the eligibility 
status?
    Mr. Brown. Thank you, Congresswoman. I think we need to 
look at what the word ``equity'' really means, and it means 
that not all of us need the same amount. It's not equality. 
It's giving what people need.
    There are some communities that need more. And so, when it 
comes to rural communities, a lot of the rules or regulations 
associated with assistance or applying for grants takes a lot 
of work, and they have limited staff and capabilities to do 
that. We need to adjust those rules and regulations to be 
equitable, and to provide the necessary support and funding to 
support those rural communities that have unique issues.
    A lot of the communities are spread out. We've had rural 
communities that needed additional resources in terms of masks 
and hand sanitizers, for instance, related to COVID-19. So 
we've dedicated supplies specifically for these communities, 
and created a program to deliver those right at people's doors 
to----
    Mrs. Miller. Who----
    Mr. Brown [continuing]. Get it right to the most vulnerable 
communities. And so, I really think we need to change our 
practices in order to provide additional resources and support 
to those rural communities.
    Mrs. Miller. Well, who do you think is best positioned to 
do this, and do you think State and local emergency managers 
should have a great role?
    Mr. Brown. Yes. I think State and local emergency managers 
should be given additional resources, and the ability to do 
that, but again, when we look at how to dramatically change the 
issues related to integrating equity in emergency management, 
it takes all levels of Government in order to do that 
effectively, and to stem the current trend of disasters with a 
disproportionate impact on underserved communities.
    Mrs. Miller. OK, Mr. Higdon, 37 of the 55 counties in West 
Virginia are classified as either at-risk or distressed. These 
counties rank in the worst 25 percent of the Nation's counties 
according to economic status indicators. I am so proud of our 
food banks in my State and the work that they do. We also have 
used the National Guard, and we just always are trying to 
improve. From your experience, what lessons could you share 
today that might be helpful to some food banks?
    Mr. Higdon. You know, one of the things we do very well--
and I really appreciate the time, Congresswoman--is 
collaboration. You know when we look at our network, we get 
together often.
    We have a lot of--well, right now--virtual conferences 
happening this week, and we're learning from each other and 
understanding, you know, dealing with food banks that have had 
a staff member test positive, or trying to manage volunteers 
throughout this process, and I think you know, we're all 
figuring everything out as we go, and it's--we're learning on 
the fly, and this is going to--we're continuing to get better, 
and we're going to [inaudible] because of this, unfortunately, 
but you know, really when we look at what's happening, I think 
when I [inaudible] one of those food banks in Missouri, the 
ones we haven't been using as much of the National Guard, and 
have volunteers, we're seeing a decline of volunteers 
[inaudible] that product, and some of our first [inaudible] we 
have logistic limitations with our food pantries, and there's 
not enough of refrigeration and coolers.
    Mrs. Miller. OK, I'm going to have to move on. I'm so 
sorry. I have a question for----
    Mr. Higdon. OK.
    Mrs. Miller [continuing]. Ms. Roth.
    Mr. Higdon. OK.
    Mrs. Miller. From my understanding, FEMA operates a system 
called IPAWS, which is the Integrated Public Alert and Warning 
System. For example, that technology alerts to include not just 
texts but pictures or data or even signals. How do we continue 
to implement and modernize emergency management systems like 
IPAWS for our vulnerable population?
    Ms. Roth. Thank you for that question. I think you know, 
first and foremost, all of the Federal agencies need to be 
providing information in accessible formats. It is their legal 
obligation, and it is imperative that people have information 
in formats that are accessible to them. Information that is not 
accessible is not actionable.
    So for instance, we have been trying for a very long time 
to get NOAA to caption their videos, to audio describe 
emergency information so that people are in a position to make 
decisions about their safety, the safety of their family, and 
their neighborhood. We have some real basic work that's been in 
the law for many, many years, and needs to be implemented. 
IPAWS goes a very long way in modernizing a system that is now 
almost 60 years old, and it really needed to be modernized, and 
it was very important to be inclusive of a variety of 
information delivery systems. For [inaudible] that's being--is 
actionable, we are still going to be able to give the whole 
community information that they can use in times of disaster.
    Ms. Titus. Thank you.
    Mrs. Miller. Thank you. I yield back.
    Ms. Titus. Thank you. Communication does seem to be an 
issue that we need to address, whether it's another language, 
whether it's for sight impaired, whether it's lack of internet 
in rural parts of the State. If you can't get the information 
out, then you can't provide the service, because people don't 
know what's available. We certainly do need to work on that. 
Ms. Norton? I recognize Ms. Norton for 5 minutes.
    Ms. Norton. Thank you very much, Madam Chair. I very much 
appreciate this hearing, which is raising issues that have been 
arching below the surface. My first question is, I believe, for 
Ms. Yentel, because in preparing for this hearing, I was 
surprised to find that there is actually a regulation that says 
unless people were made homeless by a declared disaster, they 
were not eligible for Stafford Act relief. One, I'm wondering, 
is that still the regulation, and two, what happens to homeless 
people who were homeless anyway during a disaster?
    Ms. Yentel. Yes, thank you for the question. FEMA believes 
and implements programs that assume that people who are 
experiencing homelessness prior to a disaster are not eligible 
for any FEMA assistance after the disaster. That's even in the 
case of a person who was experiencing homelessness, maybe 
living in an encampment, and maybe a hurricane destroyed all of 
their belongings. They lost their belongings as a result of the 
hurricane. Still, FEMA would say they are not eligible for 
assistance, and very often, they receive none.
    In some cases, FEMA has taken that so far as to say that 
people who are experiencing homelessness prior to a storm are 
not eligible for emergency shelter during, and that was the 
case in the California wildfires, where people were literally 
in the path of fire and destruction, and FEMA interpreted the 
law to say, you were homeless before the wildfire. You couldn't 
go to emergency shelters for safety.
    Now, it's especially important to note that FEMA is now 
interpreting the law differently, and is finding that due to 
COVID-19, people who were homeless prior to the epidemic can be 
eligible for nonprorated shelters, and it could be more, but it 
shows that they can interpret the law much more broadly than 
they do to apply to all people before and after a disaster.
    Ms. Norton. I appreciate that answer, but Madam Chair, I 
believe that this committee should make clear that the 
regulation, which they--apparently the pandemic has forced them 
to broadly interpret--does in fact interpret this bill with 
respect to homelessness, period.
    Ms. Roth, another surprise I found by looking at what the 
GAO had--has--this is for Ms. Roth. That the registration 
process for--FEMA's legislation process does not ask as an 
initial question directly it--an individual if that individual 
has a disability, or if they would like to request an 
accommodation for completing the question. That surprised me to 
read about that. Could you explain what--if that is true, and 
what should be done about it?
    Ms. Roth. Sure. For many years, that was absolutely the 
case. Happily, it--about 1\1/2\ years ago, the GAO listened to 
those of us who were repeating this concern, and many Members 
of the House and Senate asked the GAO to take a look at this. 
FEMA has subsequently made a small change in the wording of the 
application. This in fact used the disability--it gives some 
additional [inaudible]. But those are very inadequate, and 
there is still no way a person should [inaudible] in 
allocation, FEMA resists it.
    So, if you need an accommodation to get through the 
application process, there is [inaudible] you get a sign 
language interpreter to come out when your house is inspected. 
The only way you can ask for that is to pick up the phone to 
call to ask for the notes to get a sign language interpreter, 
and then maybe a sign language interpreter will be there when 
the inspection is conducted. Having this, I have been told this 
process is too hard, because the Paperwork Reduction Act made 
it--this--required question, and through--whenever we 
[inaudible].
    Ms. Titus. Thank you. Thank you.
    Ms. Norton. Thank you, Madam Chair. Again, if I could ask 
that--that FEMA be required or asked to ask the question. If 
they won't ask the question directly, they aren't likely to get 
a response. Thank you very much.
    Ms. Titus. No, thank you, Ms. Norton. Next, we'll have Mr. 
Palmer.
    Mr. Palmer. Thank you, Madam Chairman. I'm not sure we can 
hear all of Ms. Roth's answers, but I do appreciate her concern 
for the elderly people who are in nursing homes and other 
facilities like that, and I just wonder if your organization 
has made any attempt to investigate or work with Governors and 
other officials where we've had a disproportionately high 
number of deaths.
    I mean, there's five eastern States, Pennsylvania, 
Massachusetts, Connecticut, New Jersey, and New York, that 
account for almost half of all of the nursing home deaths. We 
know the controversy involving Governor Cuomo in New York and 
sending recovering COVID-19 patients back into nursing homes 
and not having them tested. You add in Illinois and Michigan to 
that, and that's well over half of all of the COVID-19 deaths 
in the nursing homes. Has your organization looked into that 
and raised any concerns with any of those administrations in 
those States?
    Ms. Roth. Thank you for that question. We are part of a 
national coalition with folks active in not only every State, 
but just about every congressional district, and we have 
approached the Governors, we've recently--under the leadership 
of the Association of Programs for Rural Independent Living, 
sent a letter to the National Governors Association; we haven't 
yet had a response.
    We had as early as March 3rd sent out a call to action that 
was signed by 192 organizations that called on the Federal 
Government and the State governments to act immediately to 
protect people with disabilities, older adults, other people 
who were identified as having underlying conditions.
    Mr. Palmer. Well, we're not--ma'am, let me cut you off 
there. I just want to make sure that we have a proper focus on 
the States where there's been a disproportionate number of 
elderly die under the administrations of these seven States.
    Ms. Yentel, as you point out in your testimony, community-
based organizations and local businesses are usually positioned 
to know the unique needs of a community they serve, and can 
assist in a number of areas, employment in the area that's been 
hit by a disaster. How do we assure assistance and contracting 
takes this into account, and again, specifically, community-
based organizations and private nonprofits?
    Ms. Yentel. Sure, thank you for the question. If FEMA were 
to require that any kind of contracting tak into account and go 
first to local businesses and especially businesses owned by 
women and people of color and be embedded in the community, 
then that would have the benefit of supporting those local 
small businesses, and also ensuring that the assistance that 
those contracts are providing are actually meeting the local 
need, because those local nonprofits and local businesses will 
be best equipped to know what their neighbors need.
    Mr. Palmer. Both you and Mr. Brown, your testimony 
obviously places a high value on inclusion when it comes to 
disaster relief. Do you have representatives from groups with 
stellar reputations in disaster relief, such as Samaritan's 
Purse, and the Southern Baptist and Catholic charities that are 
faith-based? Are there any things that would preclude utilizing 
those organizations, and what is the greatest importance to 
you, inclusiveness or effectiveness in meeting the needs of 
victims of a disaster?
    Mr. Brown. Thank you, Congressman. I think we cannot be 
effective unless we're inclusive and equitable. So, I think----
    Mr. Palmer. So, you don't think----
    Mr. Brown [continuing]. The hole in emergency----
    Mr. Palmer [continuing]. You can be effective----
    Mr. Brown [continuing]. Management----
    Mr. Palmer [continuing]. You don't think you can be 
effective--you--what I'm asking is, do you have any animus 
toward any organizations like Samaritan's Purse and Southern 
Baptists? We saw that particularly in New York with Samaritan's 
Purse, and certain groups didn't want them there because of 
their beliefs.
    Mr. Brown. I don't have any animus towards any group that 
wants to help, but I think every group that comes in to help 
needs to respect and understand the community and be inclusive 
and equitable, and this is where diversity, equity, inclusion 
training is so important in order to be effective when it comes 
to disaster response, and that's whether it's a Federal, State, 
local, nonprofit, or private entity.
    Mr. Palmer. Well, that 5 minutes went fast.
    Ms. Yentel. And I would just add if I could----
    Mr. Palmer. I think----
    Ms. Yentel. I would just----
    Mr. Palmer [continuing]. My time has expired, ma'am.
    Ms. Yentel. OK.
    Mr. Palmer. You can answer the question though if you'd 
like, Ms. Yentel, I think that----
    Ms. Yentel. OK. I would just--I would just add if I could, 
I don't know the specific organizations, and certainly have no 
animus towards faith-based organizations and their value in 
disaster assistance and recovery. And would just say----
    Mr. Palmer. You're not familiar with Samaritan's Purse or 
the Southern Baptist relief? I mean, they're the largest relief 
organization I think in the country, or they were at one time.
    Ms. Yentel. I know. I'm familiar with the national 
organizations, but not the local chapters, which I thought was 
what you were asking about, but I would just say that 
assistance has to be available to everybody who needs it 
without requirements put on that assistance, and there have 
been cases, especially when it comes to people experiencing 
homelessness, where faith-based organizations may want to put 
additional requirements on the assistance, and in our view, 
that's not acceptable.
    Ms. Titus. Thank you.
    Mr. Palmer. I yield back.
    Ms. Titus. Mr. Carbajal?
    Mr. Carbajal. Thank you, Madam Chair. First, I'd like to 
ask for unanimous consent to insert this statement from the 
Foodbank of Santa Barbara County into the record. My staff will 
also email it appropriately.
    [The statement from the Foodbank of Santa Barbara County 
follows:]

                                 <F-dash>
 Statement of Erik Talkin, Chief Executive Officer, Foodbank of Santa 
   Barbara County, Submitted for the Record by Hon. Salud O. Carbajal
    Since COVID-19 safety measures took effect, the Foodbank of Santa 
Barbara County, California, has seen unprecedented demand--dwarfing 
what we have experienced in previous disasters and economic downturns. 
The Foodbank of Santa Barbara County (FBSBC) has tripled the amount of 
food it normally provides to community members facing food hunger and 
food insecurity, and that demand has yet to decrease.
                       FBSBC's Response to Demand
    <bullet>  Doubled our Safe Home Grocery Delivery to Seniors 
program--from 1,500 before the pandemic to over 3,500 seniors
    <bullet>  Operating 22 new, no-contact drive-thru sites
    <bullet>  Volunteers are packing 6,000 grocery bags per week at our 
50 SAFE food distribution sites
    <bullet>  Assisting our food distribution partners that are seeing 
a more-than-double increase--from 200 families to now over 450 families 
requesting food support
    <bullet>  Added two additional warehouses to our two existing 
warehouses in order to meet demand and accommodate safety protocols for 
staff and volunteers
    <bullet>  Have needed to utilize 20 National Guard personnel to 
help meet demand and replace our traditional volunteer pool that 
largely consists of those now classified as a COVID-19 vulnerable 
population
      <bullet>  Guard presence has been decreasing each month and will 
likely be phased out entirely by September 1, regardless of whether 
community need has declined.
    <bullet>  Have led a community effort over the past 18 months to 
create a Disaster Feeding Plan in collaboration with disaster and 
emergency response agencies in the government, healthcare, education, 
and nonprofit sectors. Such a plan ensures everyone in Santa Barbara 
County can be fed in case of a large-scale disaster
                      FEMA Support and Challenges
    State and federal support has been critical in helping to replace 
food donations that, for various reasons, have decreased 
significantly--and to meet increased demand. Emergency food boxes via 
TEFAP, increased SNAP benefits, and the potential for food purchase and 
distribution reimbursement to our county through FEMA Coronavirus 
Pandemic Public Assistance funds have all increased the likelihood that 
community members in need of food can receive it.
    However, the FEMA component, particularly around a lack of 
coordinated response and guidance, has created significant challenges 
for food banks--particularly those in California, including ours.
Issues with Reimbursement Criteria
    Certainly, the COVID-19 pandemic is a medical emergency, but it 
absolutely is also an economic crisis affecting millions of Americans 
who lost their jobs due to the COVID-19-required shut downs--to be 
further exacerbated if unemployment benefits are not extended beyond 
July 31, 2020. Food banks across the country have seen the number of 
people requiring food assistance rise exponentially and continue at 
those extreme levels since March. Despite this, FEMA does not allow for 
reimbursement of food purchase and distribution (FPD) expenses tied to 
feeding people who need food assistance singularly due to economic 
necessity.
    As currently required by FEMA (through the conduit of the 
California Governor's Office of Emergency Services--CalOES), food banks 
can only request reimbursement for services for those who have tested 
positive for COVID-19, are presumed positive and awaiting a result, or 
who under CDC guidance are at high risk for the negative health impacts 
of the virus. Guidance from FEMA on exactly which populations are 
eligible for reimbursement are vague to the point that county 
partners--the entities through which food banks must apply for 
reimbursement--are afraid to risk submitting a claim that will be 
rejected. Many counties have chosen to forego attempts to secure FEMA 
reimbursement, altogether.
Apparent Inconsistencies Across FEMA Regions
    FEMA has not communicated clearly and consistently about the degree 
to which FPD expenses are reimbursable. It appears that in some regions 
of the country, FEMA has different interpretations and allowances for 
the reimbursement of those expenses. It has taken months for us in 
California to figure out whether traditional food bank activities and 
expenses are eligible for FEMA reimbursement at all. Only now, after 
months of providing services do we have some semblance of clarity on 
the matter, but questions remain.
    We are told by CalOES that FEMA Region 9 staff have communicated a 
prohibition on reimbursement of FPD expenses that are tied to serving 
anyone who receives any other form of government food assistance (i.e. 
duplication of benefits).
    FEMA's interpretation that this `duplication' means anyone who 
receives FEMA reimbursed food cannot receive any other federally-funded 
food aid--including SNAP--has resulted in significant delay or the 
complete derailment of food banks' efforts to access this much-needed 
resource.\1\ A reasonable person likely would interpret that language 
to mean no duplication of federal funding for the same food (e.g. A 
TEFAP/USDA food box not also paid for by FEMA).\2\ Yet, CalOES reports 
that FEMA has still not provided clarification on the intent of the 
language.
---------------------------------------------------------------------------
    \1\ Unfortunately, this interpretation is reflected in a CalOES 
document on the issue: ``Food Purchase & Distribution Eligible for 
Public Assistance.''
    \2\ This interpretation is neither supported by current policy nor 
underlying regulations or statute: FEMA Policy FP 104-010-03; FEMA PA 
Guide; Stafford Act SEC 312 (p.18).
---------------------------------------------------------------------------
Consequences of Such Inconsistencies in Language
    The economic crisis from this pandemic is extreme and will be long-
lasting. Government assistance programs alone are not enough for people 
to survive. Entire families are enduring the economic calamity of this 
pandemic.
    This interpretation of ``duplication'' places a significant 
administrative burden on food banks to safely collect the data 
necessary to ensure that each person served does not receive government 
food assistance. It also presents dignity issues for recipients as well 
as staff and volunteers. No-one should be shamed for being hungry.
    We have thousands of people showing up at distribution sites in 
Santa Barbara County--lines of cars in some cases that shut down 
streets and require police presence for traffic control. We have to get 
people in and out as quickly as possible in order for our small crews 
of volunteers and staff to stay safe and get through the line 
efficiently. It has required enormous additional effort to figure out a 
system in which volunteers can safely interrogate every person who 
shows up for food assistance to a) determine whether they are receiving 
any of the various safety net benefits and b) log those 
interactions.\3\
---------------------------------------------------------------------------
    \3\ See the LA Times article on how the Great Plates program 
excludes low-income seniors, as a result of FEMA's policy 
interpretation: https://www.latimes.com/california/story/2020-06-20/
senior-meals-program
---------------------------------------------------------------------------
                           Clarity Is Needed
    People who don't need food support, don't show up at food bank 
distribution sites. And the people who do show up, truly need the help. 
As a country, in a disaster like this with so many millions of people 
suffering, we should take it as a given that feeding people who are 
hungry and don't have food should be a national priority worthy of as 
much reimbursementfrom FEMA as possible.
    Whether this requirement is a regional interpretation or one that 
FEMA supports nationwide, it's deserving of review and clarification. 
Feeding hungry people is a threshold value that we, as Americans, 
should embody and reflect in our federal response to disaster. Barring 
counties and food banks from receiving reimbursement for food given to 
a senior who also gets a meals on wheels delivery, or a family that is 
getting the maximum SNAP benefit but it still not able to feed the full 
family, is unconscionable. Such a requirement is antithetical to what 
food banks stand for and it also goes against how our country should 
treat its residents during times of crisis.
    We can and must do better.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

           California Governor's Office of Emergency Services

     Food Purchase and Distribution Eligible for Public Assistance

                       Frequently Asked Questions

                                overview
    The April 11, 2020 FEMA policy for Purchase and Distribution of 
Food Eligible for Public Assistance (FP 104-010-03) policy defines the 
framework, policy details, and requirements for determining eligible 
work and costs for the purchase and distribution of food in response to 
the COVID-19 Public Health Emergency to ensure consistent and 
appropriate implementation across all COVID-19 emergency and major 
disaster declarations.
                   frequently asked questions (faqs)
Who can apply for the reimbursement?
    State, local, tribal or territorial (SLTT) governments are eligible 
to apply for FEMA Public Assistance (PA) under this policy. A SLTT 
entity may enter into an agreement or contract with a local private 
organization, including Private Non-profit organizations such as a food 
bank, to provide the food purchase and distribution in response to the 
COVID-19 pandemic emergency. A Memorandum of Understanding (MOU) 
template is available to the SLTT to use with private non-profit 
organizations.
    The SLTT should apply for Public Assistance as soon as possible and 
begin working to submit their Streamlined Project Application through 
FEMA's Grants Portal to request Public Assistance (https://
grantee.fema.gov/) and to submit the Streamlined Project Application, 
which also has step by step instructions on how to move through the 
application process.
Can food be purchased and distributed for any purpose?
    Unfortunately, no. For FEMA reimbursement purposes, the SLTT must 
demonstrate the need for the purchase and distribution of food due to 
the COVID-19 pandemic emergency. Examples of need includes decreased 
mobility of the population due to government actions (i.e., Stay-at-
Home Order) that restrict certain populations from accessing food, 
significant increase or atypical demand for food resources, and/or 
disruption on the food supply chain in the local area.
Which populations are eligible to receive food under FP 104-010-03?
    Population affected by the COVID-19 Pandemic is defined by those 
who contracted or were exposed to COVID-19 (as documented by a medical 
professional), or those deemed high-risk according to the CDC. In 
addition, the appropriate local Public Health Official is able to 
identify additional populations in their local jurisdictions that may 
be eligible based on their inability to access food as a result to the 
COVID-19 pandemic emergency.
    The FEMA PA policy requires any food purchased and distributed 
under another state or federally funded program is not eligible for 
reimbursement.
What types of costs are reimbursable?
    The policy allows costs associated with purchasing, packaging and 
preparing food and delivering food when the severity of conditions 
disallow easily accessible food for purchase for the defined eligible 
populations. Leasing distribution and storage space, vehicles and 
necessary equipment related to the purchase and distribution of the 
food are eligible. Non-food related commodities are not covered under 
this special Food Purchase and Distribution policy.
    Legally responsible SLTT governments may enter into formal 
agreements or contracts with private organizations, including private 
nonprofit (PNP) organizations, such as food banks, to purchase and 
distribute food when necessary as an emergency protective measure in 
response to the COVID-19 pandemic emergency. In these cases, PA funding 
is provided to the legally responsible SLTT government entity, which 
would then reimburse the private organization for the cost of providing 
those services under the agreement or contract.
What documentation is required?
    Examples of documentation include population numbers of those 
impacted by COVID-19 in the jurisdiction, the percent increase in 
demand for food assistance by the private or PNP organization due to 
the COVID-19 emergency, and the various state and local funding sources 
received by the private or PNP organization for food assistance. 
Additionally, the SLTT must document the number of individuals served, 
length of time the services are provided and needed, costs per 
individual for service delivery, and ``overhead'' costs such as 
transportation. Documentation should match the specific parameters 
defined by the SLTT who is eligible to receive food assistance under 
this policy.
    The SLTT should work with their Cal OES/FEMA Point of Contact to 
determine the most reasonable and acceptable type and level of 
documentation needed.
How is this policy different from Great Plates Delivered Program?
    The Food Purchase and Distribution FEMA Policy eligible for public 
assistance is an adaption of the standard FEMA PA process for the 
COVID-19 pandemic emergency. The additional guidelines provided adapt 
the regular program to the current COVID-19 circumstance. Great Plates 
Delivered is a special program to serve a specific portion of the 
population. No individual enrollment is needed under this policy. Any 
services provided under the Food Purchase and Distribution should not 
overlap with Great Plates Delivered. Populations receiving food 
assistance under Great Plates Delivered are ineligible for food 
assistance under this FEMA PA policy.
  Coronavirus (COVID-19) Pandemic: Purchase and Distribution of Food 
                     Eligible for Public Assistance

                       FEMA Policy FP 104-010-03

                               background
    Under the President's March 13, 2020, COVID-19 emergency 
declaration \1\ and subsequent major disaster declarations for COVID-
19, state, local, tribal, and territorial (SLTT) government entities 
and certain private non-profit (PNP) organizations are eligible to 
apply for assistance under the FEMA Public Assistance (PA) Program. 
This policy is applicable to eligible PA applicants only and is 
exclusive to emergency and major disaster declarations for the COVID-19 
pandemic.
---------------------------------------------------------------------------
    \1\ Proclamation 9994 of March 13, 85 FR 15337 (Mar. 18, 2020); see 
also www.fema.gov/news-release/2020/03/13/covid-19-emergency-
declaration.
---------------------------------------------------------------------------
    As of April 9, 2020, 51 states and territories had ``stay at home'' 
orders in place.\2\ The population at high-risk for severe illness from 
COVID-19 includes people 65 years and older and people of any age who 
have serious underlying medical conditions, including people with 
chronic lung disease or moderate to severe asthma, people with serious 
heart conditions, people who are immunocompromised (e.g., those 
undergoing cancer treatment, smokers, those with HIV or AIDs), and 
people with severe obesity, diabetes, or liver disease, and people 
undergoing kidney dialysis.\3\ Due to the impact of the COVID-19 
pandemic, there may be areas where it will be necessary as an emergency 
protective measure to provide food to meet the immediate needs of those 
who do not have access to food as a result of COVID-19 and to protect 
the public from the spread of the virus.
---------------------------------------------------------------------------
    \2\ https://www.nga.org/coronavirus/#states
    \3\ https://www.cdc.gov/coronavirus/2019-ncov/need-extra-
precautions/groups-at-higher-risk.html.
---------------------------------------------------------------------------
                                purpose
    This policy defines the framework, policy details, and requirements 
for determining eligible work and costs for the purchase and 
distribution of food in response to the COVID-19 Public Health 
Emergency to ensure consistent and appropriate implementation across 
all COVID-19 emergency and major disaster declarations. Except where 
specifically stated otherwise in this policy, assistance is subject to 
PA Program requirements as defined in Version 3.1 of the Public 
Assistance Program and Policy Guide (PAPPG).\4\
---------------------------------------------------------------------------
    \4\ The current version of the Public Assistance Program and Policy 
Guide (PAPPG), Version 3.1, is available on the FEMA website at 
www.fema.gov/media-library/assets/documents/111781.
---------------------------------------------------------------------------
                               principles
    A.  FEMA will provide flexibility to applicants to protect the 
health and safety of impacted communities in response to the COVID-19 
Public Health Emergency through the purchase and distribution of food.
    B.  FEMA will responsibly implement this policy and any assistance 
provided in a consistent manner through informed decision-making and 
accountable documentation.
    C.  FEMA will engage with interagency partners, including the U.S. 
Department of Agriculture (USDA), the U.S. Department of Health and 
Human Services (HHS), and U.S. Department of Housing and Urban 
Development (HUD), to ensure this assistance does not duplicate other 
available assistance. Engagement with USDA will include coordination 
with USDA's efforts on food bank response.
                              requirements
A. Applicability
Outcome: To establish the parameters of this policy and ensure it is 
implemented in a manner consistent with program authorities and 
appropriate to the needs of the COVID-19 Public Health Emergency.
    1.  This policy applies to:
      a.  All Presidential emergency and major disaster declarations 
under the Robert T. Stafford Disaster Relief and Emergency Assistance 
Act (Stafford Act), as amended, issued for the COVID-19 Public Health 
Emergency.
      b.  Eligible PA applicants under the COVID-19 emergency 
declaration or any subsequent COVID-19 major disaster declaration.
      c.  This policy does not apply to any other emergency or major 
disaster declaration.
B. General Eligibility Considerations
Outcome: To define the overarching eligibility framework for purchasing 
and distributing food in response to COVID-19 declarations.
    1.  Legal Responsibility.
      a.  To be eligible for PA, an item of work must be the legal 
responsibility of an eligible applicant.\5\ Measures to protect life, 
public health, and safety are generally the responsibility of state, 
local, tribal, and territorial (SLTT) governments.
---------------------------------------------------------------------------
    \5\ 44 CFR Sec. 206.223.
---------------------------------------------------------------------------
      b.  Legally responsible SLTT governments may enter into formal 
agreements or contracts with private organizations, including private 
nonprofit (PNP) organizations such as food banks, to purchase and 
distribute food when necessary as an emergency protective measure in 
response to the COVID-19 Public Health Emergency. In these cases, PA 
funding is provided to the legally responsible government entity, which 
would then reimburse the private organization for the cost of providing 
those services under the agreement or contract.
    2.  Work Eligibility.
      a.  In accordance with sections 403 and 502 of the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act, 42 U.S.C. 5121 
et seq. (the ``Stafford Act''), emergency protective measures necessary 
to save lives and protect public health and safety, including the 
purchase and distribution of food, may be reimbursed under the PA 
program.
      b.  When necessary as an emergency protective measure, eligible 
work related to the purchase and distribution of food in response to 
the COVID-19 pandemic includes:
        i.  Purchasing, packaging, and/or preparing food, including 
food commodities, fresh foods, shelf-stable food products, and prepared 
meals;
        ii.  Delivering food, including hot and cold meals if 
necessary, to distribution points and/or individuals, when conditions 
constitute a level of severity that food is not easily accessible for 
purchase; and
        iii.  Leasing distribution and storage space, vehicles, and 
necessary equipment.
      c.  Several indicators may demonstrate the need to purchase and 
distribute food in response to the COVID-19 pandemic:
        i.  Reduced mobility of people in need due to government-
imposed restrictions, including ``stay-at-home'' orders, which prevent 
certain populations from accessing food;
        ii.  Marked increase or atypical demand for feeding resources; 
or
        iii.  Disruptions to the typical food supply chain within a 
given jurisdiction.
      d.  Populations in an impacted community that may need the 
provision of food as a lifesaving and life-sustaining commodity, may 
include:
        i.  Those who test positive for COVID-19 or have been exposed 
to COVID-19, but who do not require hospitalization; \6\
---------------------------------------------------------------------------
    \6\ Any collection or handling of information with regard to the 
health status of individuals must be compliance with applicable privacy 
laws, including the Health Insurance Portability and Accountability Act 
of 1996. FEMA will not be collecting any health information.
---------------------------------------------------------------------------
        ii.  High-risk individuals, such as people over 65 or with 
certain underlying health conditions; \7\ and
---------------------------------------------------------------------------
    \7\ The distribution of supplies and other relief and assistance 
activities shall be accomplished without discrimination on the grounds 
of race, color, religion, nationality, sex, age, disability, English 
proficiency, or economic status. Section 308 of the Stafford Act, 42 
U.S.C. Sec.  5151, as amended.
---------------------------------------------------------------------------
        iii.  Other populations based on the direction or guidance of 
the appropriate public health official.
    3.  Cost Eligibility.
      a.  All claimed costs must be necessary and reasonable in order 
to respond to the COVID-19 Public Health Emergency and are subject to 
standard program eligibility and other Federal requirements, including 
the prevailing cost-share for the respective declaration.\8\
---------------------------------------------------------------------------
    \8\ In certain circumstances, the Regional Administrator may 
require the submission of an internal control plan, pursuant to 2 CFR 
Sec. 200.303, in particular when the SLTT government is implementing 
residential delivery of meals to targeted groups of individuals who are 
need of such assistance.
---------------------------------------------------------------------------
      b.  Applicants must follow applicable cost principles and 
procurement requirements.\9\
---------------------------------------------------------------------------
    \9\ See. COVID-19 Guidance: Procurements Under Grants During 
Periods of Exigent or Emergency Circumstances, March 17, 2020. (https:/
/www.fema.gov/media-library/assets/documents/186350.)
---------------------------------------------------------------------------
        i.  Costs claimed by SLTT governments must be reasonable 
pursuant to Federal regulations and Federal cost principles.\10\ A cost 
is considered reasonable if, in its nature and amount, it does not 
exceed that which would be incurred by a prudent person under the 
circumstances prevailing at the time the decision was made to incur the 
cost.
---------------------------------------------------------------------------
    \10\ 2 CFR Sec. 200.404; OMB Circular 87.
---------------------------------------------------------------------------
        ii.  States and territorial governments are required to follow 
their own procurement procedures, comply with 2 CFR Sec. 200.322, and 
include any clauses required by 2 CFR Sec. 200.326. Local and tribal 
governments must follow their own procedures and comply with 2 CFR 
Sec. 200.318.
        iii.  In accordance with the March 17, 2020, memorandum from 
David Bibo, Acting Associate Administrator for the Office of Response 
and Recovery, and Bridget E. Bean, Assistant Administrator for the 
Grants Program Directorate, for the duration of the Public Health 
Emergency, as determined by U.S. Department of Health and Human 
Services (HHS), local governments, tribal governments, PNPs, and other 
non-state entities may proceed with new and existing non-competitively 
procured contracts. The March 17, 2020 memorandum and other information 
related to procurement specific to COVID-19 declarations are available 
on the FEMA website at www.fema.gov/media-library/assets/documents/
186350.
      c.  Pursuant to Section 312 of the Stafford Act, FEMA is 
prohibited from providing financial assistance where such assistance 
would duplicate funding available from another program, insurance, or 
any other source for the same costs.\11\
---------------------------------------------------------------------------
    \11\ 42 U.S.C. Sec.  5155.
---------------------------------------------------------------------------
    4.  Time Limitations.
      a.  FEMA may provide funding for an initial 30-day time period.
      b.  SLTT governments may request a 30-day time extension from the 
Regional Administrator (RA) with documentation showing continued need.
      c.  Work may not extend beyond the duration of the COVID-19 
Public Health Emergency, as determined by HHS.
                                                Keith Turi,
                     Assistant Administrator, Recovery Directorate.
                                                    April 11, 2020.
                         additional information
Review Cycle
    This policy will be reviewed periodically during the COVID-19 
Public Health Emergency. The Assistant Administrator of Recovery is 
responsible for authorizing any changes or updates. This policy will 
sunset with the closure of the national emergency for COVID-19 and any 
subsequent major disaster declarations for COVID-19.
Authorities and References
Authorities
    <bullet>  Robert T. Stafford Disaster Relief and Emergency 
Assistance Act, 42 U.S.C. Sec.  5121, et seq., as amended
    <bullet>  Title 44 of the Code of Federal Regulations, Part 206, 
Subparts G and H

References
    <bullet>  Public Assistance Program and Policy Guide, Version 3.1
Monitoring And Evaluation
    FEMA will closely monitor the implementation of this policy through 
close coordination with regional and field staff, as appropriate, as 
well as interagency partners and SLTT stakeholders. Various planning 
calls are conducted daily related to COVID-19 declarations. 
Additionally, FEMA has set up a mailbox for COVID-19 questions and 
concerns at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="61020e170805505811000e1104130015080e0f122107040c004f0509124f060e174f">[email&#160;protected]</a>
Questions
    Direct questions to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6e627b64693c347d6c627d687f6c796462637e4d6b68606c2369657e236a627b23">[email&#160;protected]</a>

    Mr. Carbajal. Mr. Higdon, first of all, I want to thank you 
and everyone else on this panel for the incredible work that 
you have done to help those most in need, and remember the 
145,000 lives that have been lost during this pandemic.
    As this public health crisis continues, we are seeing more 
and more people lose their jobs and struggle to put food on the 
table. The Hamilton Project estimates that rates of households 
facing food insecurity have effectively doubled. I know the 
administration has taken some steps to address some of these 
challenges.
    For example, earlier this year, FEMA issued guidance that 
made some emergency dollars available to feed hungry Americans. 
Has this been enough, and has the guidance been clear? And two, 
how can we partner with you and other food banks across the 
country to make sure no child or senior citizen goes hungry 
because of language or mobility barriers?
    Mr. Higdon. Thank you, Congressman. I actually asked for 
feedback from the food bank in Santa Clara. It seems like 
especially in California there was some miscommunication in 
terms of FEMA providing Public Assistance and then claiming any 
kind of food distribution expense reimbursement, and whether 
families would, whether they were SNAP participants or received 
Federal commodities, or whether they would be eligible to 
receive some of the food purchased through Federal assistance 
funds. So, I think there could be some better communication and 
clarity on how some of those programs work.
    I know here in Missouri we have a lot of confusion in terms 
of, we heard that you had to sign an MOU with a local 
government entity to receive reimbursement for food expense, 
but there really wasn't clear guidance. So, we were trying to 
see if the State emergency management agency would actually do 
a statewide partnership with our food bank State association, 
and that never really came to fruition.
    There's a lot of uncertainty as to whether we can claim 
reimbursement or what expenses are eligible and how it ties to 
other Federal programs that we operate. So, we do have one MOU 
with the local county government, but haven't really tried to 
seek reimbursement for any of that. So I think there could be 
better clarity in terms of what's happening, and really my 
concerns are what's going to happen long term with some of 
these other--you know, the CFAP program is going to end at some 
point, and pandemic SNAP is going, and other benefits are going 
to start to run out, and there's still a lot of people out of 
work, and unemployment is still going to be high, so as those 
people lose some of the assistance they're receiving, are they 
going to need additional assistance.
    So, you know, we are trying to best plan and prepare for 
the long term, and right now, we're getting a lot of support. 
It's hard to tell what the future needs are going to be, and 
how that response is going to be sustained.
    Mr. Carbajal. Well, I hope in the future when we're able to 
we can reflect back and enumerate all these challenges so that 
we could work to resolve them so that we can avoid these 
challenges in the future.
    Ms. Yentel, thank you for your testimony today. You know 
firsthand the barriers Latinos, other communities of color, 
those with disabilities, and seniors face during disasters.
    In my district, we learned this when a debris flow killed 
23 people and nearly half of them were immigrants. There were 
language barriers, equity issues, and redtape that survivors 
had to navigate. From your perspective, what are some 
recommendations this committee can help implement to address 
equity issues and reduce the amount of redtape families face in 
trying to access the help they need following a disaster? And 
two, are there changes we can make to FEMA to ensure we are 
learning from past disasters?
    Ms. Yentel. Yes, thank you for the question. So I think two 
of the most important things that you can do immediately to 
eliminate some of the challenges that low-income people face 
when they're trying to access resources is, one, require that 
FEMA provide full transparency for its programs to have 
publicly available information, what programs are available, 
and who is eligible, how they determine eligibility, how they 
determine acceptance or denial, and what the process for 
appeals is. It's shocking to me that this basic information is 
not available from FEMA now.
    In fact, the National Low Income Housing Coalition 
submitted an FOIA request 1\1/2\ years ago asking for some of 
this very basic application information, and we still have not 
received it, and the fact that that information is not publicly 
available makes it very difficult for low-income people who are 
denied assistance to know why they were denied, and to have a 
process in place for them to appeal that denial, and ultimately 
get the assistance to which they are entitled.
    Another tremendous challenge for low-income people, 
especially in rural areas, especially people of color, is this 
title documentation issue, and FEMA has been unnecessarily 
rigid for decades on requiring this formal title documentation 
from low-income homeowners in order for them to receive the 
assistance, even in communities like Puerto Rico, or like in 
many black and brown rural communities where informal 
documentation is what's typically used and accepted in all 
other cases. As an example in Puerto Rico, 77,000 low-income 
homeowners were denied assistance. Many of them have still not 
received assistance because they don't have formal title, which 
the island of Puerto Rico does not require for any other 
purpose, and FEMA was willing to work with some advocates in 
Puerto Rico, especially Ayuda Legal, to create what they called 
a sworn declaration so that Puerto Ricans could prove that they 
owned their home. But now FEMA has refused to use that sworn 
declaration in any meaningful way. They won't post it on their 
website. They won't send it to people who were denied 
assistance.
    So, these are two really essential and I think very basic 
things that the committee can and should require FEMA to do: 
full transparency of program, data, and outcomes, and to fix 
the title documentation requirements. Other things to consider, 
that the committee and Congress should require FEMA to 
implement the Disaster Housing Assistance Program, or DHAP.
    Both Republican and Democratic administrations in the past 
have pointed out this program as a best practice for longer 
term housing needs for low-income renters, and FEMA under this 
administration has consistently refused to use this program to 
the detriment and harm of low-income communities.
    Mr. Carbajal. Thank you, Ms. Yentel. My time has expired. I 
yield back.
    Ms. Titus. Thank you. Mr. Pence?
    Mr. Pence. Chairwoman Titus and Ranking Member Katko, thank 
you for holding this hearing, and thank you to the witnesses 
for being here today. I would also like to thank FEMA for the 
incredible support they have shown to local and State 
governments during the COVID-19 pandemic. The most recent 
numbers show that FEMA has delivered over 1.5 million N95 
respirators, 860,000 gloves, 187 face shields, and 440,000 
surgical masks to frontline workers in my home State of 
Indiana.
    In my district, we're proud to have a Second Harvest Food 
Bank in Delaware County. As the region's largest hunger relief 
organization, Second Harvest Food Bank has worked with local, 
State, Federal, and corporate partners to ensure that all 
Hoosiers have access to nutritious meals. Mr. Higdon, as you 
mentioned in your testimony, FEMA supported the delivery of 
meals for approximately 6 weeks as donations decreased at this 
facility in Muncie.
    Overall, FEMA has obligated to our State over $55.5 million 
in Federal support for Hoosiers in need, mainly in at-risk 
communities. Back in April, several of our local food pantries 
joined forces at Lucas Oil Stadium in Indianapolis to 
distribute 40,000 meals per week to hungry Hoosiers, and this 
would not have been possible without this critical FEMA 
funding. While COVID-19 presents unique challenges, I applaud 
FEMA for swiftly moving resources to protect our public health 
and safety. Thank you, FEMA, for being there and showing up 
during the pandemic, and Madam Chair, I yield back.
    Ms. Titus. Thank you, Mr. Pence. Is Mr. Garamendi with us? 
No? OK, well then we'll go to Mr. Garcia.
    Mr. Garcia of California. Thank you, Madam Chair and 
Ranking Member Katko for that very warm welcome. I appreciate 
it. I'm honored and humbled to be here in this committee during 
this very important time in our Nation's history. I want to 
thank you all for your collective testimony. As a Federal 
agency, obviously FEMA has a lot of opportunity to get better. 
It has a lot of opportunity to improve its efficacy, to improve 
its efficiencies, and also to improve itself and evolve with 
more diversity inclusion.
    So this is a very important topic. It's a topic that we all 
benefit from. It's not just the individuals, but the 
organization and the country as a whole when we involve more 
people, when we have more diversity not only in demographics 
but also in thoughts. So, a very noble topic to be addressing 
today.
    Mr. Brown, I look forward to your leadership in the 
emergency management position that you're in. As a minority 
myself, both in the military and in the corporate world and now 
in Congress, I recognize the value of having role models to 
look up to, those to inspire us, to also develop new talent, to 
advocate and promote within, and I have no doubt that you'll be 
successful in that matter.
    Mr. Higdon, thank you for leading this noble cause. I 
believe personally that we can't solve all of our problems on 
the back of the Federal Government, State, or local 
governments, that it does require the nonprofits to be 
organized, to be effective, to raise money, and also be engaged 
in local communities, and your partnership with the National 
Guard is a testimony to a very successful effort, and I look 
forward to learning more about the organization, but I do 
believe firmly that the nonprofits, churches, and the charities 
in our communities are just as effective in many cases as 
Government entities. So, I applaud your efforts there.
    Ms. Roth, I'd just like to simply echo Mr. Palmer's earlier 
comment about the decision by many of our Governors. I come 
from California where roughly 40 percent or so--nearly half of 
the deaths in our State were related to a decision by our 
Governor to place senior citizens back in nursing homes after 
they were already either diagnosed or had symptoms of COVID-19.
    I resonate with the comment that you made that the folks in 
nursing homes aren't there because they're old. They're there 
because they have disabilities, and it's probably aggravated by 
their age or mental health challenges that they also have.
    So that end, and we'll do our research as well, and we'll 
continue to press, but I would love to have your support and 
partnership in our pursuit to hold the Governors accountable 
for these decisions. They really did make decisions that cost 
the lives of many folks that didn't need to die.
    So I look forward to not only offering my support for your 
organization, but also soliciting your support as we look into 
these decisions that were made. I'll get to my question now. 
It's pretty simple, and frankly it's a yes or no question. With 
all Federal agencies, like I said, we have opportunities to get 
better. With all nonprofit organizations or any organization 
for that matter, we have opportunities to get better.
    Are you all taking the time to document the lessons learned 
that you're experiencing as we all collectively navigate 
through these uncharted waters called COVID, this will probably 
unfortunately not be the last time we have to deal with 
something like this, so my question--and it really is just a 
yes or no answer, are you taking the time to make sure that 
you're evolving your respective organizations, and making 
observations of the organizations around you and also of those 
that you partner with to make sure that next time we're faced 
with this, we're baking in these new lessons learned, we're 
evolving as a country, as an organization, and as Americans, 
and I guess Mr. Brown, we'll start with you.
    Mr. Brown. Yes. Yes, Congressman. Baking in the lessons 
learned, I think they'll help us with the next disaster, but 
they also will help us with recovery, because it's very 
important that we recover equitably from this unprecedented 
disaster as well.
    Mr. Garcia of California. Thank you. Mr. Higdon?
    Mr. Higdon. Yeah. Absolutely we are. Thank you.
    Mr. Garcia of California. Thank you. Ms. Roth?
    Ms. Roth. Thanks for the question. The Partnership for 
Inclusive Disaster Strategies, who I am very involved with, has 
been working on a report. We don't call them lessons learned 
reports, because apparently we're not learning too many 
lessons. So these are after-action reports that are full of 
recommendations.
    The Partnership for Inclusive Disaster Strategies has been 
bringing folks together from across the country every single 
day, 7 days a week, since February 28th, and we've documented 
every bit of what we've been doing together. Hundreds and 
hundreds of disability organizations have been working together 
to try to make the changes that we can't quite seem to get the 
Government to make.
    Mr. Garcia of California. Yeah, and that's the crux of the 
issue that I'm getting at here, and I look forward to seeing 
all of the data on the backside, and Ms. Yentel, I'm assuming 
that you are doing the same?
    Ms. Yentel. We are, as we have for every disaster since 
2005, and documenting the evidence of what's working and what's 
not. Our challenge is that FEMA rarely implements or takes into 
account any of the best practices or lessons learned, and 
that's where I think we need Congress to really require that 
they better embed the lessons learned so that moving forward we 
don't continue to make the same mistakes.
    Mr. Garcia of California. Thank you all. We'll stay in 
contact. Madam Chair, thank you.
    Ms. Titus. Thank you. And it's interesting we've heard 
several of the States mentioned in the need to do better in 
nursing homes. We haven't heard about Florida, Texas, and 
Arizona, however, who also have a large number of seniors, and 
they have the highest rates of the COVID, so let's keep in mind 
how we might be able to help those populations as well. We'll 
now go to Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Madam Chair, and thank you 
all the members of the panel. I need to first, Chairwoman, ask 
unanimous consent that the report ``Preserving Our Freedom: 
Ending Institutionalization of People with Disabilities During 
and After Disasters'' issued by the National Council on 
Disability be entered into the record.
    Ms. Titus. Without objection.
    [The report follows:]

                                 <F-dash>
Report, ``Preserving Our Freedom: Ending Institutionalization of People 
with Disabilities During and After Disasters,'' May 24, 2019, National 
   Council on Disability, Submitted for the Record by Hon. Jenniffer 
                             Gonzalez-Colon
    The 107-page report is retained in committee files and is available 
online at https://ncd.gov/publications/2019/preserving-our-freedom.

    Miss Gonzalez-Colon. Thank you, Madam Chair. And now, 
having said that, I need to ask Ms. Roth, will you say that 
this report is an accurate assessment, or better to put it, a 
comprehensive best practices for care for individuals with 
disabilities during and post-disaster?
    Ms. Roth. In the interest of full disclosure, I was the 
principle investigator for that report.
    Miss Gonzalez-Colon. OK.
    Ms. Roth. And yes.
    Miss Gonzalez-Colon. I assume the answer is yes.
    Ms. Roth. I--this----
    Miss Gonzalez-Colon. The reason I ask this question, and in 
the case of Puerto Rico specifically, 38 percent of the island 
are--we have people with disabilities, and that's 12 percent 
higher than the average in the Nation. In having been affected 
by hurricanes, earthquakes, and now the pandemic, this 
population has been affected directly many times, and that was 
the reason of my question. What are the top challenges you see 
for seniors? Now, I'm adding seniors, and people with 
disabilities following a disaster. Can you name five of them 
off the top of your head?
    Ms. Roth. Greatest challenges are, number one, personal 
assistance services, home- and community-based services to keep 
people out of institutions. Number two, failures of monitoring 
and enforcing the laws that were designed to protect the rights 
of all of these people. Number three, accessible, affordable 
housing that makes it possible for people to be able to protect 
themselves, and that accessible, affordable housing needs to be 
hardened so that people can stay safe in disasters. Number 
four, we must engage the disability organizations as partners, 
the aging organizations as partners.
    FEMA had not had a meeting with national disability leaders 
since 2017. They had a first meeting with us last week, 
celebrating the Americans with Disabilities Act, but still 
couldn't tell us how FEMA is going to assist us in our call to 
get people relocated from dangerous congregate facilities.
    So, we were glad to finally bring FEMA to the table, but we 
need--so, number five, and in some ways that's number one, we 
need an immediate directive of guidance to the States of how 
they can take actions to relocate people to save their lives--
--
    Miss Gonzalez-Colon. OK.
    Ms. Roth [continuing]. Right now, using the category B 
emergency protective measures that exist.
    Miss Gonzalez-Colon. Thank you, Ms. Roth. The issue in the 
case of Puerto Rico, we're talking about all the natural 
disasters we just mentioned, but currently, FEMA has, with 
COVID, over 600 open disasters, and is preparing for potential 
disasters.
    In the case of the eastern coast, we're in the hurricane 
season as well. So that means that all the resources may be 
spread thin, and putting more requirements to FEMA also means 
that all those new regulations may imply more difficulties for 
the Territories and the States for applying for assistance, and 
we saw that during the last 2 years, and I need to say that in 
the case of Puerto Rico, FEMA has been doing an enormous and 
big change in how it works in the beginning.
    Now it's a direct communication with the municipalities, 
and a lot of those issues have been solved. Still, there are a 
lot of challenges on the island regarding housing, the titles, 
and many others. So, I know my time is near to expire, but I 
just need to say to Mr. Higdon, there are 3.2 million 
constituents in my district that are serviced by just 1 food 
bank, the Puerto Rican food bank.
    We managed to include some provisions during the 
supplemental, but we do not participate in SNAP. We participate 
in just NAT, which is the program for Nutritional Assistance in 
the Territories. So, how--and my last question, how can 
organizations like yours be boosted, have more sources or 
provisions to enable more people to use it instead of having 
the Government doing that?
    Mr. Higdon. That's a great question, and I did hear back 
from the food bank in Puerto Rico, and just said FEMA's been 
doing a tremendous job supporting them through the hurricane 
and the earthquake, and you know, when we look at what the 
Federal Government can do with SNAP assistance, it really, when 
you look at our service territory, it equates to about 12 times 
the amount of volume that the food bank does. And so, it is a 
collaborative effort, and we're certainly here, and I think we 
all have a role, and we're all chipping in. We can't do without 
tremendous partners. It really does take a village in the sense 
of all the pieces coming together plays a part--the individuals 
dealing with food insecurity.
    Miss Gonzalez-Colon. Thank you, Madam Chair.
    Ms. Roth. May I ask one--may I add one----
    Miss Gonzalez-Colon. My time expired, so Madam Chair will--
--
    Ms. Titus. Go ahead, Ms. Roth.
    Miss Gonzalez-Colon. OK.
    Ms. Titus. Briefly.
    Ms. Roth. Thank you. I just want to give appreciation to 
the congresswoman, and the work that has been done in Puerto 
Rico, the Center for Independent Living, mosques, and the 
University of Puerto Rico, the university-affiliated center 
there, have done a tremendous job, and are a real example of 
good and promising practices for the rest of the country, and I 
just want to give a shout out to that partnership, public and 
private.
    Miss Gonzalez-Colon. Thank you, Ms. Roth, and thank you, 
Madam Chair. I yield back.
    Ms. Titus. Thank you. Are there any further questions from 
members of the subcommittee? Mr. Katko?
    Mr. Katko. No, but I do want to thank the chairwoman for 
this hearing. I want to thank the witnesses as well. I think 
this was a very good discussion, and a lot to chew on here, and 
a lot to act on. So, thank you very much for your appearance, 
and I yield back.
    Ms. Titus. Thank you, Mr. Katko. Just before we close, I 
want to be sure. Is Mr. Garamendi with us? Does he have a 
question, or has he stepped away? Well, I guess he's stepped 
away or having technical difficulties, so we'll bring the 
hearing to a close.
    I too want to thank each of the witnesses today. Your 
contribution to our discussion was really informative and 
helpful, and we want to move some legislation out of this 
committee. Ms. Roth, I think you mentioned a couple of the 
bills, so we will stay in touch with you as we move forward and 
seek your wise counsel, because you're obviously the experts 
and the people we want to hear from as we do that.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may have been submitted in 
writing or that we didn't have a chance to fully answer or 
explore. I also ask unanimous consent that the record remain 
open for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing. Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned. Thank you.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]

                       Submissions for the Record

                              ----------                              


   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you Chair Titus, and thank you to our witnesses for being 
here today.
    I've said this before and it continues to be true: we are 
simultaneously recovering from an unprecedented number of major 
disasters.
    But when so many Americans are struggling with financial hardship 
and health concerns due to the COVID-19 pandemic, the Federal 
government must ensure that our nation's most vulnerable communities 
receive the assistance they need.
    From communication of alerts and warnings of anticipated disasters 
to the financial assistance available to survivors to repair their 
homes or temporarily shelter, every American, regardless of age, race, 
mental or physical ability, or economic background, deserves equal 
opportunity to access the resources available in the wake of disaster.
    Part of the challenge is monitoring and enforcing compliance with 
the legal obligations of the Federal government to administer these 
resources.
    When Members of the Committee visited Puerto Rico after the 
earthquakes in February, we were told by local emergency managers that 
survivors were having difficulty certifying their home ownership to 
receive assistance from FEMA.
    Outdated land-titling record-keeping and a non-traditional system 
of passing home ownership in Puerto Rico highlighted some of the 
inequities faced by individuals who may have lost documentation and 
those who live in rental, or non-traditional, properties.
    As Chair Titus mentioned earlier, many of these issues were raised 
with FEMA Administrator Gaynor when he testified before this 
Subcommittee back in March.
    Administrator Gaynor made assurances that self-certification of 
home ownership was being allowed in Puerto Rico, but I'm hearing that 
the approval rate of Individual Assistance in the wake of the ongoing 
earthquakes is still quite low.
    As GAO recently found, FEMA needs to do more to support vulnerable 
populations and address their specific needs.
    It is fitting that we're holding this hearing today since July 26th 
was the 30th anniversary of the Americans with Disabilities Act. That 
legislation was an important achievement that ushered in changes to 
make things so many of us take for granted that much more accessible. 
But 30 years later, more work remains.
    I look forward to hearing from our witnesses about how we might 
help make disaster assistance more inclusive, as well.
    Thank you.

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Titus.
    I want to welcome our witnesses today, including Chad Higdon.
    Mr. Higdon is CEO of Second Harvest Community Food Bank--a non-
profit food distribution organization serving fifteen counties in 
Northwest Missouri and four counties in Northeast Kansas.
    The work of Second Harvest and other food banks is critical to 
getting food to those most in need.
    I have had the opportunity to tour Second Harvest a number of times 
and have seen first hand the service they provide to the region. I want 
to thank Chad for the important work that he and Second Harvest do in 
my district.
    I have actually known Chad for nearly 20 years, including ten when 
he served on my staff. He has been a tremendous resource to St. Joseph 
and northwest Missouri in both positions, and I am proud of the work 
that he has done to serve the community in both capacities.
    This Committee has a long track record for reforming our emergency 
management system to ensure the right assistance gets to the people 
that need it most.
    Whether it's protecting our seniors, those with disabilities, or 
low income communities, we know we need to ensure our response and 
recovery actions save lives and help people recover quickly.
    That is also why I introduced the Preventing Disaster 
Revictimization Act earlier this year--a bill that helps ensure the 
federal government can't claw back disaster assistance it mistakenly 
awards to victims who applied for help in good faith.
    But, more needs to be done.
    The current redtape and bureaucracy alone creates hurdles for 
people and small community organizations helping to respond.
    If we work towards a more simplified, streamlined process for 
disaster assistance, it would not only make the process faster and 
easier for disaster victims but would ultimately reduce the costs of 
recovery.
    I look forward to hearing from our witnesses today.
    I yield back.

                               Appendix

                              ----------                              


  Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to Curtis 
 Brown, State Coordinator of Emergency Management, Virginia Department 
  of Emergency Management, testifying on behalf of the Institute for 
            Diversity and Inclusion in Emergency Management

    Question 1. This Committee did some good work in expanding FEMA 
assistance for the disability community in the Disaster Recovery Reform 
Act, but there's clearly additional room for enhancements to how FEMA 
evaluates disaster aid for vulnerable communities.
    First, can you speak at all to the effects, if any, from FEMA 
additional limits in the IHP program to provide repair and replacement 
for those needing appropriate access to their homes?
    Second, can you each discuss how you think FEMA has been engaging 
with the disability and access and functional needs community in recent 
disasters and emergencies and has the Agency's posture shifted given 
the frequent turnover in the role of Administrator?
    Answer. The increase in IHP Program assistance to provide repair 
and replacement for those needing appropriate access to their homes is 
a positive step to promote more equitable recovery, but more can be 
done to more equitably provide assistance given the continued 
disproportionate impact of disasters on vulnerable communities that 
lack resources. The ongoing COVID-19 pandemic disaster has left 
millions of unemployed American families (disproportionately 
communities of color) on the verge of homelessness, especially those 
who rent apartments and homes. Several studies have demonstrated that 
numerous Federal recovery programs exclude those most in-need by 
creating narrow eligibility requirements that favors more privileged 
communities. Prioritizing equity in disaster recovery programs requires 
conducting research to remove the barriers for supporting the disaster 
survivors that have the least resources, which are disproportionately 
communities of color and low-income individuals. Further efforts should 
be made to better support at-risk communities and remove inequitable 
program requirements. Additionally, the excuse of eliminating waste, 
fraud, and abuse is often used for establishing numerous complex 
recovery processes that inequitably keeps those most in need without 
the resources to recover due inequitable bureaucratic red-tape. I would 
encourage further investigation on how administrative oversight 
contributes to the establishment of inequitable policies that 
negatively impacts vulnerable communities.
    FEMA's Office of Civil Rights released guidance documents and held 
webinars that have been helpful for educating on the Emergency 
Management Enterprise on integrating the needs of people with access 
and function needs during disaster response. But more must be done 
given the continued disproportionate impact of disasters on people with 
access and functional needs. It is important to listen to people with 
disabilities and disaster equity experts who lead organizations 
supporting people with access and functional needs. I-DIEM supports the 
recommendations provided by Marcie Roth, representing the World 
Institute of Disability, during the Hearing on July 28. Her written 
testimony for the July 28 hearing provides recommendations that include 
but are not limited to:
    <bullet>  ``(FEMA) modify its Individual Assistance registration 
process to curtail the incidence of institutionalization of individuals 
with disabilities.''
    <bullet>  ``DHS/FEMA and HHS/Administration for Community Living 
(ACL) provide grant funds to support Independent Living Centers in 
supporting disaster-impacted people with disabilities in their 
community.''
    <bullet>  ``(Crisis counseling and Disaster Case Management for 
people with disabilities, eligible as a result of Federal Disaster 
Declarations. Crisis counseling and Disaster Case Management must be 
provided by disability culturally competent providers, and must be 
equally effective for all people with communication disabilities.''
    <bullet>  ``Authorize and appropriate funds for DHS and FEMA to 
provide disaster preparedness grants specifically targeted to 
organizations led by and serving marginalized communities, including 
but not limited to people with disabilities experiencing poverty; 
people with disabilities experiencing homelessness; women with 
disabilities; people of color with disabilities; and members of the 
LGBTQ community with disabilities.'' (Marcie Roth, https://
transportation.house.gov/imo/media/doc/Roth%20Testimony.pdf)

    Question 2. We know that public communication is a vital component 
of emergency response, whether a hurricane, a no-notice event, or 
during a global pandemic with a novel, invisible, and deadly virus.
    The ability to effectively communicate the threats to vulnerable 
communities and provide guidance on what prevention steps can be taken 
could be the difference between life and death.
    What public communication issues have you seen as it relates to 
either the COVID-19 response and other disasters, specifically directed 
to vulnerable communities?
    Answer. Political leaders, policy-makers, and emergency management 
officials have a responsibility to integrate equity into preparedness 
and response to disasters by understanding the unique vulnerabilities 
and limitations of at-risk communities. The must speak honestly and 
openly about the threats and communicate the best preparedness and 
mitigation efforts. But preparedness efforts prior to COVID-19's 
onslaught in the United States were slow and disjointed. Clear and 
accurate emergency information regarding the seriousness of the threat 
was lacking. Several Federal elected and appointed officials minimized 
the seriousness and potential deadly impact of a Global Pandemic 
earlier in the year. This is exactly when bold mitigation efforts of 
could have saved lives. This is completely unacceptable and directly 
resulted in the large and growing death toll in America.
    Black and brown communities have legitimate reasons to distrust 
government officials due to years of racist and inequitable policies 
and mistreatment. Building trust, especially during an emergency should 
start with honest conversations and accurate information being shared. 
Trust of the message and the messenger are vitally important when 
communicating with communities of color. Instead of partnering with 
community and faith leaders to ``sound the alarm'' regarding COVID-19 
and providing resources to vulnerable communities and frontline workers 
(who are disproportionately people of color), efforts were taken by 
national leaders to downplay potential negative impacts and there major 
delay with taking action. Though the disaster feels like it has lasted 
years, it was as recent as early March that senior government officials 
were projecting COVID-19's severity and potential death toll to be 
minimal, at worst. That was approximately 6 months ago, when nationally 
there were only 500 COVID-19 cases and 22 deaths. The number of U.S. 
COVID-19 cases has now swelled to over 1.25 million cases and caused 
close to 200,000 deaths with thousand more expected. Disaster impact 
data that was finally collected and made publicly available confirms 
that black and brown communities have once again suffered 
disproportionate disaster impacts. The number of African American and 
Latinx deaths far outpace their overall population percentage. In some 
cities, 70% to 80% of cases and fatalities are black and brown people. 
COVID-19 response has exacerbated inequities for people of color, low-
income individuals, people with disabilities, and other vulnerable and 
marginalized groups. Sadly, the failure to effectively communicate with 
the public has contributed to these inequitable outcomes, once again.

    Question 3. Generally speaking, the field of emergency management 
lacks representation from women and people of color, especially in 
positions of leadership. Do you feel this lack of representation 
impacts the ability for Emergency Management agencies to effectively 
respond to large-scale disasters? If so, in what ways?
    Answer. The profession of emergency management's lack of diversity 
with representation of people of color within its ranks prevents the 
field from rising to the great disaster challenges of the present and 
tomorrow. Research indicates that an overwhelming number of individuals 
designated as ``Emergency Managers'' are white males. The lack of 
diversity of those that make-up the emergency management enterprise 
(federal, state, local, non-profit, and private) contributes to 
continuous failure to integrate equity into emergency management and 
improve disaster outcomes in communities of color.
    Several studies have been released over the last decade that 
confirms the positive impact of diversity on organizational 
performance. Private sector companies increase profits with more women 
and people of color throughout their organization, especially in 
positions in leadership. Though not studied as much, the impact of 
diversity in public service positions, such as emergency management, 
produces similar positive results. Racial diversity within the 
workforce improves decision-making, reduces ``blind spot'' errors by 
leveraging new perspectives, and results in better performance and 
improved outcomes. Within emergency management, a more diverse 
workforce would ensure that emergency operation and preparedness plans 
are inclusive and equitably consider the unique needs of communities of 
color. More representation of people of color in emergency management 
would increase the likelihood for investing greater mitigation funding 
into communities that have historically been divested in which has 
contributed to increased vulnerability. A more diverse network of 
emergency managers at the decision-making table and in senior roles 
would promote better response decision such as allocating equitable 
resources to communities most in need. Short-term and long-term 
recovery would be improved by the participation of people of color that 
have a connection to the communities most impacted. Simply put, 
diversity in emergency management will help to reverse the existing 
failure to enact equitable practices before, during, and after 
disasters.

    Question 4. What steps could federal, state, and local emergency 
management leaders take to build a more diverse workforce of emergency 
management professionals and leaders and also take into considerations 
as to ensure equities of vulnerable populations are taken into 
consideration during all phases of the emergency management cycle?
    Answer. Federal, state, and local emergency management agencies 
need to make a commitment to diversifying the workforce by setting bold 
goals, innovating recruitment strategies, and increasing outreach to 
young people in colleges, high schools, secondary and primary schools. 
Data collection and dissemination would be a great first step for 
increasing diversity within the Federal, state, and local emergency 
workforce. All entities receiving Federal funding should be required to 
submit workforce diversity data annually. This information is useful 
for transparency and tracking whether new programs are working. 
Additionally, emergency management organizations should create and 
regularly update Workforce Diversity Plan that includes strategies for 
promoting increased diversity in the field. In support of this plan, 
emergency management agencies should partner with Minority Serving 
Institutions (MSI) to develop program to recruitment students of color 
to internship and entry-level positions in emergency management. 
Historically Black Colleges and Universities (HBCU), Asian American and 
Pacific Islander (AAPI) Serving Institutions, Hispanic-Serving 
Institutions (HSI), and Alaskan Native- or Native Hawaiian-Serving 
Institutions (ANNHI) have talented students who are interested in 
starting careers in emergency management but they have not been engaged 
or provide opportunities.
    Internally, the profession needs to create more inclusive 
workplaces that no longer confine emergency professionals who are women 
and/or people of color to ``second class'' status. There are numerous 
racially diverse emergency management professions that should be 
provide the opportunity to excel in executive and senior positions 
directing emergency management efforts. FEMA's workforce data and the 
larger Emergency Management Enterprise indicates that more diversity is 
needed at the senior levels or emergency management agencies. 2020 and 
the ongoing historic disaster of the COVID-19 Pandemic may indicate the 
start of new period of mega disasters that will continue to test and 
disproportionately impact our most at-risk communities of color.
    Integrating equity into emergency management and diversifying the 
field are realistic goals that can be achieved through investment and 
sustained action. U.S. Department of Labor statistics indicates that 
field of emergency management is a ``hot job'' with expansion expected 
through this decade and into the next. There are numerous emergency 
managers at or near retirement age. So no, we do not have to choose 
diversity by eliminating existing professionals. But we do have to 
create an inclusive environment that will attract people of color to 
the field of emergency management which is in dire need of more diverse 
talent. The increasing diversity of the United States further confirms 
that there is no excuse for the profession to take action. African 
American women represent the most educated demographic in the United 
States. Emergency management should commit to leveraging their 
expertise by adding them to the ranks of emergency managers. 
Opportunities abound for emergency management to become a more diverse 
profession if action is taken now. Failure to do so is synonymous to 
professional malpractice; greater racial diversity will help the field 
build the capacity and leverage the expertise needed to meet our 
disaster challenges. The solution is clear, emergency management must 
better reflect the diversity of the communities it serves. Or it must 
be held accountable for the mounting negative impacts of neglecting to 
integrate diverse talent.

    Question 5. The COVID-19 disaster has been unprecedented in terms 
of deaths and other negative impacts, disproportionately to communities 
of color and people with disabilities. Researchers have stated that the 
potential for future pandemics and extreme weather events caused by 
climate change will exacerbate existing vulnerabilities in communities 
across the United States.
    How can the profession of Emergency Management identify innovative 
ways to build resilience with our most vulnerable communities in order 
to reduce the number of lives lost, property destroyed and 
disproportionate negative impacts?
    Answer. Innovative strategies to promote equity in emergency 
management requires for the field to leverage the expertise of 
diversity, equity, and inclusion experts who can dissect existing 
policies, plans, and programs to identify inequities and propose 
solutions. Currently, the field of emergency management does not 
provide training on diversity, equity, and inclusion (DEI) as a key 
knowledge, skill, and ability area of the profession. The solutions for 
integrating equity and prioritizing the needs of the those most at-risk 
of disasters requires better engagement with the communities of color 
and other marginalized communities that are frontline and continue to 
experience disproportionate impacts. It also requires engaging the DEI 
experts who understand the key issues, history, and data (quantitative 
and qualitative) that related systemic and structural racism and 
inequities. They can support efforts to identify solutions to develop 
more equitable policies and programs. There must be a continuous 
investment to ensure sustainable support equity work throughout 
Emergency Management. Emergency management needs to improve partnership 
with public health, sociologist, researchers, environmental justice, 
social justice, and urban planning professions to promote innovative 
equitable resilience-building strategies focused on those most at-risk.

    Question 6. What steps should emergency managers take to ensure 
that diversity, inclusion and equity are integrated within each phase 
of emergency management--planning, response, mitigation and recovery--
in order to address the disproportionate impacts of more frequent and 
damaging disasters or sea level rise on communities of color, women, 
people with disabilities, seniors and other vulnerable, under-served 
communities?
    Answer. The effort to integrate equity and prioritize the needs of 
marginalized people is urgently important due to the challenges being 
faced by the impacts climate change, sea level rise, and extreme 
events. Produced by consensus from 13 federal agencies the Fourth 
National Climate Assessment, Volume II Impacts, Risks, and Adaptation 
in the United States found that communities of color will face 
increasing disproportionate negative impacts of climate change and 
extreme weather. The report states that ``prioritizing adaptation 
actions for populations that face higher risks from climate change, 
including low-income and marginalized communities, may prove more 
equitable and lead, for instance, to improved infrastructure in their 
communities and increased focus on efforts to promote community 
resilience that can improve their capacity to prepare for, respond to, 
and recover from disasters'' (Page 55). The rising threat of more 
impactful natural disasters requires that emergency planners prioritize 
the needs and tailor preparedness, mitigation, protection, response and 
recovery approach for those with the least access and means.
    Integrating diversity, equity, and inclusion as foundational goal 
within emergency management requires a full re-examination of all 
preparedness, mitigation, response and recovery programs. The review 
will help identify how marginalized communities and people can be 
prioritized as it relates to resource allocation, plans and programs. 
Regularly updating social vulnerability assessments can help with 
guiding where the needs exists which will assist in policy, program, 
and funding decisions.

    Question 7. The words and terms ``vulnerability'' and ``vulnerable 
communities'' are frequently used in the field of emergency management 
to describe communities of color and other under-served communities. 
But context is usually not given to fully explain the root causes for 
why the vulnerability exists in these communities.
    While emergency managers are typically looked at as consequence 
management professionals, another essential function they perform are 
detailed after action reports that analyze response and recovery 
operations, identify root causes, and learn from mistakes.
    Based on your professional experience as both a practicing 
emergency manager, but also the co-founder of the Institute for 
Diversity and Inclusion in Emergency Management, what are the root 
causes of these vulnerabilities and is there a role for FEMA, state, 
local, tribal, or territorial EMs to address these root issues?
    Answer. The effort to build resilience in the most at-risk 
communities should start with recognizing that past inequities and 
biases have created the vulnerability that currently exists in 
communities of color and other marginalized communities. These 
disasters continue to demonstrate the need for emergency planners and 
key decision-makers to understand how historical and existing 
exclusionary and discriminatory practices increase the risks and impact 
of disasters on specific individuals and communities. Those most 
vulnerable are consistently not prioritized in disaster planning or 
allocated sufficient resources during recovery. Years of biased 
``community development'' segregated communities of color to higher 
risk areas have contributed to creating distrust in government. 
Emergency management officials have a responsibility to integrate 
equity into preparedness and response to disasters by understanding the 
unique vulnerabilities and limitations of communities. There should be 
a clear recognition that the vulnerability of the community was 
heightened due to discriminatory policies and these communities will 
need the more support during a disaster.
    The COVID-19 disaster has once again brought to light the glaring 
disparities that continue to entrap far too many communities of color 
in a continuous cycle of tragedy and loss. Institutional racism serves 
as the fuel that creates the inequities that combust when disasters 
strike. Discriminatory economic and social policies are the root cause 
for the vulnerability faced by marginalized communities. Decades of 
divestments have created impoverished communities across the country 
that lack basic necessities including affordable, safe, and adequate 
housing. Federal and State guidance to ``socially distance'' to limit 
the spread of COVID-19 is difficult when systemic racism has confined 
impoverished families to occupy incredibly small living spaces. 
Environmental injustices have located toxic facilities in and around 
communities of color contributing to concentration of Black and Brown 
people with the same ``underlining health conditions'' (asthma, cancer, 
etc) that makes COVID-19 so fatal.

    Question 8. This subcommittee has long been focused on mitigation--
the effort to reduce loss of life and property by lessening the impact 
of disasters and with DRRA, we ensured that additional Federal dollars 
are available for pre-disaster mitigation funding.
    How do you believe pre-disaster mitigation funds could be more 
equitably distributed given the increase in large-scale disasters 
negatively impacting the most vulnerable communities? Do you think 
there are steps FEMA should take to direct or re-direct mitigation 
grant programs to communities most in need to ensure a more equitable 
future?
    Answer. The subcommittee's effort to provide additional pre-
disaster mitigation funding will support efforts to build disaster 
resilience. The BRIC program's success should be measured byits ability 
to build resilience in the most vulnerable and marginalized communities 
which include communities of color, low-income, and rural. I-DIEM 
provided FEMA with the list of recommendations below during the final 
rulemaking Public Comment period. I-DIEM believes that these 
recommendations will assist with ensuring equity is prioritized as a 
guiding principle for allocating the BRIC Program's funding and 
prioritizing marginalized individuals and communities.
    <bullet>  Integrate Diversity, Inclusion, and Equity as 
Foundational Goal of the BRIC Program;
    <bullet>  FEMA commits to allocating the 6% BRIC of the overall/
total COVID-19 disaster funds spent this year;
    <bullet>  Create performance measures to ensure that the BRIC 
program's success is measured by equity supports communities with the 
most vulnerability and the least resources;
    <bullet>  Equitably dedicate the majority of funding to the most 
vulnerable and resource constrained communities;
    <bullet>  Add references to equity, disproportionate impact, 
communities of color, marginalized communities in recognition that 
those most vulnerable to disasters are being prioritized;
    <bullet>  Conduct Social Vulnerability Assessments and leverage 
equity related data to support the decision-making process.

    Question 9. We are currently experiencing prolonged response to 
COVID-19, which can greatly impact our eventual recovery.
    How do you envision an equitable recovery from the devastating 
impacts of the COVID-19 pandemic? How can we improve recovery planning 
to counteract the disproportionate effects? What do you consider a 
favorable timeline for equitable recovery and how would you approach 
such a timeline?
    Answer. After nature disasters with major infrastructure impacts 
funding is provided to support both short-term and long-term recovery, 
in order to rebuild communities. COVID-19 did not have cause 
infrastructure impacts but the needs are even greater and resources 
must be allocated to support the communities of colors that were 
hardest impacted by this unprecedented disaster.
    An equitable recovery from the unprecedented impacts of COVID-19 
will focus on mitigating the root causes that have lead to 
disproportionate impacts on in Black, Hispanic/Latino/x, and Indigenous 
communities. Major recovery investments/funding is need to be made in 
public health, housing, education, economic development, and every 
other major policy area so that deeply rooted systemic and structural 
racism and discrimination can get untangled. Systemic changes should 
occur related to disaster preparedness, mitigation, response and 
recovery. Over 200,000 people dying should promote a dramatic and 
noticeable change within public health and emergency management with a 
major focus on ensuring all efforts are rooted in equity.

    Question 10. What immediate steps could FEMA and its Federal 
partners involved in disaster relief take to promote equity and improve 
disaster impacts for vulnerable populations? And, similarly, what steps 
do you believe Congress must take?
    Answer. Congress, FEMA, and the entire Emergency Management 
Enterprise's immediate steps to promote equity and improve disaster 
impacts for vulnerable populations should be to recognize that the 
continuous disproportionate loss of life within communities of color 
and other marginalized groups is completely unacceptable. These 
unacceptable losses require dramatic and urgent changes that impact 
every policy, program, and funding area within emergency management. 
The ability to make bold changes that will have lasting impact requires 
the acknowledgement that the current program, plans, and processes are 
inequitable.
    The question should be asked ``how does this program or legislation 
support those most at-risk for disasters or have the least resource?''. 
A full comprehensive equity assessment of emergency management policies 
needs to occur conducted by outside experts. Finally, Congress and FEMA 
need to commitment to providing the financial and human resources to 
equity integration within emergency management. Funding should be 
provided to support new equity programs for vulnerable populations, 
equity-focused personnel, and financial support for environmental 
justice, social justice, and community-serving organizations that are 
working in the most at risk communities. Greater support of these 
organization will have lasting benefits and will build the resilience 
needed to end the continuing disproportionate impacts of disasters on 
vulnerable populations.

   Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to Chad 
  Higdon, Chief Executive Officer, Second Harvest Community Food Bank

    Question 1. We know that public communication is a vital component 
of emergency response, whether a hurricane, a no-notice event, or 
during a global pandemic with a novel, invisible, and deadly virus.
    The ability to effectively communicate the threats to vulnerable 
communities and provide guidance on what prevention steps can be taken 
could be the difference between life and death.
    What public communication issues have you seen as it relates to 
either the COVID-19 response and other disasters, specifically directed 
to vulnerable communities?
    Answer. Our biggest challenge has been reaching rural communities 
with limited media outlets. While a media outlet exists in each county 
we serve, some of these outlets are print based and publish a physical 
newspaper once per week. In addition, it is up to the individual 
newspaper whether to run the information we submit as a news story at 
no cost, or whether they view the information as an advertisement and 
charge a fee to run information in their newspaper.
    We do our best to reach individuals across our service territory 
regarding distribution efforts and assistance we provide. We have a 
text caster system that individuals can sign up to receive at no cost 
which are disseminated daily. We submit information to media outlets 
regularly in hopes they will help us reach vulnerable populations. We 
share information with our network of partner agencies, as word of 
mouth does seem to be an effective means to reach individuals in need. 
And we continually update our website with current information for 
individuals with access to the internet.
    I believe the most effective means of communication is often direct 
mail, which is too expensive and not an option for our food bank. 
Therefore, we rely upon as many other outlets as we can in hopes that 
we are able to reach as many individuals as possible. If there is one 
area we believe could directly benefit our dissemination of information 
it would be efforts to increase access to high speed internet 
throughout our service territory, specifically in underserved rural 
communities.

    Question 2. What steps could federal, state, and local emergency 
management leaders take to build a more diverse workforce of emergency 
management professionals and leaders and also take into considerations 
as to ensure equities of vulnerable populations are taken into 
consideration during all phases of the emergency management cycle?
    Answer. I struggle to identify a recommendation on how to encourage 
individuals with diverse backgrounds to consider employment 
opportunities in emergency management. I can't say that youth exploring 
career paths and opportunities fully understand the career 
opportunities in this profession. Perhaps encouraging federal, state, 
and local emergency management leaders to work with community 
organizations focused on workforce development could help increase 
understanding of opportunities which do exist. Additionally, efforts to 
reach high school students to promote career opportunities could help 
attract prospects to this career path.
    Efforts to ensure states are encouraging local jurisdictions to 
include vulnerable populations and integrating planning for citizens 
with access and functional needs into local emergency operations and 
public health planning could also prove beneficial. Individuals with 
mobility issues, vision impairments, hearing limitations, or cognitive 
or intellectual disabilities would certainly be impacted in their 
ability to understand the effects of or respond to an emergency. The 
disability community's standard of ``nothing about us, without us'' is 
a valuable rule in the planning process. Local emergency management 
planners should be encouraged to include individuals with diverse 
backgrounds and abilities in their planning efforts to provide 
perspective and insight in how to best serve diverse communities.

    Question 3. I've heard, as have all my colleagues about the 
interplay of Federal assistance programs right now. What's been your 
experience in working in the community to distribute essential 
nutrition and trying to navigate any Federal help, whether it's FEMA's 
Disaster Relief Fund, Treasury's Coronavirus Relief Fund, USDA 
nutrition or commodity distribution, or the FEMA Emergency Food and 
Shelter Program funds that are administered via the United Way?
    Answer. I believe this has been a challenge for our organization to 
understand what exactly is available and how to utilize and maximize 
funding sources and doing so while adhering to Generally Accepted 
Accounting Principles (GAAP). My guess is that this has been a 
challenge for many small non-profit organizations across the country 
which operate with limited staff and resources dedicated to financial 
management of the organization's resources. In the next few paragraphs, 
I will do my best to outline some specific examples and where I believe 
this has been a challenge for our organization.
    First I would like to point out that the support and assistance we 
have received has been greatly appreciated, and many vulnerable 
families would not have received the amount of nutrition assistance we 
have been able to provide since March of this year if not for this 
additional support. Our opportunities have primarily been available as 
a result of Families First Coronavirus Relief Act (FFCRA) for food 
purchase, increases in USDA commodity food distributions, the 
Coronavirus Food Assistance Program (CFAP) and purchases of shelf-
stable food product through state emergency management agencies 
utilizing federal sources. Additionally, we may be eligible to receive 
reimbursement for services provided in response to the pandemic, from 
federal funds made available through state and local government 
entities. We are currently evaluating or in process of applying for 
these funds.
    One thing I have noticed, is the degree of difficulty for a small 
organization to navigate these multiple funding sources. We can apply 
costs related to coronavirus response to funding made available through 
state, local and private funding sources. This often makes it confusing 
and difficult in determining how to maximize these opportunities to 
best meet our mission while doing so according to GAAP principles.
    Another confusing process has been whether we are eligible to 
receive FEMA reimbursement for emergency food distribution expenses. 
After the presidential disaster declaration for COVID-19 had been made, 
we heard we may be eligible for FEMA reimbursement for expenses related 
to emergency food distribution. An appeal was made to the state 
emergency management agency to work with food banks serving every 
county in the state to make all food distribution activities eligible 
for reimbursement. The state declined to pursue this, so we were 
informed that we would need to sign an agreement with a local public 
entity to be eligible for the reimbursement. Additional confusion 
centered around whether having an agreement with one public entity 
located in our service territory would qualify all eligible expenses 
across multiple counties in the same state for reimbursement. We ended 
up signing an MOU with our county with the largest population in 
Missouri, unsure whether we would be able to submit reimbursement for 
expenses associated with distributions only in that county, in all 15 
counties we serve in the state, or if no expenses would be eligible for 
reimbursement even with the MOU signed. To date we have not pursued any 
reimbursement related to this agreement with the county government, but 
again most eligible expenses are probably eligible for reimbursement 
through other channels.
    Another example of a lack of information relates to the USDA CFAP 
program. Our financial auditors indicated they are awaiting additional 
guidance in auditing this federal program. The food bank has not yet 
received any funds related to this program, nor guidance on how to 
track any food loss or distribution records. My question to our 
auditors is how they plan to audit the federal guidance, when our 
organization has not received much guidance in how we are to manage or 
operate the program.
    I completely understand the complexity in structuring the COVID-19 
federal assistance and the difficulty in creating new programs in 
response to COVID-19. In my opinion, the federal government should be 
commended in their efforts to support vulnerable populations through 
the pandemic, and I hope this feedback is helpful in working to make 
these programs and response to future unforeseen events streamlined and 
more efficient.

    Question 4. This subcommittee has long been focused on mitigation--
the effort to reduce loss of life and property by lessening the impact 
of disasters and with DRRA, we ensured that additional Federal dollars 
are available for pre-disaster mitigation funding.
    How do you believe pre-disaster mitigation funds could be more 
equitably distributed given the increase in large-scale disasters 
negatively impacting the most vulnerable communities? Do you think 
there are steps FEMA should take to direct or re-direct mitigation 
grant programs to communities most in need to ensure a more equitable 
future?
    Answer. I believed mitigation could be improved if we look at some 
of the issues related to my response on question #3. During a disaster, 
I believe it would behoove us to have existing plans in place prior to 
a disaster, so that organizations like food banks are ready to respond 
and meet the needs of the American citizens. Rather than drafting MOUs 
on a whim or trying to navigate complex reimbursement process across 
multiple agencies, my belief is that states could take a proactive 
approach to work with emergency food providers in each state to have a 
proactive agreement in place to be ready to respond during times of 
disaster. The infrastructure is in place from a nationwide network of 
food banks and emergency food providers and entities already equipped 
to distribute USDA commodities. If agreements were in place prior to a 
disaster between states and respected non-profit partners, when there 
was a need for emergency food distributions the ability to respond 
quickly could be met and efforts to support emergency food 
distributions with reimbursement could be streamlined.

    Question 5. We are currently experiencing prolonged response to 
COVID-19, which can greatly impact our eventual recovery.
    How do you envision an equitable recovery from the devastating 
impacts of the COVID-19 pandemic? How can we improve recovery planning 
to counteract the disproportionate effects? What do you consider a 
favorable timeline for equitable recovery and how would you approach 
such a timeline?
    Answer. One thing I have witnessed is the role of hunger relief 
efforts to support families through the pandemic. There is also much 
uncertainty regarding the impact low-income families will experience as 
the recovery timeline progresses. It is hard to anticipate what the 
effects of utility shutoffs and housing evictions will have for 
families when bills come due and they are unable to meet payment 
obligations. As discussions resume on another stimulus package, perhaps 
these are discussions worth having now to explore ways to help families 
navigate these challenges. The USDA Supplemental Nutrition Assistance 
Program (SNAP) is also a very effective mechanism to respond to changes 
in the economy and is available to all who qualify. A temporary boost 
in this program could help ensure food is one issue where relief could 
be found, so that families are better able to address other challenges 
they face.

    Question 6. What immediate steps could FEMA and its Federal 
partners involved in disaster relief take to promote equity and improve 
disaster impacts for vulnerable populations? And, similarly, what steps 
do you believe Congress must take?
    Answer. While I struggle to offer any suggestions for immediate 
action to promote equity and improve disaster impacts for vulnerable 
populations, I will offer that the Feeding America network of food 
banks has been a primary recipient of federal funds to support COVID-19 
recovery efforts. For our food bank, we are in the early stages of 
implementing diversity, equity and inclusion efforts to evaluate and 
improve services offered. In addition to providing upcoming training 
for our entire staff in this area, we are also working to form a 
committee with a diverse makeup to develop recommendations for our 
organization to improve in this area. Our goal is to make sure all 
resources we receive, including support from federal sources, reaches 
as many individuals in need, especially our most vulnerable and 
underserved populations.

  Questions from Hon. Henry C. ``Hank'' Johnson, Jr., to Chad Higdon, 
      Chief Executive Officer, Second Harvest Community Food Bank

    Question 1. Your testimony speaks to the particular challenges in 
addressing food insecurity during the COVID-19 pandemic, specifically 
for black and brown families. Can you speak further to how food 
insecurity is exacerbated for low-income communities during times of 
crisis?
    Answer. Unfortunately we do see disparate prevalence of poverty for 
minority populations. In response to many recent events, Feeding 
America took the initiative to evaluate the prevalence of poverty by 
race in each food bank's service territory. Our service territory by 
nature is not very diverse. An estimated 88% of our population is 
White, 3.5% Black, 4% Latino, and .08% Native. But when you dive deep 
into the estimated poverty of each demographic, 13% of our White 
population lives in poverty, while 25% of our Black population, 28% of 
our Native population, and 20% of our Latino population live in 
poverty.
    When I try to understand why this disparity exists as it does, we 
can assume logical reasoning such as historical opportunities or lack 
thereof for minority populations that have resulted in this unfortunate 
circumstance. As a food bank, we are tasking ourselves to develop a 
strategy to reduce these disparities. The challenge I find is that with 
the nature of our large distributions with limited interactions with 
the families we serve, it creates a situation that is challenging for 
us to understand what we can do to better equip individuals who have 
the ability to improve work skills toward a path out of poverty.
    By no means is this an excuse to remain complacent. My personal 
belief is that the path out of poverty is often through education and 
developing an individual's personal and professional skills, and then 
we hope that because employers must comply with labor laws that every 
individual is then provided an equal opportunity to success, or that 
employers will employ based on talent and skillsets without 
discrimination because it is the right thing to do. You have presented 
me with a very difficult question to answer in how we as a nation 
remain fair to everyone in the opportunities we provide, when in 
reality minority families have an uphill battle from the onset to break 
historical trends and are faced with an increased likelihood they will 
struggle with poverty issues.

    Question 2. What are some of the greatest challenges food banks 
face in meeting communities' needs? Is there a more robust, federal 
response that could bolster the efforts of food banks?
    Answer. On a personal level for the food bank, we are in the 
process of developing a diversity committee aimed at listening to and 
learning from our most disproportionately affected populations in terms 
of what they need from the food bank. This committee will be tasked 
with conducting a round table with members from Native American tribes 
and other minority populations. Topics we will explore include 
culturally appropriate food options, how to better reach underserved 
populations and other issues affecting minority populations. A personal 
long-range goal I have personally considered is how we better handle 
client intake to understand the individual needs of the families we 
serve. Senior populations have much different needs for service than 
young families who have opportunities to improve work skills. I believe 
our food bank could better serve all families if we could better 
understand the varying needs of the individual families we serve.
    In terms of a federal response which could bolster efforts of food 
banks, I firmly believe food banks are a tremendous complement to the 
SNAP program. SNAP can reach every family in need and is responsive to 
changes in the economy. Our service is a tremendous complement and 
together we can be extremely successful in meeting the food insecurity 
needs of all vulnerable families.

  Questions from Hon. John Garamendi to Chad Higdon, Chief Executive 
              Officer, Second Harvest Community Food Bank

    Question 1. Mr. Higdon, your colleagues from the California 
Association of Food Banks have told me that few foodbanks nationwide 
will qualify for FEMA reimbursement (under Stafford Act's ``Pubic 
Assistance''), despite scaling up to meet high demand for food 
assistance during the current pandemic. The issue appears to be FEMA's 
overly conservative interpretation of its ``duplication of benefits'' 
policy, which has made it operationally infeasible for food banks to 
pursue FEMA reimbursement for food purchases and distribution.
    As you likely know, FEMA ``public assistance'' reimbursements are 
contingent upon demonstrating that participants do not receive other 
federal food assistance, such as food stamps (SNAP), home-delivered 
meals, WIC, etc. All these federal food assistance programs are 
supplemental in nature, almost never providing more than 1 to 2 full 
meals per day. It seems the ``duplication of benefits'' policy is 
largely designed to prevent low-income households ending up with a 
small reserve of food in the pantry or freezer during uncertain times 
like now. We need to ask ourselves and FEMA, would that really be so 
bad?
    Answer. This has been an eye-opening process for food banks across 
the country to utilize federal sources of funds for emergency food 
distribution efforts. Simply stated, demonstrating individuals 
receiving food assistance through FEMA public assistance do not receive 
other benefits such as SNAP, WIC, USDA federal commodities or food 
through other federal programs is an unrealistic expectation.
    Our organization has received shelf-stable food purchased through 
Kansas Department of Emergency Management utilizing FEMA public 
assistance funding. Initially there was an expectation that food banks 
would verify individuals were not receiving food from other federal 
sources. However, officials at the state level were successful in 
pushing back these expectations. With much of our food being 
distributed through mobile pantry operations, our goal is to create 
safe and streamlined distributions to reduce long lines of cars which 
can create resentment of the services we are offering. One community we 
had served has decided to discontinue their mobile pantry distribution, 
because of complaints voiced by residents of cars blocking driveways 
and other disruptions these events have caused. If we create processes 
to verify recipients of the food purchased through FEMA public 
assistance are not receiving other food from federal sources this would 
simply create longer lines and additional frustrations and deter many 
families from using these services entirely. The families we are 
serving currently are in very high need of food assistance, and the 
cumulative effort of multiple federal programs and private initiatives 
to provide hunger relief is what is truly needed to address a prolonged 
response to a pandemic.

    Question 2. Mr. Higdon, can you please speak to the systemic 
barriers foodbanks face in getting FEMA reimbursement? And do you agree 
that the so-called problem FEMA's ``duplication of benefits'' policy 
seeks to prevent is not a real-world problem about which we should 
worry?
    Answer. It is looking less and less likely that we will even seek 
this reimbursement for our emergency food distribution efforts. We have 
been able to apply for funding from other sources, such as CARES Act 
funding passed through state and local governments, and there may not 
even be a need to seek reimbursement from FEMA. But simply trying to 
keep pools of funds separate and not seek reimbursement for the same 
expense across multiple federal sources is a challenge and difficult to 
navigate. I am of the belief that we are better off seeking other 
sources for funding reimbursement and not utilizing FEMA public 
assistance for our current response efforts.

  Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to Marcie 
 Roth, Executive Director and Chief Executive Officer, World Institute 
                             on Disability

    Question 1. This Committee did some good work in expanding FEMA 
assistance for the disability community in the Disaster Recovery Reform 
Act, but there's clearly additional room for enhancements to how FEMA 
evaluates disaster aid for vulnerable communities.
    First, can you speak at all to the effects, if any, from FEMA 
additional limits in the IHP program to provide repair and replacement 
for those needing appropriate access to their homes?
    Second, can you each discuss how you think FEMA has been engaging 
with the disability and access and functional needs community in recent 
disasters and emergencies and has the Agency's posture shifted given 
the frequent turnover in the role of Administrator?
    Answer. A response was not received at the time of publication.

    Question 2. We know that public communication is a vital component 
of emergency response, whether a hurricane, a no-notice event, or 
during a global pandemic with a novel, invisible, and deadly virus.
    The ability to effectively communicate the threats to vulnerable 
communities and provide guidance on what prevention steps can be taken 
could be the difference between life and death.
    What public communication issues have you seen as it relates to 
either the COVID-19 response and other disasters, specifically directed 
to vulnerable communities?
    Answer. A response was not received at the time of publication.

    Question 3. What steps could federal, state, and local emergency 
management leaders take to build a more diverse workforce of emergency 
management professionals and leaders and also take into considerations 
as to ensure equities of vulnerable populations are taken into 
consideration during all phases of the emergency management cycle?
    Answer. A response was not received at the time of publication.

    Question 4. The COVID-19 disaster has been unprecedented in terms 
of deaths and other negative impacts, disproportionately to communities 
of color and people with disabilities. Researchers have stated that the 
potential for future pandemics and extreme weather events caused by 
climate change will exacerbate existing vulnerabilities in communities 
across the United States.
    How can the profession of Emergency Management identify innovative 
ways to build resilience with our most vulnerable communities in order 
to reduce the number of lives lost, property destroyed and 
disproportionate negative impacts?
    Answer. A response was not received at the time of publication.

    Question 5. This subcommittee has long been focused on mitigation--
the effort to reduce loss of life and property by lessening the impact 
of disasters and with DRRA, we ensured that additional Federal dollars 
are available for pre-disaster mitigation funding.
    How do you believe pre-disaster mitigation funds could be more 
equitably distributed given the increase in large-scale disasters 
negatively impacting the most vulnerable communities? Do you think 
there are steps FEMA should take to direct or re-direct mitigation 
grant programs to communities most in need to ensure a more equitable 
future?
    Answer. A response was not received at the time of publication.

    Question 6. We are currently experiencing prolonged response to 
COVID-19, which can greatly impact our eventual recovery.
    How do you envision an equitable recovery from the devastating 
impacts of the COVID-19 pandemic? How can we improve recovery planning 
to counteract the disproportionate effects? What do you consider a 
favorable timeline for equitable recovery and how would you approach 
such a timeline?
    Answer. A response was not received at the time of publication.

    Question 7. What immediate steps could FEMA and its Federal 
partners involved in disaster relief take to promote equity and improve 
disaster impacts for vulnerable populations? And, similarly, what steps 
do you believe Congress must take?
    Answer. A response was not received at the time of publication.

   Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to Diane 
  Yentel, President and Chief Executive Officer, National Low Income 
                           Housing Coalition

    Question 1. As you probably know all too well, housing insecurity 
in Nevada is particularly acute, and that's pre-disaster.
    In your opinion, what could FEMA do under the Stafford Act that it 
isn't already doing, to ensure that assistance programs recognize these 
challenges and ensure that those whose homes are impacted by disaster 
do not face a red tape disaster when assistance programs end?
    Answer. NLIHC research demonstrates that disasters exacerbate the 
existing rental housing crisis for households with the lowest 
incomes.\1\ The impact of disasters on low-income people's housing 
needs is made worse by FEMA's continued refusal to activate the 
Disaster Housing Assistance Program (DHAP). After recent disasters, 
FEMA has refused to activate DHAP and instead relied on its Temporary 
Shelter Assistance (TSA) program and other programs inaccessible to 
many low-income survivors. Because TSA must be renewed every 14 days, 
those disaster survivors who are able to access the program face 
arbitrary deadlines that cause them to scramble to submit required 
paperwork or leave the motel before finding a permanent housing 
solution. While FEMA is authorized to provide TSA for at least 18 
months, the Trump administration abruptly terminated \2\ the program 
for nearly 2,000 Puerto Rican families displaced to the mainland after 
Hurricane Maria, forcing them to find alternative housing or to return 
to their uninhabitable homes on the island with just a few hours' 
notice.
---------------------------------------------------------------------------
    \1\ National Low Income Housing Coalition. (2019). Long-term 
Recovery of Rental Housing: A Case Study of Highly Impacted Communities 
in New Jersey after Superstorm Sandy. Retrieved from https://nlihc.org/
sites/default/files/Sandy-Rental-Recovery-Report.pdf
    \2\ National Low Income Housing Coalition. (2018). NLIHC's Response 
to Court Ruling Allowing FEMA to Move Forward on Evicting Hurricane 
Maria Survivors. Retrieved from https://nlihc.org/news/nlihcs-response-
courtruling-allowing-fema-move-forward-evicting-hurricane-maria-
survivors
---------------------------------------------------------------------------
    FEMA's other temporary housing assistance programs--Rental 
Assistance and Direct Temporary Housing Assistance--are also 
problematic for low-income families.\3\ FEMA should reform its existing 
housing programs and activate DHAP after every major disaster to 
provide longer-term housing assistance and wrap-around services to low-
income survivors. Such assistance should be provided to eligible 
survivors until the long-term housing recovery--including the 
rebuilding of affordable rental housing stock--is complete.
---------------------------------------------------------------------------
    \3\ National Low Income Housing Coalition. (2018). Setting the 
Record Straight: Disaster Rental Assistance Programs at FEMA and HUD. 
Retrieved from https://nlihc.org/sites/default/files/Rental-
Assistance_Setting-The-Record.pdf
---------------------------------------------------------------------------
    FEMA maintains a culture of rigid allegiance to narrowly defined 
protocol over outcomes; as a result, many disaster survivors, including 
many of the lowest-income survivors, are wrongfully denied needed 
assistance. Rather than creating and implementing numerous categories 
of ineligibility, disaster assistance programs should employ broad-
based categories of eligibility, with the aim that every survivor 
receives the recovery assistance to which they are entitled. FEMA 
should allow for a flexible system of documentation for distributing 
disaster recovery assistance. Applying the least restrictive guidance 
regarding alternative documentation--and doing so consistently across 
all jurisdictions--would cut down on wasted time and confusion on the 
parts of both applicants and advocates alike.

    Question 1. (con't) Also, the example of FEMA refusing to provide 
sheltering assistance to the pre-disaster homeless in communities that 
were ravaged by wildfire seems inhumane; is it your opinion that FEMA 
could have at least provided temporary sheltering assistance to those 
survivors under its existing authority to get them out of harm's way?
    Answer. FEMA frequently denies assistance to people experiencing 
homelessness prior to a disaster, despite their exceptional needs. 
During the COVID-19 pandemic, however, FEMA has interpreted the law 
much more broadly, determining that people who were homeless prior to 
the disaster are eligible for non-congregate shelter. This demonstrates 
that FEMA could interpret the law more broadly to serve people 
experiencing homelessness, but it chooses not to. Congress should enact 
clarifying legislation to ensure that people experiencing homelessness 
prior to the disaster have access to the same emergency shelter and 
disaster relief assistance as other survivors, including rental 
assistance.

    Question 1. (con't) What are your other top priorities for reform?
    Answer. A reformed disaster housing recovery system centered on the 
needs of the lowest-income and most marginalized survivors and their 
communities must ensure opportunities for resident and public 
engagement, systemic transparency, full accountability and due process, 
robust equity and civil rights enforcement, fair mitigation practices, 
and a focus on increased local capacity and benefit. These priorities 
must be reflected in every stage of disaster recovery and response, 
from pre-disaster emergency planning through long-term recovery and 
post-recovery mitigation, to help address the systemic racism and 
classism that have resulted in our broken current disaster housing 
system. NLIHC and the Fair Share Housing Center of New Jersey recently 
released ``Fixing America's Broken Disaster Housing Recovery System 
Part Two: Policy Framework Recommendations.'' \4\ The report identifies 
specific local, state, and national policy recommendations to redesign 
our national disaster housing response and recovery system to center 
the needs of the lowest-income survivors and their communities.
---------------------------------------------------------------------------
    \4\ National Low Income Housing Coalition. (2020). Fixing America's 
Broken Disaster Housing Recovery System Part Two: Policy Framework 
Recommendations. Retrieved from https://nlihc.org/sites/default/files/
Fixing-Americas-Broken-Disaster-Housing-Recovery-System_P2.pdf
---------------------------------------------------------------------------
    Congress should permanently authorize DHAP and automatically 
activate it after every disaster. Congress should also enact the 
``Housing Survivors of Major Disasters Act,'' (H.R. 2914) \5\ 
introduced by Representative Adriano Espaillat (D-NY). The bill, which 
passed unanimously out of the House Transportation and Infrastructure 
Committee in February 2020, contains critically needed reforms to 
ensure the lowest-income and most marginalized survivors can access the 
housing assistance they need to recover. The bill would address the 
significant title documentation challenges that have resulted in 
thousands of eligible disaster survivors being wrongfully denied FEMA 
assistance.
---------------------------------------------------------------------------
    \5\ H.R. 2914, ``Housing Survivors of Major Disasters Act of 
2019.'' Retrieved from https://www.congress.gov/bill/116th-congress/
house-bill/2914

    Question 2. We know that public communication is a vital component 
of emergency response, whether a hurricane, a no-notice event, or 
during a global pandemic with a novel, invisible, and deadly virus.
    The ability to effectively communicate the threats to vulnerable 
communities and provide guidance on what prevention steps can be taken 
could be the difference between life and death.
    What public communication issues have you seen as it relates to 
either the COVID-19 response and other disasters, specifically directed 
to vulnerable communities?
    Answer. Emergency planning and implementation frequently assumes 
that all residents have resources, education, and English language 
proficiency, as well as physical and psychological capabilities to 
acquire, understand, and perform necessary tasks during an emergency. 
These expectations are simply not true for many of the lowest-income 
and most marginalized households that live in under-resourced 
communities, have a disability or limited English proficiency, or law 
access to public information sources. FEMA has been inexplicably slow 
to publish health and safety notices and instructions in any language 
other than English. In Puerto Rico, FEMA struggled to find translators 
or provide basic forms in Spanish, the predominant language on the 
island, contributing to delayed disaster assistance after Hurricane 
Maria.\6\ Although FEMA's internal regulations require the production 
of such documents, advocates have expressed concern that forms 
distributed by the agency and its grantees are provided only in English 
or with few translated versions. Communication of emergencies to the 
deaf and blind communities is often erratic despite requirements of the 
law. Emergency broadcasts in some states and localities, for example, 
feature no sign language interpreters or partially obscured 
interpretation that makes it difficult for a viewer to fully understand 
what information is being conveyed. Moreover, emergency communications 
tend to be highly centralized through government channels, limiting at-
risk populations' access to critical information.
---------------------------------------------------------------------------
    \6\ Davidson, J. 2020. How a lack of diversity at federal agencies 
can have serious consequences. Retrieved from https://
www.washingtonpost.com/politics/how-a-lack-of-diversity-at-federal-
agencies-can-have-serious-consequences/2020/02/29/ceec904e-5a65-11ea-
8753-73d96000faae_story.html

    Question 3. What steps could federal, state, and local emergency 
management leaders take to build a more diverse workforce of emergency 
management professionals and leaders and also take into considerations 
as to ensure equities of vulnerable populations are taken into 
consideration during all phases of the emergency management cycle?
    Answer. A response was not received at the time of publication.

    Question 4. We're currently awaiting a GAO study regarding rates of 
approval and denial for FEMA Individual Assistance, but understand that 
your organization also leads a coalition of social and data scientists 
to examine post-disaster housing outcomes--the Disaster Housing 
Research Consortium.
    Can you discuss some of the Consortium's findings regarding FEMA's 
effectiveness in housing vulnerable populations post-disaster? How 
collaborative has FEMA been with the Consortium?
    Are there any statutory limitations on FEMA sharing this data with 
Consortium researchers, or is this a policy decision by the Agency? 
Further, what data collected or analyzed by FEMA should be made 
publicly available or available to researchers?
    Answer. Despite the clear need, FEMA often neglects the needs of 
America's lowest-income disaster survivors and exacerbates housing 
insecurity. FEMA creates unnecessary and often insurmountable barriers 
to accessing its programs, leaving many low-income survivors at 
increased risk of displacement, eviction, and, in worst cases, 
homelessness. ``Fixing America's Broken Disaster Housing Recovery 
System Part One: Barriers to a Complete and Equitable Recovery'' \7\ 
identifies how our country's disaster housing recovery framework 
exacerbates and reinforces racial, income, and accessibility inequities 
at each stage of response and recovery. This report is part of a two-
part series released by NLIHC and the Fair Share Housing Center of New 
Jersey, with critical input from members of the NLIHC-led Disaster 
Housing Recovery Coalition.
---------------------------------------------------------------------------
    \7\ National Low Income Housing Coalition & the Fair Share Housing 
Center of New Jersey. (2019). Fixing America's Broken Disaster Housing 
Recovery System Part One: Barriers to a Complete and Equitable 
Recovery. Available at: https://nlihc.org/sites/default/files/Fixing-
Americas-Broken-Disaster-Housing-Recovery-System_P1.pdf
---------------------------------------------------------------------------
    After Hurricane Maria, FEMA denied nearly two-thirds \8\ of the 
nearly 1.2 million applications filed in Puerto Rico for individual 
assistance--twice the denial rate in Texas after Hurricane Harvey.\9\ 
At least 77,000 Puerto Rican households were denied assistance due to 
title documentation issues. These same issues occurred after Hurricane 
Katrina, Hurricane Michael,\10\ and the California wildfires.\11\ While 
advocates worked with FEMA to create a new tool--a sworn statement--to 
help survivors overcome title documentation barriers, FEMA has refused 
to notify survivors affected by the issue nor has it made the resource 
available on its website, at local Disaster Recovery Centers, or on 
social media. FEMA staff have now indicated that rather than formally 
adopting a sworn statement, the agency may instead simply refuse to 
create such documents after future disasters, doubling down on a 
clearly flawed and failed policy.
---------------------------------------------------------------------------
    \8\ Slate. (2018). FEMA has rejected 60 percent of assistance 
requests in Puerto Rico. Why? Available at: https://slate.com/
technology/2018/06/hurricane-maria-aftermath-fema-rejects-60-percent-
of-assistance-requests.html
    \9\ NPR. (2018). Unable to prove they own their homes, Puerto 
Ricans denied FEMA help. Retrieved from https://www.npr.org/2018/03/20/
595240841/unable-to-prove-they-own-their-homes-puerto-ricans-denied-
fema-help
    \10\ National Low Income Housing Coalition. (2019). Impact of 
Hurricane Michael. Retrieved from https://nlihc.org/sites/default/
files/Hurricane-Impact-Michael.pdf
    \11\ National Low Income Housing Coalition. (2019). Impact of the 
2018 California Wildfires. Retrieved from https://nlihc.org/sites/
default/files/Califonia-Wildfire-2018.pdf
---------------------------------------------------------------------------
    After past disasters, FEMA's failure to provide basic 
transparency--ranging from damage assessments, determination of unmet 
needs, program design and implementation, grantee and subgrantee 
performance, and how federal dollars are spent--has hindered efforts to 
effectively target and distribute aid to those most in need. FEMA has 
consistently refused to clarify or make public important information 
about its aid application process. This makes it difficult, if not 
impossible, to determine who is eligible to receive assistance and why 
assistance is denied. Freedom of Information Act (FOIA) requests to 
FEMA often go months or years without being answered. NLIHC filed a 
FOIA request in December 2018 requesting basic materials, including 
FEMA's application for assistance, procedure manuals for determining 
eligibility, and data sharing agreements with HUD and other federal 
agencies. To date, FEMA has not provided these materials. In other 
cases, FEMA refuses to provide basic information, claiming grounds of 
privilege. In recent years, some progress has been made with the 
release of data after major disasters through FEMA's OpenFEMA portal. 
These changes, while a welcome development, are not enough and may not 
be continued.
    FEMA's leadership, unfortunately, has ignored the research 
consortium's requests to allow deeper access to IA data for research 
purposes, such as evaluating equity in FEMA's response to disasters. 
FEMA's publicly available data simply identifies applicants by their 
ZIP code. There is little ability for community groups, policy and 
research organizations like NLIHC, and academic institutions to obtain 
detailed data that would allow them to examine trends in specific 
neighborhoods, such as identifying neighborhood disparities when it 
comes to FEMA's response.
    The Privacy Act requires federal agencies to protect the privacy of 
individuals by ensuring the confidentiality of an individuals' 
information. In our opinion, FEMA routinely hides behind this Act. 
Other Federal agencies manage to share personally identifying 
information (PII), like an applicant's address, with researchers and 
organizations capable of managing and protecting such confidential 
information. HUD, for example, requires those who wish access to PII 
data to complete a Data License application that is reviewed by 
headquarters. HUD's requirements are clear, unambiguous, and known by 
anyone who wishes to apply. FEMA's process of PII-data sharing, in 
contrast, appears to be arbitrary with little to no transparency. We 
have encouraged FEMA to look to how other federal agencies, including 
the Department of Homeland Security and HUD, have operationalized data 
sharing for research purposes with entities capable of protecting this 
data.
    Basic, essential information about federal disaster response and 
recovery efforts must be made publicly available in a timely manner. 
Application and assistance outcomes should be tracked over the long-
term to enhance data collection and analysis capabilities for disaster 
researchers and policymakers. Program enrollment data, de-enrollment 
data, and other metrics showing the successes and failures of a 
disaster recovery program should also be collected. This enhanced data 
can be used to create best practices to be incorporated into future 
disaster planning and response efforts.

    Question 5. While FEMA has been denying an ability to provide 
temporary sheltering for people in disaster areas who were experiencing 
homelessness pre-disaster, we have seen instances during COVID response 
where the Agency deemed such assistance--in the form of temporary and 
non-congregate sheltering--to be an emergency protective measure and 
thus reimbursable.
    Now that we're more than four months into these declared events, 
has this allowance from FEMA led to a significant demand for 
reimbursement from the Disaster Relief Fund from organizations focused 
on housing and sheltering disaster survivors or other organizations 
focused on services for those experiencing homelessness?
    Answer. People experiencing homelessness are among those 
individuals who have been hardest hit by the pandemic, suffering from 
high rates of severe illness and death from coronavirus. People who are 
homeless and contract coronavirus are twice as likely to be 
hospitalized, two to four times as likely to require critical care, and 
two to three times as likely to die than others in the general public. 
The only way to reduce this risk is to move these individuals to safer 
non-congregate sheltering. While FEMA has worked with states and 
localities under its Public Assistance (PA) program, a very limited 
number of people experiencing homelessness have been able to move into 
temporary motels for self-quarantine and self-isolation. States, local 
governments, and homeless service providers report high barriers to 
using FEMA funds to effectively and efficiently moving people 
experiencing homelessness into hotels.
    Housing and homeless shelter and service providers working directly 
with impacted populations often lack the critical information needed 
from FEMA to plan and interface with the PA program. FEMA failed to 
release clear guidance regarding program rules, including rules related 
to reimbursement eligibility and the use of matching funds. This lack 
of guidance and distrust of FEMA's reimbursement process led to delays 
in housing people experiencing homelessness in hotels. FEMA's rigid and 
narrow interpretations of eligibility unnecessarily complicate the 
assistance process and, in many instances, prevent people experiencing 
homelessness from accessing assistance altogether.\12\ As authorized by 
the Stafford Act, FEMA can administer a wider suite of disaster 
assistance programs designed to be deployed rapidly to address the 
broad range of challenges faced by individuals during and after a 
disaster, including housing instability, financial stress, and the need 
for legal services. Rather than activate existing programs to serve 
people experiencing homelessness amid the public health crisis, FEMA 
placed the responsibility of quickly designing and establishing new 
programs on overburdened state and local governments. As a result, 
state and local governments have reported significant challenges 
negotiating leases, operating hotel programs, and overcoming resistance 
to the programs from local officials and community members.
---------------------------------------------------------------------------
    \12\ Karlis, N. (2020). How bureaucracy kept the Bay Area from 
housing the homeless. Retrieved from https://www.salon.com/2020/06/21/
how-bureaucracy-kept-the-bay-area-from-housing-the-houseless/

    Question 6. This subcommittee has long been focused on mitigation--
the effort to reduce loss of life and property by lessening the impact 
of disasters and with DRRA, we ensured that additional Federal dollars 
are available for pre-disaster mitigation funding.
    How do you believe pre-disaster mitigation funds could be more 
equitably distributed given the increase in large-scale disasters 
negatively impacting the most vulnerable communities? Do you think 
there are steps FEMA should take to direct or re-direct mitigation 
grant programs to communities most in need to ensure a more equitable 
future?
    Answer. Mitigation efforts must be directed to areas directly 
impacted by disasters before focusing on broader mitigation needs. 
Above all else, mitigation goals should focus on bringing marginalized 
and low-income communities up to a basic standard of infrastructure and 
protection from future disasters, rather than on increasing local 
revenue. One way to ensure mitigation projects are equitably 
distributed is to tie funding for mitigation to the level of community 
need. This would require that social vulnerability, housing, and other 
needs are addressed during mitigation planning and implementation.\13\ 
When environmental reviews are required, for example, these reviews 
should include an assessment of the social vulnerability of the 
community.
---------------------------------------------------------------------------
    \13\ See Flanagan et al., A Social Vulnerability Index for Disaster 
Management, 8 Journal of Homeland Security and Emergency Management 1, 
Article 3 (2011). Available at: https://bit.ly/3ePdXvh
---------------------------------------------------------------------------
    Mitigation must become a standard part of evaluating federal funds 
for other housing projects, across all federal agencies. For example, 
at the renewal of HUD funding such as project-based rental assistance, 
there should be a resident-informed evaluation of climate risk and 
serious consideration of alternatives to continuing to fund 
developments in harm's way. In addition, the creation and dissemination 
of mitigation best practices should be a top priority for policymakers 
and mitigation planners.

    Question 7. We are currently experiencing prolonged response to 
COVID-19, which can greatly impact our eventual recovery.
    How do you envision an equitable recovery from the devastating 
impacts of the COVID-19 pandemic? How can we improve recovery planning 
to counteract the disproportionate effects? What do you consider a 
favorable timeline for equitable recovery and how would you approach 
such a timeline?
    Answer. Beyond revealing the inequities of the national disaster 
response and recovery system, the COVID-19 pandemic has exposed 
structural failures that perpetuate discrimination rooted in both 
racism and economic class. Black and Native people--who, even before 
the pandemic, faced higher rates of homelessness and housing 
instability--are most at risk of severe illness and death due to the 
coronavirus, and Black and Latino people are disproportionately harmed 
by the resulting economic impacts. Without significant federal action, 
our nation will see a rise in evictions and homelessness, once again, 
impacting Black and brown people the most. Congress must act to prevent 
this tragic, costly, and entirely preventable outcome by passing a 
relief package that includes the essential resources and protections 
for America's lowest-income renters and people experiencing 
homelessness included in the ``HEROES Act.'' Congress should also pass 
the long-term solutions needed to address the underlying causes of 
homelessness and housing instability that increase the risk of future 
outbreaks: the severe shortage of affordable and accessible housing for 
people with the lowest incomes.
    The National Low Income Housing Coalition, the National Alliance to 
End Homelessness, the Center on Budget and Policy Priorities, and 
National Health Care for the Homeless Council have developed the 
Framework for an Equitable COVID-19 Homelessness Response,\14\ which 
provides guidance for how homelessness systems can leverage the CARES 
Act and approval of other funding sources, such as FEMA PA, to 
simultaneously conduct emergency protective measures and plan for 
recovery-oriented uses of these funds. All components of the framework, 
which will be continuously updated, include a racial justice and equity 
lens.
---------------------------------------------------------------------------
    \14\ ``The Framework for an Equitable COVID-19 Homelessness 
Response.'' Available at: https://endhomelessness.org/a-framework-for-
covid-19-homelessness-response-responding-to-the-intersecting-crises-
of-homelessness-and-covid-19/

    Question 8. What immediate steps could FEMA and its Federal 
partners involved in disaster relief take to promote equity and improve 
disaster impacts for vulnerable populations? And, similarly, what steps 
do you believe Congress must take?
    Answer. A reformed disaster housing recovery system that is 
centered on the needs of the lowest-income and most marginalized 
survivors and their communities must ensure opportunities for resident 
and public engagement, systemic transparency, full accountability and 
due process, robust equity and civil rights enforcement, fair 
mitigation practices, and a focus on increased local capacity and 
benefit. The federal government must ensure that equity is a central 
and explicit goal of federal disaster housing response and recovery 
efforts.
    FEMA should take immediate actions to ensure survivors with the 
greatest needs have access to safe, decent homes while they get back on 
their feet by activating the Disaster Housing Assistance Program 
(DHAP), addressing financial barriers that prevent low-income survivors 
from accessing FEMA's Transitional Sheltering Assistance (TSA) hotel 
program, and ensuring that people experiencing homelessness prior to a 
disaster are eligible for the same emergency shelter and housing 
assistance available to impacted renters.
    Congress can take several actions to improve disaster impacts for 
marginalized communities. Congress should permanently authorize the 
Disaster Housing Assistance Program and automatically activate it after 
every major disaster to provide longer-term housing assistance and 
wrap-around services to low-income survivors. Congress should also 
enact the ``Housing Survivors of Major Disasters Act,'' (H.R. 2914), 
introduced by Representative Adriano Espaillat (D-NY), which contains 
critically needed reforms to ensure that the lowest-income and most 
marginalized survivors can access essential housing assistance.
    Congress should require that FEMA provide basic, essential 
information about federal disaster response and recovery efforts, 
including damage assessments, program design and implementation, how 
federal dollars are spent, the aid application process, and other 
important information.
    Congress should require FEMA to prioritize categorical eligibility, 
simplify the application and appeals process, and track and report on 
outcomes to ensure recovery aid reaches those in need.
    Congress should also require FEMA, HUD, and other federal agencies 
involved in disaster recovery efforts to work together and create a 
single, universal application for aid.
    Finally, Congress should enact clarifying legislation to ensure 
that people experiencing homelessness prior to the disaster have access 
to the same emergency shelter and disaster relief assistance as other 
survivors, including rental assistance.

 Questions from Hon. Henry C. ``Hank'' Johnson, Jr., to Diane Yentel, 
  President and Chief Executive Officer, National Low Income Housing 
                               Coalition

    Question 1. Your testimony illuminates many of the barriers that 
FEMA creates to equitable housing recovery, creating further evidence 
that our systems continue to fail the most vulnerable among us.
    Are you aware of instances where FEMA's inadequate housing response 
has put people experiencing homelessness at greater risk of exposure to 
COVID-19? What has FEMA's coordination looked like at the state level 
to meet housing needs during the pandemic?
    Answer. While FEMA has worked with states and localities under its 
PA program, a very limited number of people experiencing homelessness 
have been able to move into temporary motels for self-quarantine and 
self-isolation. States, local governments, and homeless service 
providers report high barriers to effectively and efficiently using 
FEMA resources to address the health and housing needs of people 
experiencing homelessness. These barriers include the agency's narrow 
eligibility criteria, lack of clear guidance and systemic transparency, 
refusal to activate its full range of programs, and failure to address 
permanent housing needs.
    Lack of clear guidance from FEMA regarding program rules, including 
reimbursement eligibility and the use of matching funds, has 
contributed to delays in moving people experiencing homelessness to 
non-congregate settings. FEMA has neglected to authorize its full range 
of assistance programs to address the pandemic, placing the 
responsibility of quickly designing and establishing non-congregate 
shelter programs on overburdened state and local governments. As a 
result, state and local governments have reported significant 
challenges with hotel negotiations, resistance from local officials and 
community members, and capacity issues. FEMA has no measures in place 
to ensure that individuals temporarily residing in hotels and motels 
are transitioned into permanent housing before PA funding ends. As a 
result, there is widespread concern that participants will be pushed 
back into homelessness when FEMA ends its program--a crisis that is 
preventable and predictable.

    Question 2. Would you say that FEMA's neglect and mishandling of 
housing relief and recovery worsens our nation's history of racist and 
discriminatory housing practices? What would the implementation of 
anti-racist and anti-class discriminatory housing practices from FEMA 
look like?
    Answer. Communities of color are disproportionately harmed by our 
current disaster housing recovery framework. After disasters, people of 
color, people with disabilities, and immigrants face increased 
displacement from the dual threats of disinvestment and speculation, 
which exacerbate the disparities created by segregation and 
inequality.\15\ Many long-term recovery and mitigation efforts continue 
a decades-long legacy of underinvesting in communities of color, 
retrenching segregation and ensuring that these neighborhoods lack the 
basic infrastructure to protect residents from disasters.
---------------------------------------------------------------------------
    \15\ Gretchen Frazee, ``How Natural Disasters Can Increase 
Inequality,'' PBS, April 2019. Available at: https://to.pbs.org/3fwnisu
---------------------------------------------------------------------------
    It is critical for disaster recovery planning to go hand in hand 
with fair housing. Disaster recovery efforts, which often include 
significant funding, represent a unique opportunity to rebuild in a way 
that addresses rather than entrenches these disparities. All actions 
must be explicitly anti-racist: analyzed to determine if they 
exacerbate, leave in place, or ameliorate existing or historic patterns 
of segregation and discrimination in housing and infrastructure and 
remedied accordingly. Given the widespread nature of segregation and 
inequality in the U.S., it is not enough to state the equitable intent 
of a disaster recovery program. Explicit requirements for desegregation 
and adherence to civil rights law must be included in both contractor 
regulations and agreements with states, local governments, and federal 
agencies. Making equity explicit strengthens the ability of protected 
classes to seek legal redress at times when recovery is less than 
equitable. Federal law should require compliance.

Question from Hon. John Garamendi to Diane Yentel, President and Chief 
        Executive Officer, National Low Income Housing Coalition

    Question 1. Ms. Yentel, prior to the COVID-19 pandemic, my home 
state of California was suffering from a severe lack of affordable 
housing. As millions of Californians lose their livelihoods due to this 
pandemic and face a systemic housing shortage, Congress must make 
forward-looking investments in federal programs like the U.S. 
Department of Housing and Urban Development's ``HOME Investment 
Partnerships Program,'' which supports a variety of affordable housing 
activities including: rehabilitation of owner-occupied housing; 
assistance to home buyers; acquisition, rehabilitation, or construction 
of rental housing; and tenant-based rental assistance.
    In June, I introduced the ``HOME Investment Partnerships 
Reauthorization Act'' (H.R. 7312) to increase the authorized funding 
level for the program from $2.2 billion to $6.1 billion annually. Will 
the National Low Income Housing Coalition consider endorsing my bill?
    Answer. NLIHC supports increased investments in affordable housing 
through the national Housing Trust Fund, housing vouchers, and other 
programs, including the HOME Investment Partnerships program. Before we 
reauthorize HOME to significantly increase authorized funding, however, 
we should look at ways to further improve the program so that resources 
can better serve the lowest-income and most marginalized people and 
communities. Given our nation's affordable housing crisis, which does 
disproportionate harm to Black, Native, and Latino renters, we should 
use any reauthorization bill to examine ways federal programs can 
advance racial equity. We look forward to working with you to 
strengthen your bill as it moves through Congress.

                           [all]

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
